N .

In he S preme Co r of he Uni ed S a e
AN

HON

COLL

MORE, PE I IONER

.
HE S A E OF CONNEC IC

, RESPONDEN

ON PETITION FOR RIT OF CERTIORARI
TO THE SUPREME COURT OF
THE STATE OF CONNECTICUT

E I I NF

A
A

S SAN M. HANKINS
C
R
P
265 G
H S
B
, C 06604
: 203-870-9944
SMH
@
.

I
ENDI

F CE

I

A I

a-

INDE
A

A

A

A

A

A

O APPENDI

A: O
,C
S
C
S a e . C ll
e, 334 C
. 431,
233 A.3 1 (2020) ........................................ A1
B: O
G a
C
a
C
S
C
S a e . C ll
e, 324 C
. 913 153 A.3
1288 (2017) ................................................ A70
C: O
,C
A
a C
S a e . C ll
e, 168 C
. A . 847,
148 A.3 1059 (2016) ................................ A71
D: O
C
S
C
G a
M
a D
R
a
(Ma
4, 2020) ............ A131
E: C
a,S a
P
U.S. C
.A
. 5 .............................. A132
U.S. C
.A
. 6 .............................. A132
U.S. C
.A
. 14 ............................ A133
18 U.S. C
6602 ................................. A133
18 U.S. C
6603 ................................ A134
C
. G . S a . 54-47a ....................... A135
F: T a
E
................................ A137
F
a 14, 2013 a E
............... A140
Ma
5, 2013
E
...................... A147
Ma
6, 2013
E
...................... A203
Ma
12, 2013 a E
.................... A215

APPENDIX A

A1
334 C

. 431, 223 A.3 1
C

A E
A

C
.
COLL MO E

A
O

C

( C 19868)
N
7, 2018
J
21, 2020

B
: Defendan a con ic ed in he S e io
Co , J dicial Di ic of Wa e b
, C emin , J., of
felon m de , a em
o commi obbe , con i ac o
commi obbe , and c iminal o e ion of a fi ea m.
Defendan a ealed. The A ella e Co , 168 Conn.A .
847, 148 A.3d 1059, affi med. Defendan e i ioned fo
ce ifica ion o a eal, hich he S
eme Co
g an ed.
H
: The S
eme Co , D'A ia, J., held ha :
1 S a e' fail e o e end imm ni
ha i had g an ed o
i ne e fo e imon gi en d ing S a e' ca e-in-chief
o e imon gi en d ing defendan ' ca e-in-chief did
no iola e defendan ' d e oce and com l o
oce
igh
nde he o ec o ial mi cond c heo
of imm ni ;
2 S a e' e oca ion of imm ni , co led i h ial
co '
a ning o i ne e , did no iola e defendan '
igh
o d e oce and o e en a defen e;
3 iden i of hoo e a no a i
e a o cha ge of
felon m de , a em ed obbe , and con i ac o
commi obbe , and h , ial co ' admi ion of

A2
o ed fi
ime in-co
iden ifica ion e imon did
no im lica e defendan ' d e oce
igh ;
4 iden i of hoo e a a i
e a o cha ge of c iminal
o e ion of a fi ea m, and h , ial co ' admi ion
of
o ed fi
ime in-co
iden ifica ion e imon
im lica ed defendan ' d e oce
igh ; b
5 an e o in ial co ' admi ion of fi
ime in-co
iden ifica ion e imon
a ha mle .
Affi med.
A
L
F
**5 S an M. Hankin , a igned co n el, fo he
a ellan (defendan ).
Robe J. Scheinbl m, enio a i an
a e' a o ne ,
i h hom e e C n hia S. Se afini, enio a i an
a e' a o ne , and, on he b ief, Ma een Pla , a e'
a o ne , fo he a ellee ( a e).
Palme , McDonald, D'A ia, Kahn, Ecke and Ve efe ille
J .
O inion
D'AURIA, J.
*435 The ima
e ion in hi a eal i
he he he
defendan , An hon Coll mo e, a ha med hen he
a e, af e g an ing imm ni
o h ee i ne e
nde Gene al S a e
54-47a fo e imon gi en
d ing he a e' ca e-in-chief, e oked ha imm ni
hen he ame i ne e la e e ified in he defen e
ca e-in-chief. The defendan a eal f om he j dgmen of
he A ella e Co
affi ming he j dgmen of con ic ion,
ende ed af e a j
ial, of felon m de in iola ion
of Gene al S a e
53a-54c, a em
o commi obbe
in he fi
deg ee in iola ion of Gene al S a e
53a-

A3
49 (a) (2) and 53a-134 (a) (2), con i ac o commi
obbe in he fi
deg ee in iola ion of Gene al S a e
53a-48 (a) and 53a-134 (a), and c iminal o e ion of a
fi ea m in iola ion of **6 Gene al S a e
53a-217 (a)
(1).1 He claim ha hi igh
o d e oce and a fai
ial nde he fo een h amendmen o he Uni ed
S a e con i ion, and hi igh
o com l o
oce
and o e en a defen e nde he i h amendmen o
he Uni ed S a e con i ion e e iola ed hen he
ial co
im o e l e mi ed he a e o e oke he
imm ni of he h ee i ne e , ca ing hem o in oke
hei fif h amendmen igh again
elf-inc imina ion.
Addi ionall , he defendan claim ha he A ella e
Co
im o e l denied hi mo ion o econ ide in ligh
of hi co ' holding in S a e . D c
, 322 Conn. 410,
141 A.3d 810 (2016), ce . denied,
U.S.
, 137 S.
C . 2263, 198 L. Ed. 2d 713 (2017), on he g o nd ha
o
i ne e made im o e , fi
ime in-co
iden ifica ion . Beca e e concl de ha he e oca ion of
imm ni did no iola e he defendan
*436
con i ional igh and ha an im o ie ie ega ding
he fi
ime in-co
iden ifica ion
e e ha mle , e
affi m he j dgmen of he A ella e Co .
The follo ing fac , ea onabl fo nd b he j
and
eci ed b he A ella e Co
in S a e . C
e, 168
Conn. A . 847, 850 52, 148 A.3d 1059 (2016), and
oced al hi o a e ele an o o
e ie of he e
claim : On Jan a 18, 2010, he defendan and o of
hi f iend , Ra ha n B gg and Vance Wil on (Vance),
e e d i ing a o nd Wa e b
in a hi e ... fo doo ,
en al H ndai ha he defendan ' a n and ncle had
len o him, looking o ob omeone. E en all he h ee
men d o e in o he Diamond Co
a a men com le ,

A4
hich com i e eigh a a men b ilding . Half a
do n he main oad of he com le , he men a an
e en i e looking, black Ac a o
ili
ehicle (SUV)
and decided o ob i d i e .
The d o e do n a mall oad behind he a a men ,
he e he defendan and Vance lled o
hei g n and
e i ed he H ndai, a ing ha he
e e going o ob
he d i e of he SUV. The defendan had a .38 e ol e ,
and Vance had a .357 e ol e . B gg d o e o he end of
he mall oad and ai ed. The defendan and Vance
eached he SUV, a
o o ng child en nning o a d
i d i e , and decided o call off he obbe . The SUV
d o ea a .
The defendan and Vance hen a
e en een ea old
John F a ie ( ic im) and decided o ob him. A he
e e
ing o ob him, he la ed a a one of hei g n
and an o a d hi a a men , a he en ance o he
com le . The defendan and Vance bo h fi ed ho a he
ic im.
B gg d o e , he defendan and Vance an o e o he
H ndai and go in, and he
ed off o he a a men of
Jaba i Oli han , a clo e f iend ho li ed in Wa e b
.
The e, he defendan and Vance e lained *437 o B gg
and Oli han ha had j
an i ed a Diamond Co ,
namel , ha he had in ended o ob he man in he
SUV b decided no o hen he a hi o ng child en;
in ead, he
ied o ob he ic im and ho him hen he
e i ed. The hen a ked Oli han if he had ome hing o
clean hei g n .

A5
Police a i ed a Diamond Co
i hin min e of he
hoo ing and fo nd he fa all
o nded ic im in f on of
hi famil ' a a men . An a o
e ealed ha a ingle
.38 cla b lle h o gh he ic im' **7 hea had killed
him.2 The defendan a a e ed and ied.
A
ial, he a e' ca e incl ded mo e han hi
i ne e , ho e ified o e he co
e of fif een da . A
j
fo nd he defendan g il , and he co
im o ed a
en ence of eigh - h ee ea in i on. (Foo no e in
o iginal.) Id. The defendan a ealed o he A ella e
Co , claiming, in ele an a , ha he ial co
had
iola ed hi con i ional igh
o d e oce and
com l o
oce b failing o com el B gg, Vance, and
Oli han o e if d ing he defen e ca e-in-chief hen
he in oked hei fif h amendmen igh again
elfinc imina ion af e he a e im o e l e oked he
imm ni
ha i had g an ed he e i ne e d ing he
a e' ca e-in-chief. Id., a 852, 148 A.3d 1059.
The A ella e Co
ejec ed he defendan '
con i ional claim and affi med he j dgmen of
con ic ion, ea oning ha , al ho gh he a e co ld no
e oke imm ni i al ead had g an ed, hi
con i ional igh
e e no iola ed beca e he a e
did no e oke he e i ing imm ni of he e i ne e
b , a he , ef ed o g an addi ional imm ni fo an
an ac ion, ma e , o hing no e ified o and
imm ni ed d ing he a e' ca e-in-chief. Id., a 865,
867, 148 A.3d 1059. The defendan , *438 acco ding o he
A ella e Co , a no con i ionall en i led o ha e
he h ee i ne e g an ed addi ional imm ni beca e
he had failed o e abli h ha he addi ional e imon

A6
o ld ha e been e en ial o hi defen e o
o ld no
ha e been c m la i e. Id., a 870 71, 148 A.3d 1059.
Mo eo e , he A ella e Co
de e mined ha he ial
co
o e l allo ed he i ne e o in oke hei fif h
amendmen
i ilege ega ding e ion no co e ed b
he e i ing imm ni beca e e on i e an e had a
endenc o inc imina e he i ne e and, h , hei
in oca ion of hei fif h amendmen igh
e ailed o e
he defendan ' igh o com l o
oce . Id., a 873
74, 874 n.14, 148 A.3d 1059. The A ella e Co ,
ho e e , al o de e mined ha he ial co
ab ed i
di c e ion b allo ing he i ne e o in oke hei fif h
amendmen
i ilege ega ding e ion co e ed b he
e i ing imm ni beca e hei an e
o ld no ha e
inc imina ed hem b
ha hi e o a ha mle
beca e he i ne e al ead had e ified a leng h and
been bjec o c o -e amina ion on ho e bjec
ma e . Id., a 874 75, 148 A.3d 1059.
S b e en l , he defendan filed a imel mo ion fo
econ ide a ion and ea g men en banc, in ligh of hi
co ' holding in S a e . D c
,
a, 322 Conn. a
410, 141 A.3d 810. The A ella e Co
mma il denied
he defendan ' mo ion.
The defendan e i ioned fo ce ifica ion o a eal, hich
e g an ed, limi ed o he follo ing i
e : (1) [Did] he
A ella e Co
o e l [hold] ha a o ec o ' g an
of imm ni
o a i ne fo hi e imon d ing he
a e' ca e-in-chief doe no e end o he ame i ne '
e imon
hen la e called b he defendan a a
i ne ? (2) If he an e o he fi
e ion i no, a
he e o none hele ha mle ? And (3) [Did] in-co
iden ifica ion e imon made b he ic im' mo he and

A7
b o he , con a
defendan ' d e
oSae .Dc
810]?

o hei
e ial a emen , [ iola e] he
oce
igh *439
an
,[
a, 322 Conn. a 410, 141 A.3d

**8 S a e . C
e, 324 Conn. 913, 153 A.3d 1288
(2017). Addi ional fac
ill be e fo h a e i ed.
I
The defendan fi
claim ha hi igh
o e en a
defen e and o d e oce
e e iola ed a a e l of he
a e' e oca ion of he imm ni i
e io l had
g an ed o fo me
o ec ion i ne e nde 5447a hen he la e e e called a defen e i ne e .
S ecificall , he defendan a g e ha he A ella e
Co
im o e l cha ac e i ed he o ec o ' ac ion
a declining o g an addi ional imm ni
a he han a
e oking e i ing imm ni , hich ho ld ha e e ended
o hi ca e-in-chief. Thi mi cha ac e i a ion, he
defendan con end , led he A ella e Co
o im o e l
add e hi a g men in
o of hi con i ional
claim, namel , ha he a e ac ed im o e l b
in en ionall e oking imm ni
o de i e him of
e c l a o
e imon f om ho e i ne e and ha he
a e' ac ion , co led i h he ial co '
a ning o
he i ne e , im o e l d o e he i ne e f om he
i ne
and.
Mo eo e , he defendan a g e ha he a ha med b
he im o e e oca ion of imm ni , hich ca ed he
i ne e ' b e en , in alid in oca ion of hei fif h
amendmen igh , beca e (1) he i ne e ' e imon
o ld ha e add e ed e c l a o , ma e ial, and
noncolla e al bjec ma e , (2) he i ne e ' e imon

A8
o ld ha e ehabili a ed hei c edibili , and (3) he
a e' ac ion in e fe ed i h hi igh o con ol hi
defen e
a eg b fo cing him o elici e imon d ing
he a e' ca e-in-chief a he han d ing he defen e
ca e-in-chief.
The a e e ond ha he A ella e Co
o e l
cha ac e i ed he o ec o ' ac ion a a ef al o
g an addi ional imm ni , no a a e oca ion
of *440 e i ing imm ni . The a e a g e ha he
defendan a no con i ionall en i led o ha e Vance,
B gg, and Oli han g an ed addi ional imm ni beca e
he failed o e abli h ei he
o ec o ial mi cond c o
ha he addi ional e imon
a ma e ial, e c l a o ,
o e en ial o hi defen e. F he , he a e con end
ha , o he e en ha he ial co
im o e l allo ed
he i ne e o in oke hei fif h amendmen igh
again
elf-inc imina ion, hi e o a ha mle
beca e hei e imon
o ld ha e been c m la i e.
E en if e a
me, i ho deciding, ha he a e
iola ed 54-47a hen i e oked he imm ni i
e io l g an ed o Vance, B gg, and Oli han , e
ag ee i h he a e ha hi ac ion did no iola e he
defendan ' con i ional igh .
A
The follo ing addi ional fac and oced al hi o a e
ele an o hi claim. P io o ial, B gg, Vance, and
Oli han each had gi en a emen
o he olice ha
inc imina ed he defendan . B gg had inc l a ed he
defendan
ice in hi
a emen o he olice and
d ing hi e imon a he defendan ' hea ing in
obable ca e. Vance al o inc l a ed he defendan
ice in hi
a emen o he olice and hen he leaded
g il
o cha ge ela ed o he inciden a i
e. Oli han

A9
like i e inc imina ed he defendan in he
ga e o he olice.

a emen he

When he e i ne e
e e called a
o ec ion
i ne e a
ial, all h ee in oked hei fif h amendmen
igh again
elf-inc imina ion and ef ed o e if . The
a e g an ed imm ni
o he e i ne e
an o
54-47a in e change fo hei e imon . S ecificall , he
a e g an ed B gg
e imm ni fo an d g ac i i
he a engaged in on **9 Jan a 18, *441 2010. 3 The
a e did no
ecificall g an B gg
f om
o ec ion fo an fal e a emen made a he
defendan ' hea ing in obable ca e, hich B gg a
conce ned abo , b i did concede ha i o ld no
o ec e him fo an e j
ha he ma ha e
commi ed a he hea ing in obable ca e.4 The a e
g an ed Vance imm ni f om o ec ion fo making a
fal e a emen in hi
io
a emen .5 The a e
g an ed Oli han imm ni f om o ec ion fo bo h
filing a fal e a emen and hinde ing o ec ion on he
ba i of hi
a emen o he olice.6
De i e he i ne e ' io
a emen
ha inc imina ed
he defendan , he i ne e e dia ed ho e a emen
on di ec e amina ion in he a e' ca e and e ified o
a o e one a e him. All h ee i ne e e ified ha
he did no
o ide he olice i h he info ma ion
con ained in he a emen and had igned he
a emen onl beca e he had been coe ced b he
olice. In ligh of hi e imon , he a e in e
ed he
e imon of each i ne
o call Lie enan *442
Michael Sla in of he Wa e b
Police De a men , ho
e ified ha he a
e en hen he i ne e made

A10
and igned hei
a emen and ha he i ne e had
no been coe ced. Th o gh Sla in, he a e hen had he
a emen of B gg, Vance, and Oli han ead in o he
eco d and admi ed in o e idence fo
b an i e
o e
an o S a e . W e a , 200 Conn. 743,
753, 513 A.2d 86, ce . denied, 479 U.S. 994, 107 S. C .
597, 93 L. Ed. 2d 598 (1986).
Af e he a emen
e e admi ed nde W e a , he
a e ecalled he i ne e and con in ed i h di ec
e amina ion.7 The a e e ioned he i ne e in
de ail abo
hei
io
a emen
o he olice, eading
he a emen
en ence b en ence and a king he
i ne e if he info ma ion con ained in each en ence
a co ec . Al ho gh he a e had no e offe ed in o
e idence B gg'
io e imon **10 f om he obable
ca e hea ing o Vance'
io e imon f om hi lea
oceeding fo
b an i e
o e nde W e a , i
e ioned B gg and Vance abo
he e o he
io
a emen in a fa hion imila o i
e ioning abo
hei
io
a emen
o he olice. The i ne e each
e ified ha , o he e en hei
io
a emen and
e imon
e e incon i en i h hei
ial e imon ,
he info ma ion con ained in he io
a emen and
e imon
a inco ec .
S b e en l , on c o -e amina ion, defen e co n el
e ioned he i ne e e en i el abo all of hei
io
a emen
ha inc imina ed he defendan
and, *443 e eciall , abo
hei ea on fo making
he e io
a emen .8 Al ho gh a hi oin in he
ial, B gg'
io e imon f om he hea ing in obable
ca e and Vance'
io e imon f om hi lea

A11
oceeding had no been admi ed in o e idence fo
b an i e
o e nde W e a , beca e he a e
had e ioned B gg and Vance e en i el abo
hei
io e imon and gone h o gh i i h hem line b
line, defen e co n el a able o e en i el c o e amine hem abo
hei
io e imon . Defen e
co n el al o e ioned he i ne e abo
hei ne
e c l a o
e imon and he e en
ha occ ed on he
nigh of he inciden a i
e.
A

he end of he a e' ca e, af e he e imon of he e
i ne e concl ded, he co
e mi ed he a e o ead
in o he eco d B gg'
io e imon a he hea ing in
obable ca e and Vance'
io e imon a hi lea
oceeding fo
b an i e
o e
an o W e a .
The defen e b e en l called he e i ne e a
defen e i ne e in i ca e-in-chief. P io o aking he
i ne
and, he i ne e
e e info med ha he a e
a no e ending i
io g an of imm ni
o hei
e imon in he defen e ca e-in-chief and a *444 no
illing o g an an addi ional imm ni fo ma e no
co e ed b he io g an of imm ni . S ecificall , he
a e cla ified ha i a no gi ing [ he i ne e ]
imm ni fo an e imon a a i ne in he defen e
ca e. The a e a g ed ha he i ne e ' e imon had
concl ded af e he a e' ca e ended and ha , beca e
he no longe
e e being called a
o ec ion i ne e ,
he did no ha e imm ni f om he a e fo an hing
ha [ he ] ha [ he e if ] o a hi oin on. The
co , ho e e , no ed ha i a nclea a o he he
he imm ni
ha he i ne e al ead had been
g an ed b he a e e ended o hei e imon a
defen e i ne e and ha hi
a an i
e he

A12
A ella e Co
o ld ha e o decide.9 **11 The co
hen ca ioned he i ne e ha hi
a an n e ol ed
i
e, ha he ma o ma no ha e imm ni , and ha
he ho ld be g ided b he ad ice of hei co n el.
S b e en l , hile e if ing d ing he defen e ca e-inchief, he i ne e each in oked hei fif h amendmen
igh and ef ed o an e ome o all of he e ion
a ked. We di c
each i ne ' io
a emen and
ial e imon in
n.
1
A e lained, io o ial, B gg had inc l a ed he
defendan
ice in a a emen o he olice and d ing
hi e imon a he defendan '
obable ca e
hea ing. In hi
a emen o he olice, B gg info med he
olice ha , on he da e of he m de , he, he defendan ,
and Vance had been d i ing a o nd looking
fo *445 omen and ended
a Diamond Co . While in
he a king lo a ea, he defendan a an SUV d i ing
o a d hem. The defendan and Vance di c
ed ho he
man in he SUV obabl had mone , lled o
hei
g n , and aid he
e e going o ob him. B gg a
Vance i h a .357 and he defendan i h a .38 e ol e .
The defendan hen d o e a
he SUV and a ked in a
d i e a . The defendan and Vance e i ed he ehicle
and old B gg o d i e. B gg emained in he ehicle fo
a
o ima el fi e min e and hen hea d fi e o i
g n ho . He hen d o e he ehicle o a d he SUV. The
defendan an o he ehicle, go in o he back ea and
aid, hi nigga' ho . Vance hen an o he ehicle and
al o go in o he back ea . B gg d o e a a and a ked if
he go an hing, o hich Vance aid no and ha he
bo he
ied o ob
ied ome ild hi . B gg a ked
he defendan if he ho he bo . The defendan did no
e ond b a ea ed o be mad a Vance. B gg d o e

A13
hem o Oli han ' ho e, he e he defendan old B gg
ha he did no ob he g in he SUV b
ha
e go
ome o ng nigga alk[ing] b , holding hi ocke , and
he o ldn' gi e i
. [The defendan ] aid ha , beca e
he o ng nigga o ldn' gi e i
, [Vance] a ed ha
nigga. I kno ha a mean o hoo omebod . The
aid he g in he [SUV] had a bab in i , o he fel bad
[and] in ead ook he o ng nigga. [The defendan ] aid
[Vance] ha[d] hi g n o he bo ' che , and he bo
ied
o g ab i and he
a ed o
le o e he g n [and]
ha i
h he ho him. Vance hen a ked fo ome
ammonia o clean hi g n. Vance ke
elling e e one o
kee hei mo h h . B gg hen lef Oli han ' ho e
and en o a
i cl b i h hi b o he . He la e old hi
co in, Ma
i e Foo e, abo
he inciden .
Af e he ga e hi
a emen o he olice, B gg e ified a
he defendan '
obable ca e hea ing. Hi
e imon *446 a imila o, b no en i el con i en
i h, he con en of hi
a emen o he olice.
S ecificall , B gg e ified ha , al ho gh he a Vance
i h a .357 i ol, he onl a
ome hing in he
defendan ' ocke ha he a
med o be a g n.
A
ial, on di ec e amina ion in he a e' ca e-in-chief,
B gg' e imon diffe ed ignifican l f om hi
io
a emen . He e ified ha , on he da e of he inciden ,
he, he defendan and Vance had been d i ing a o nd,
looking o
cha e ma ij ana. The d o e o he a ea
nea Diamond S a e beca e B gg kne of
a **12 na co ic deale he e. In he a , hen B gg
an ed o
cha e ma ij ana, he o ld call he deale ,
and he
o ld mee a Diamond Co . Al ho gh B gg

A14
had no called he deale
io o he c en e c
ion,
he a he deale '
ck, a da k colo ed SUV, a ked in
he a king lo and info med he defendan and Vance
ha he deale
a in he
ck. The defendan hen
a ked do n a ide
ee . The defendan and Vance
e i ed he ehicle. B gg e ified ha he did no ee
ei he of hem i h a ea on. A B gg a
ai ing in he
ehicle, he e ified, he ho gh he hea d g n ho b
a nce ain beca e m ic a la ing in he ehicle.
B gg hen d o e o a d he SUV and a he defendan
coming o a d him, i h Vance a co le of fee behind
he defendan . The defendan and Vance go in o he
back ea of he ehicle, and B gg d o e o he defendan '
ho e, he e he h ee men moked ma ij ana.10
*447 On di ec e amina ion d ing he defen e ca e-inchief, af e he a e info med B gg ha he io g an of
imm ni did no e end o hi e imon d ing he
defen e ca e, defen e co n el e ioned B gg a leng h
abo
eco ded hone con e a ion he had had i h hi
i e and mo he hile he a inca ce a ed. See foo no e
10 of hi o inion. Defen e co n el a ked B gg o cla if
ha hi
a emen o hi i e abo
ki
mean . He
e lained ha ki
mean mone b
ha he had lied
o hi i e and onl aid ha o calm he do n. He
e ified ha he con e a ion a abo Vance' needing
o ell he
h beca e Vance had lied in hi
a emen .
Defen e co n el hen a ked B gg abo
he na e of hi
ela ion hi
i h Foo e in Jan a , 2010, o hich B gg
e onded ha [ ]e a n' cool beca e he ole f om
me. Defen e co n el hen in i ed abo
ha Foo e had
olen f om B gg, in e on e o hich B gg in oked hi
fif h amendmen igh again
elf-inc imina ion. B gg
al o in oked hi fif h amendmen igh in e on e o he

A15
follo ing e ion b defen e co n el: (1) he e he had
d i en he ehicle af e he defendan and Vance e i ed o
cha e ma ij ana, (2) he e eci el he ehicle he
a d i ing a loca ed a he ime he hoo ing occ ed,
and (3) if he had old he
h abo
he ehicle' loca ion
d ing he obable ca e hea ing.11
2
Vance al o inc l a ed he defendan
ice io o he
defendan '
ial in he **13 a emen Vance ga e
o *448 he olice and hen Vance leaded g il
o
cha ge ela ed o he inciden a i
e. In hi
a emen
o he olice, Vance a ed ha , on he da of he inciden ,
he a
i h he defendan and B gg hen he defendan
a ed ha he an ed o commi a obbe
o ge mone
o b hi on a bi hda
e en . Vance ag eed o hel
he defendan commi he obbe . He e ified ha he
defendan d o e hem o an a a men com le
he e
he a a black SUV. The defendan a ked behind one
of he a a men b ilding . Then, he defendan and
Vance ook o
hei g n and go ead o ob he d i e
of he SUV. Vance a ed ha he had a .357 e ol e and
ha he defendan had a .38 e ol e . The defendan and
Vance e i ed he ehicle hile B gg emained in he
ehicle. Acco ding o Vance, he and he defendan decided
no o commi he obbe
hen he a
o child en
n o a d he SUV. Vance and he defendan hen a
he ic im alking in he
ee and decided o ob him
in ead. Vance a ed ha he an
behind he ic im a
he defendan
a g n o he ic im' che . The ic im,
ho e e , la ed he g n a a and an o a d he
en ance of he a a men b ilding. The defendan and
Vance cha ed af e him, and he defendan
a ed
hoo ing a he ic im, fi ing o o h ee g n ho . Vance
e ified ha , hen he a a oman and a man o en he

A16
f on doo of he a a men he ic im a
nning
o a d, he fi ed o o h ee g n ho a he doo o ca e
hem. B gg hen d o e o a d he defendan and Vance,
ho go in o he back ea , and B gg d o e o Oli han '
ho e. The defendan commanded Vance o gi e him hi
g n o ha he defendan co ld ge id of he g n , and
Vance com lied. Vance a ed ha he a no ce ain
he he he o he defendan had ho he ic im.
S b e en l , Vance again inc l a ed he defendan
d ing hi e imon in he oceeding in hich Vance
leaded g il
o cha ge
emming f om hi
a ici a ion *449 in he inciden a i
e.12 D ing he
lea oceeding , Vance'
io
a emen o he olice
a ead in o he eco d, and Vance
o e oi
e aci .
Addi ionall , in e on e o e ion b he o ec o ,
Vance' ei e a ion of he e en of he inciden a i
e
a mo l con i en i h hi
a emen o he olice,
i h a fe mino de ia ion .
Then, a he defendan '
ial, on di ec e amina ion
d ing he a e' ca e, Vance e ified ha ,
a
o ima el one mon h io o he inciden a i
e, he
had gi en he defendan en block of he oin ha he
defendan a
o ed o, b ne e did, a fo . On he
da of he inciden , he defendan called Vance, a ing
ha , if Vance en i h him o collec mone f om a man,
he o ld gi e Vance he mone . Vance ag eed.
S b e en l , he defendan , Vance, and B gg d o e o
Diamond Co . Once a Diamond Co , he defendan
a he man ho o ed him mone coming o of one of
he a a men b ilding
i h o child en. Vance and he
defendan e i ed he ehicle, and B gg d o e a a . The
man and he child en ickl go in o a ehicle and d o e

A17
a a . Vance a g ed i h he defendan o e he
defendan ' fail e o a k he man fo he mone . Vance
hen nched he defendan , in e on e o hich he
defendan a ea ed o each in ide hi clo hing fo a g n.
Belie ing ha he defendan had a g n, Vance g abbed
he Ta
Magn m .357 g n a hi hi and fi ed e en
g n ho in he defendan ' di ec ion. The
defendan **14 an o a d he e B gg had a ked hei
ehicle and a no
ck b an of he b lle . Vance
did no hink he ho an one. The defendan and Vance
go in o he back ea of he ehicle, and B gg d o e o he
defendan ' ho e. Vance e ified ha he e ec ed hi
a emen o he olice o *450 con ain a eci a ion of
he e fac , incl ding an admi ion ha he migh ha e
killed he ic im acciden all
i ha
a b lle hen he
ho a he defendan . Defen e co n el hen e en i el
c o -e amined Vance abo
he e en a i
e and hi
io
a emen .
D

ing he defen e ca e-in-chief, beca e Vance had
a ed ha he o ld no e ond o an
e ion , he
ial co , o ide he e ence of he j
, o de ed
defen e co n el o make an offe of oof. Vance ef ed
o an e an
e ion . S ecificall , he in oked hi fif h
amendmen
i ilege again
elf-inc imina ion in
e on e o he follo ing e ion : (1) ha
omi e did
he olice office make o him a he ime he igned hi
a emen o he olice, (2) did he hoo he ic im, (3)
ha did he de ec i e ell him abo
igning hi
a emen , and (4) did he make a ele hone call o Ka en
A kin in J ne, 2012. Defen e co n el did no a k Vance
an f he
e ion , de i e he ial co ' ad i ing
him o make a eco d of an
e ion he an ed o a k.
Beca e Vance in oked hi fif h amendmen
i ilege in

A18
e on e o e e
e ion a ked, he ial co
led
ha Vance co ld no be called o e if me el o in oke
hi fif h amendmen
i ilege again
elf-inc imina ion.
3
In hi
io
a emen o he olice, Oli han
a ed ha
Vance and he defendan had come o hi ho e on he
nigh of he m de . Vance info med Oli han ha he had
killed he ic im and ha he defendan had been i h
him hen he m de occ ed. Vance and he defendan
old Oli han ha he had gone o looking o ob
omeone b
ha , hen he
ied o ob he ic im, he
fo gh back and an a a , af e hich Vance cha ed him
and ho him in he back. Oli han
a ed ha he
e io l had een Vance i h a .357 g n and ha
Vance had old him he had ed ha g n *451 o hoo
he ic im. Oli han al o a ed ha he kne ha he
defendan had a .38 e ol e .
A

he defendan '
ial, on di ec e amina ion in he
a e' ca e-in-chief, Oli han e ified ha , on he nigh
of he m de , he defendan , Vance, and B gg came o
hi ho e. While Vance and Oli han e e alone in he
ba h oom, Vance old Oli han ha he had killed he
ic im and an ed o kill he defendan and B gg o
elimina e all i ne e . Soon af e he con e a ion in he
ba h oom, Vance, B gg, and he defendan lef he ho e
oge he . A a la e da e, Vance old Oli han mo e
de ail , incl ding ha he had ho a he ic im
a
o ima el fi e ime . Oli han e ified ha , a co le
of da af e he m de , he al o e ioned he
defendan abo
he m de b
ha he defendan did
no an o alk. Oli han e ified ha , b e en l ,
hile he and B gg e e iding in a ehicle, B gg old him
ha , on he nigh of he m de , he had been iding

A19
a o nd, d inking and moking ma ij ana hen Vance go
o of he ehicle and ied o ob he ic im. The ic im
a em ed o figh off Vance, ho hen ho he ic im and
go back in o he ehicle. Oli han f he e ified ha
he e io l had een Vance i h a .357 g n b ne e
had een he defendan i h a g n.
Af e he a e' ca e-in-chief, Oli han a called a a
defen e i ne . P io o he a of Oli han '
e imon , hi co n el info med he ial co
ha
Oli han o ld no e if , [b]a ed on he
e e en a ion **15 ha imm ni
ill no be e ended
o [hi ] being called a a defen e i ne . The co
hen
o de ed ha defen e co n el make an offe of oof
o ide he e ence of he j
.
On di ec e amina ion d ing he offe of oof, Oli han
an e ed o e ion , a ing (1) ha he had been
a e ed fo d g o e ion in 2011, and (2) ha he did
no kno an one named Jamel Wa e b *452 ha he
e io l had been a e ed i h a man named Jamel,
ho e
name he did no kno . Oli han , ho e e ,
in oked hi fif h amendmen
i ilege again
elfinc imina ion in e on e o o o he
e ion : (1)
he he he a bea en hile in olice c od , and (2)
he he he e io l e ified d ing he a e' ca e-inchief ha he fel g il abo Vance. Defen e co n el did
no a k an o he
e ion , de i e he ial co '
a ning ha he e needed o be a com le e eco d.
On c o -e amina ion, he a e a ked h ee e ion
ega ding Oli han ' ela ion hi
i h Jamel, incl ding
he he Oli han o e ed na co ic
hen he
e e

A20
a e ed oge he in 2011, b Oli han in oked hi fif h
amendmen igh in e on e o all h ee e ion .13
The a e a g ed ha , beca e Oli han had in oked hi
fif h amendmen igh in e on e o all e ion o ed
b he a e on c o -e amina ion, hi e imon on di ec
e amina ion o ld ha e o be
icken, and, h , he
co ld no be called o e if befo e he j
. The co
ag eed, ci ing S a e . Pe
, 215 Conn. 653, 577 A.2d
1036 (1990).
B
We no
n o he defendan ' claim. He con end ha
hi igh
o d e oce and com l o
oce
e e
iola ed hen he a e im o e l e oked he imm ni
i had g an ed o B gg, Vance, and Oli han nde 5447a. [A] defendan ha a igh nde he com l o
oce and d e oce cla e o e en [hi ] e ion of
he fac a
ell a he o ec ion' o he j
o [ ha ]
i ma decide he e he
h lie .... The com l o
oce cla e of he i h amendmen gene all affo d
an acc ed he igh o call i ne e
ho e e imon i
ma e ial and fa o able o hi defen e .... (Ci a ion
omi ed; in e nal *453 o a ion ma k
omi ed.) S a e . H
e , 257 Conn. 248, 253, 777 A.2d
627 (2001), ce . denied, 535 U.S. 939, 122 S. C . 1321,
152 L. Ed. 2d 229 (2002). The i
e of he he a
defendan ' igh
o d e oce and com l o
oce
e i e ha a defen e i ne be g an ed imm ni i a
e ion of la and, h , i
bjec o de no o
e ie . Id., a 252, 777 A.2d 627; ee al o S a e . K b ,
280 Conn. 361, 403, 908 A.2d 506 (2006) ( ame). The
defendan ' claim i
emi ed on an alleged iola ion of
54-47a.14 He a g e **16 ha , once he a e g an ed
he h ee i ne e imm ni
nde
54-47a, he a e
o ided hem i h imm ni d ing bo h he a e'

A21
ca e-in-chief and he defen e ca e-in-chief.15 E en if e
a
me, i ho deciding, ha , once he a e g an ed
he e i ne e imm ni
nde 54-47a,16 hi
imm ni e ended h o gho
he en i e ial and co ld
no *454 be e oked d ing he defen e ca e-in-chief, and
ha he a e' fail e o e end he imm ni
iola ed
54-47a,17 e de e mine **17 ha hi iola ion a no
con i ional in na e.
The defendan a g e ha hi alleged e o i of
con i ional magni de and ha , b
mi cha ac e i ing *455 he a e' ac ion a declining o
g an addi ional imm ni
a he han a e oking o
failing o e end imm ni , he A ella e Co
did no
o e l add e hi con i ional claim. S ecificall , he
defendan a g e ha , b mi cha ac e i ing he ac ion of
he a e, he A ella e Co
ne e add e ed (1) hi
allega ion ha he a e ac ed i h he in en o de i e
him of he i ne e ' e imon b e oking imm ni in
iola ion of 54-47a, and (2) he im ac ha he
e oca ion, co led i h he ial co '
a ning , had on
he i ne e and hei deci ion o in oke hei fif h
amendmen igh again
elf-inc imina ion.
1
Fi , he defendan con end ha he A ella e Co
did no add e hi a g men ha d e oce and
com l o
oce
nde he fede al con i ion
e i ed ha imm ni be e ended o he defen e ca ein-chief beca e he a e in en ionall
e en ed he
i ne e f om e if ing in he defen e ca e-in-chief.
E en if e a
me ha he a e' ac ion iola ed 5447a, hi co
ha e lained ha onl nde ce ain
com elling ci c m ance ha e ome fede al co

A22
de e mined ha he igh
o d e oce and
com l o
oce
nde he fede al con i ion e i e
he g an ing of imm ni
o a defen e
i ne . S a e . H
e ,
a, 257 Conn. a 254, 777
A.2d 627; acco d S a e . K b ,
a, 280 Conn. a 403
404, 908 A.2d 506. S ecificall , [ ]he fede al [c]i c i
[c]o
... ha e de elo ed o heo ie
an o hich
he d e oce and com l o
oce cla e en i le
defen e i ne e o a g an of imm ni . The a e he
effec i e defen e heo , and he o ec o ial mi cond c
heo .... Beca e ch ci c m ance [ha e no been
e en in io ca e befo e hi co ], ho e e , e
[ha e no had o] decide he he ei he heo i a co ec
a lica ion of he d e oce o com l o
oce
cla e. (In e nal o a ion ma k
omi ed.) *456 S a e . K b ,
a, a 404, 908 A.2d
506; ee S a e . G a d, 258 Conn. 631, 636 37, 783 A.2d
1019 (2001)(a l ing hi f ame o k hen a e g an ed
o ec ion i ne imm ni d ing hea ing in obable
ca e b
ef ed o e end imm ni
o defendan ' ca ein-chief hen ame i ne
a called a defen e i ne
d ing ial).
The defendan in hi ca e a g e ha onl he
o ec o ial mi cond c heo a lie .18 The
o ec o ial mi cond c **18 heo of imm ni i
ba ed on he no ion ha he d e oce cla e
[con ain ] he o ec o o a ce ain e en in [ he]
deci ion o g an o no o g an imm ni .... Unde hi
heo , ho e e , he con ain im o ed b he d e
oce cla e i o e a i e onl
hen he o ec ion
engage in ce ain
e of mi cond c , hich incl de
fo cing he i ne
o in oke he fif h amendmen o
engaging in di c imina o g an of imm ni
o gain a

A23
ac ical ad an age, and he e imon m
be ma e ial,
e c l a o *457 and no c m la i e, and he defendan
m
ha e no o he o ce o ge he e idence. (In e nal
o a ion ma k omi ed.) S a e . K b ,
a, 280
Conn. a 404, 908 A.2d 506. A in K b , e need no
decide he he he o ec o ial mi cond c heo i
alid, beca e, e en if e did, he defendan ha failed o
e abli h ha he ha a i fied he e i emen of hi
heo in hi ca e.
We ha e de c ibed he e i emen of hi heo a a
e diffic l b den fo a defendan o
mee . S a e . G a d,
a, 258 Conn. a 637, 783 A.2d
1019. S ecificall , he defendan ha he b den of
e abli hing ha (1) he o ec ion engaged in
mi cond c , (2) he e imon
a ma e ial, e c l a o ,
and no c m la i e, and (3) he e a no o he o ce fo
ec ing he e idence. In he e en ca e, he defendan
did no e e
ha he ial co
make a finding
ega ding (a) he he he a e engaged in mi cond c , o
(b) he a e' in en in e oking imm ni . F om he
eco d, i a ea
ha he a e' ac ion
e e ba ed on
i in e e a ion of he a e, no an in en o de i e
he defendan of i ne
e imon . Ne e hele , he e i
a lea
he a ea ance of nfai ne in he a e'
ac ion , e eciall in ligh of he fac ha a defendan ha
he igh o ecall o ec ion i ne e in hi o he o n
ca e-in-chief o in i e in o ma e be ond he co e of
he a e' di ec e amina ion. See S a e . Ca ac
a,
134 Conn. A . 175, 192, 38 A.3d 226 (2012)( [T]he co e
of he a e' di ec e amina ion inhe en l limi
he
co e of he defendan ' c o -e amina ion. I occa ionall
ma be nece a fo he defendan o go be ond he co e
of di ec e amina ion o e en info ma ion ma e ial o

A24
hi defen e. To do o he ma need o ecall a i ne . ).
S ecificall , o he e en ha he defendan in ended o
a k he e i ne e
e ion ha in ol ed bjec
co e ed b he e i ing imm ni b
ha en be ond
he co e of he a e' di ec e amina ion, i o ld
a ea nfai fo he defendan *458 o be denied he
o o ni
o a k he e e ion beca e he a e
e oked imm ni . We ca ion he a e again engaging
in ha o ld a ea o be an nfai and di c imina o
g an of imm ni . E en if e a
me, ho e e , ha he
a e' ac ion
e e nfai and con i ed mi cond c b
engaging in a di c imina o g an of imm ni
o gain a
ac ical ad an age, he defendan ha failed o e abli h
ha he e imon he a
e en ed f om offe ing a
no c m la i e.
The defendan a g e ha he a e' im o e e oca ion
of imm ni , hich ca ed he i ne e o im o e l
in oke hei fif h amendmen igh again
elfinc imina ion, **19 de i ed him of e c l a o ,
ma e ial, and nonc m la i e e imon . S ecificall , he
a g e ha he e imon of B gg, Vance, and Oli han
d ing he defen e ca e o ld ha e o ided addi ional
de ail abo
he defendan ' and he i ne e ' ole in
he a em ed obbe and m de , and o ld ha e
ehabili a ed he i ne e ' and he defendan '
c edibili . We di ag ee.
The defendan ' a g men i
emi ed on hi
b idia
a g men ha , if imm ni had no been e oked, he
i ne e
o ld no ha e been able o alidl in oke hei
fif h amendmen igh again
elf-inc imina ion. Th ,
o de e mine he he he e imon a i
e a

A25
e c l a o , ma e ial, and nonc m la i e, e fi
m
de e mine he he he i ne e co ld ha e alidl
in oked hei fif h amendmen igh , e en if imm ni
had no been e oked. We a e g ided b he follo ing
legal inci le : To
ain he i ilege, i need onl be
e iden f om he im lica ion of he e ion, in he
e ing in hich i i a ked, ha a e on i e an e o
he e ion o an e lana ion of h i canno be
an e ed migh be dange o beca e inj io
di clo
e co ld e l .... In a
ai ing a *459 fif h
amendmen claim b a i ne , a j dge m
be go e ned
a m ch b hi e onal e ce ion of he ec lia i ie of
he ca e a b he fac ac all in e idence. (Ci a ion
omi ed; in e nal o a ion ma k
omi ed.) Ma
. F a a a , 259 Conn. 487, 495 96, 789
A.2d 979 (2002).
When a i ne ' in oca ion of he fif h amendmen
i ilege again
elf-inc imina ion conflic
i ha
defendan ' igh o e en a defen e, he defendan '
igh m
bo o accommoda e o he legi ima e
in e e
in he c iminal ial oce . (In e nal o a ion
ma k omi ed.) R c . A a a , 483 U.S. 44, 55, 107 S.
C . 2704, 97 L. Ed. 2d 37 (1987). The acc ed doe no
ha e an nfe e ed igh o offe e imon ha i
incom e en , i ileged, o o he i e inadmi ible nde
anda d le of e idence. Ta
.I
, 484 U.S.
400, 410, 108 S. C . 646, 98 L. Ed. 2d 798 (1988).
Ho e e , a i ne ' e imon i no
i ileged nde he
fif h amendmen igh again
elf-inc imina ion if he
e imon i
o ec ed b a g an of imm ni .
See S a e . R a, 199 Conn. 110, 115, 505 A.2d 717
(1986); id., a 115 16, 505 A.2d 717 (holding ha i ne
alidl in oked fif h amendmen igh hen e ioned

A26
abo
bjec ma e ha a o ide co e of imm ni
and o ide co e of io e imon ). Addi ionall , once a
i ne
ol n a il ha e ified abo a bjec , he ma
no la e in oke he i ilege again
elf-inc imina ion
hen e ioned abo addi ional de ail in ol ing ha
bjec ma e . See id., a 115, 505 A.2d 717 ( [ ]he e he
i ne ... ha al ead e ified, on di ec e amina ion, o
he inc imina ing ma e
o gh o be e lo ed on c o ,
he ma be fo nd o ha e ai ed hi igh no o di clo e
f he he ele an de ail nece a
o e
he
ho
acc ac of ha he ha al ead e ealed ).
Wi h ega d o he e imon of B gg, Vance, and
Oli han , e en if e a
me ha he a e iola ed 5447ab e oking imm ni and ha imm ni
ho ld *460 ha e e ended o he defen e ca e-in-chief,
he h ee i ne e alidl in oked hei fif h amendmen
igh in e on e o ome, ho gh no all, of he e ion
o ed on di ec e amina ion d ing he defendan ' ca e.
B gg an e ed man of he e ion a ked b defen e
co n el on di ec e amina ion d ing he defen e ca e-inchief. Af e e if ing ha he did no ha e a good
ela ion hi
i h Foo e a he ime of he m de beca e
Foo e had olen f om him, B gg in oked hi
fif h **20 amendmen igh in e on e o a e ion
abo
ha Foo e had olen f om him. B gg al o in oked
hi fif h amendmen igh in e on e o e ion abo
eci el
he e he ge a a ehicle he a d i ing a
loca ed a he ime he hoo ing occ ed.19
A o he e ion abo
ha Foo e ole f om B gg,
B gg and hi co n el belie ed ha ha e e Foo e ole
co ld o ibl
bjec B gg o c iminal cha ge . E en if
ea
me ha ha a
olen in ol ed ome fo m of

A27
con aband, B gg'
ee i ing imm ni , hich co e ed
onl d g ac i i on he da of he
m de ,20 o ld *461 no ha e e ended o hi e on e
o hi
e ion, e en if he imm ni had no been
e oked. Th , B gg alidl in oked hi fif h amendmen
i ilege in e on e o hi
e ion, ega dle of he
e oca ion of imm ni .
A o he e ion ega ding he loca ion of he ge a a
ehicle, o he e en ha he loca ion of he ehicle migh
im lica e B gg in d g ac i i on he da of he
m de a B gg a he ge a a d i e in ha he
claimed began a a na co ic deal
nde he b oad
anda d ha a lie , he g an of imm ni co e ed
he e e ion . See Ma
.Fa a a ,
a, 259
Conn. a 495, 789 A.2d 979 (in oca ion of fif h
amendmen igh i alid if he e
be dange of
inj io di clo
e). The efo e, if imm ni had no been
e oked, B gg' in oca ion of hi fif h amendmen
i ilege in e on e o he e e ion
o ld ha e been
in alid.
Vance, ho a g an ed imm ni f om o ec ion onl
fo making a fal e a emen o he olice and d ing hi
lea oceeding , in oked hi fif h amendmen igh
again
elf-inc imina ion d ing he defen e ca e-in-chief
a o he follo ing e ion : (1) did he hoo he ic im,
(2) ha
omi e did he olice office make o him a
he ime he igned hi
a emen , (3) ha did he
de ec i e ell him abo
igning he a emen , and (4)
did he make a ele hone call o A kin in J ne, 2012?
The g an of imm ni
o ld ha e co e ed Vance'
e on e o he fi
e ion if hi e on e e abli hed
ha he lied in hi
a emen o he olice o d ing he

A28
lea oceeding abo
hoo ing he ic im. Th , hi
in oca ion of hi fif h amendmen
i ilege in e on e o
ha
e ion o ld ha e been in alid if imm ni had
no been e oked.
Addi ionall , he g an of imm ni
o ld ha e co e ed
Vance' e on e o he econd and hi d
e ion *462 if he had e abli hed ha he a
coe ced in o **21 igning hi
a emen o he olice and
ha he info ma ion i con ained a fal e, and, h ,
ha he had made a fal e a emen . The efo e, hi
in oca ion of hi fif h amendmen
i ilege in e on e o
ho e e ion
o ld ha e been in alid if imm ni had
no been e oked.
Vance' e on e o he fo h e ion o ld ha e been
o ide he co e of he imm ni he a g an ed beca e
i did no in ol e hi
io
a emen , hich did no
men ion A kin , and, h , he e oca ion of imm ni
had no effec on hi in oca ion of hi fif h amendmen
i ilege a o hi
e ion. Addi ionall , Vance ne e
e ified abo a ele hone call o A kin d ing he
a e' ca e and, h , did no ai e hi fif h amendmen
igh a o ha
e ion. Mo eo e , he eco d i oid of
info ma ion ega ding A kin , fo e am le, ho he i and
he im o ance of hi ele hone call, and, h , i i
nclea ho Vance' e on e o hi
e ion o ld ha e
ended o inc imina e him. Beca e i i he defendan '
b den o e abli h ha m; ee, e.g., S a e . B
,
323 Conn. 620, 626 27, 149 A.3d 975 (2016); e canno
concl de ha Vance o ld ha e in alidl in oked hi
fif h amendmen igh if imm ni had no been e oked.

A29
Oli han , ho a g an ed imm ni f om o ec ion
fo filing a fal e a emen and hinde ing o ec ion on
he ba i of hi
a emen o he olice, in oked hi fif h
amendmen igh hen he a e amined21 b he
defendan in hi ca e-in-chief in e on e o e ion
abo (1) he he he had been bea en hile in olice
c od and (2) he he he e io l had
e ified *463 in he a e' ca e ha he fel g il abo
Vance.22The g an of imm ni
o ld ha e co e ed
Oli han ' e on e o he fi
e ion if i e abli hed
ha he a coe ced in o making and igning a fal e
a emen o he olice and, h , had made a fal e
a emen . The efo e, he in oca ion of hi fif h
amendmen
i ilege in e on e o ha
e ion o ld
ha e been in alid if imm ni had no been e oked.
Simila l , he g an of imm ni
o ld ha e co e ed
Oli han ' e on e o he econd e ion if i
e abli hed ha he fel g il beca e he lied abo
ha
occ ed on he nigh of he m de and, h , had made
a fal e a emen in hi
a emen o he olice.
The efo e, hi in oca ion of hi fif h amendmen
i ilege
in e on e o ha
e ion o ld ha e been in alid if
imm ni had no been e oked.
To he e en ha he e i ne e alidl in oked hei
fif h amendmen
i ilege, e en if imm ni had no been
e oked, he defendan ha failed o e abli h ha he
e oca ion of imm ni
iola ed hi con i ional igh
nde he o ec o ial mi cond c heo beca e he
i ne e **22 o ld no ha e an e ed he e e ion
an a , and, h , hei e imon
o ld no ha e been
e c l a o . To he e en he i ne e co ld ha e
in alidl in oked hei fif h amendmen igh if he
imm ni had no been e oked, ho e e , e m

A30
de e mine he he he in alid in oca ion *464 de i ed
he defendan of ma e ial, e c l a o , and
nonc m la i e e imon . We de e mine ha he did no
beca e he defendan ha failed o e abli h ha he
e imon
o ld no ha e been c m la i e.
To mma i e, B gg in alidl in oked hi fif h
amendmen igh in ega d o e ion abo
he
loca ion of he ge a a ehicle ha he o e a ed a he
ime of he hoo ing. Vance in alidl in oked hi fif h
amendmen igh in ega d o e ion abo
he he he
ho he ic im, ha
omi e he de ec i e made o him
hen he igned hi
a emen o he olice, and ha he
de ec i e old him abo
igning he a emen . Oli han
in alidl in oked hi fif h amendmen igh in ega d o
e ion abo
he he he a bea en hile in olice
c od and he he he e io l e ified in he a e'
ca e abo feeling g il abo Vance. The defendan
a g e ha he o o ed in i ie add e ed
nonc m la i e, e c l a o , and ma e ial info ma ion
abo
he e en a i
e and o ld ha e ehabili a ed
hi c edibili and ha of he i ne e .23 S ecificall , he
a g e ha he e B gg mo ed and a ked he ge a a
ehicle o ld ha e hel ed e abli h bo h ha B gg
i ne ed and he he an of he o he i ne e , ch
a , fo e am le, he *465 ic im' mo he and
b o he ,24 e e able o ee he ge a a ehicle.
Addi ionall , he defendan a g e ha he loca ion of he
ge a a ehicle o ld ca do b on he c edibili of
Foo e' e imon ha B gg had old him ha he
i ne ed he hoo ing.25

A31
Al ho gh e ag ee ha hi info ma ion o ld be
ma e ial, e di ag ee ha he defendan ha e abli hed
ha i a no c m la i e. D ing he a e' ca e, bo h
he defendan and he a e e ioned B gg abo
he
loca ion of he ge a a **23 ehicle befo e, d ing, and
af e he hoo ing. Al ho gh B gg'
io e imon ,
hich men ioned he loca ion and mo emen of he
ge a a ehicle, a no ead in o he eco d fo
b an i e
o e n il af e B gg e ified in he
a e' ca e, he a e e ioned B gg abo hi
io
e imon , going h o gh i en ence b en ence. Then,
on c o -e amina ion, defen e co n el bo h had he
o o ni
o, and did, in fac
e ion B gg abo hi
io e imon , incl ding he loca ion of he ge a a
ehicle and hi mo i e fo
o iding he io e imon .
The defendan ha failed o iden if an e imon B gg
o ld ha e o ided on hi
bjec ha he did no
al ead
o ide in he a e' ca e26 and he efo e
ha *466 o ided
i h no ea on o belie e ha an
f he e imon b B gg on hi
bjec o ld no ha e
been c m la i e.
The defendan al o a g e ha Vance o ld ha e
o ided ma e ial e imon beca e iden if ing ho ho
he ic im and f om he e he g n ho o igina ed e e
cen al i
e a
ial. Addi ionall , he a g e ha a king
Vance abo
ha he de ec i e aid o him and
omi ed him in ega d o hi
a emen o he olice a
c cial o ehabili a ing hi c edibili b e abli hing
ha he had been coe ced in o igning he a emen .
Again, e ag ee ha hi info ma ion a ma e ial, b
e al o de e mine ha he defendan ha failed o
e abli h ha i a no c m la i e. D ing he a e'
ca e, bo h a ie
e ioned Vance a leng h abo hi

A32
ole in he m de . In all of hi diffe en
a emen and
a ing e imon , Vance admi ed ha he fi ed hi
ea on on he nigh of he m de a he cene of he
c ime and ma ha e (acciden all o o he i e) ho he
ic im. The defendan , ho ha he b den of e abli hing
ha he ha a i fied all h ee ong of he o ec o ial
mi cond c heo , ha
o ided no eco d o e abli h
ha , had Vance once again been e ioned *467 abo
ho ho he ic im, hi e imon
o ld ha e o ided
an ne info ma ion.
Simila l , bo h a ie
e ioned Vance a leng h abo
hi allega ion of olice coe cion. Defen e co n el en
ignifican ime on c o -e amina ion in he a e' ca e
a em ing o ehabili a e Vance' c edibili b
e abli hing ha he de ec i e coe ced him in o igning
he a emen ha he ga e o hem. Al ho gh i i
e
ha Vance'
io e imon a hi lea oceeding
a
no ead in o he eco d fo
b an i e
o e n il
af e hi e imon in he a e' ca e
concl ded, **24 Vance had been e ioned b bo h
a ie abo hi
io e imon d ing he a e' ca e,
and, h , defen e co n el al ead had a em ed o
ehabili a e Vance' c edibili in ega d o hi
io
e imon . Mo eo e , he defendan ha failed o iden if
an ne and non i ileged e imon ha Vance o ld
ha e o ided on he e bjec
ha he had no al ead
o ided in he a e' ca e. A a e l , he defendan ha
failed o e abli h ha an f he e imon b Vance on
he e bjec ma e
o ld no ha e been c m la i e.27
The defendan imila l a g e ha Oli han ' e imon
o ld ha e been ma e ial and e c l a o beca e
he he Oli han a bea en hile in olice c od and
he he he fel g il abo Vance e e ma e
ha

A33
e ained o Oli han ' c edibili . The eco d e abli he ,
ho e e , ha Oli han e ified abo
he e bjec
ma e in he a e' ca e. See foo -no e *468 7 and 22
of hi o inion. Defen e co n el en con ide able ime
on c o -e amina ion a em ing o ehabili a e
Oli han ' c edibili b e abli hing ha he had igned
he a emen he made o he olice af e he had bea en
and coe ced him and ha he fel g il fo ha ing lied
abo
he defendan ' ole in he m de . The defendan
ha no iden ified an ne e imon ha Oli han o ld
ha e o ided on he e bjec . Th , he defendan ha
failed o e abli h ha Oli han ' e imon
o ld no
ha e been c m la i e.
The defendan f he a g e , gene all , ha , beca e
o he i ne e e ified on behalf of he a e af e he e
i ne e and beca e Vance'
io e imon in hi lea
oceeding and B gg'
io e imon a he hea ing in
obable ca e e e ead in o he eco d af e hei
e imon had concl ded, he ho ld ha e had an
o o ni
o conf on he e i ne e abo
he e
b e en iece of e idence, hich o ld no ha e been
c m la i e. The defendan a g e ha b no ha ing hi
o o ni , he a e ic ed o emain i hin he
a ame e of he a e' ca e and denied he igh o
com o e hi defen e
a eg a he ho gh be . He
a g e ha he had com elling ac ical ea on o ai o
a k ce ain e ion n il he defen e ca e, af e all of
he a e'
i ne e had e ified.
We ag ee ha , in gene al, a defendan i no limi ed o
he co e of he a e' ca e and ma ecall a a e'
i ne a a defen e i ne
o in i e in o a ea no
e io l di c
ed in he a e' ca e.28 See

A34
S a e . Ca ac
a,
a, 134 Conn. A . a 192 93, 38
A.3d 226. Ho e e , i h he e ce ion of he e ion
abo
ha Foo e ole f om B gg, o hich B gg had a
alid claim of *469 i ilege, he defendan ha failed o
o ide a eco d of ha o he e idence he an ed o
conf on he i ne e abo
ha he did no al ead a k
abo in he a e' ca e. Al ho gh B gg'
io e imon
f om he hea ing in obable ca e and Vance'
io
e imon f om hi lea **25 oceeding
e e admi ed
fo
b an i e
o e af e ho e i ne e e ified in
he a e' ca e, bo h a ie
e ioned B gg and Vance
e en i el d ing he a e' ca e abo
he b ance of
ha e imon and hei mo i e fo
o iding ha
e imon . De i e in i ie b he ial co , he
A ella e Co , and hi co , he defendan ha been
nable o a ic la e ei he
ha
e ion he o ld ha e
a ked ha o ld ha e led o ne and no
i ileged
info ma ion o a
a egic ea on fo dela ing a king
ce ain e ion . Th , he defendan ha failed o
e abli h ei he ha hi defen e
a eg
a im o e l
c ailed o ha he a
e en ed f om in i ing in o
bjec a ea o ide he co e of he a e' ca e ha
o ld ha e led o ne and no c m la i e e imon .
Acco dingl , beca e he defendan ha failed o o ide
hi co
i h a eco d e abli hing ha ne
info ma ion he e i ne e
o ld ha e o ided if he
a e had no e oked hei imm ni , he ha failed o
e abli h ha he a e' iola ion of 54-47a, a
ming
ha a iola ion did occ , iola ed hi con i ional
igh
o d e oce and com l o
oce
nde he
o ec o ial mi cond c heo of imm ni .
2

A35
Wi h ega d o he defendan ' econd a g men in
o of hi con i ional claim, he defendan
con end ha , b failing o ca ego i e he a e' ac ion
a e oking imm ni , he A ella e Co
im o e l
failed o con ide he he he e oca ion of imm ni ,
co led i h he ial co '
a ning o he
i ne e , *470 b an iall in e fe ed i h hi igh o
e en a defen e b in imida ing he i ne e and
d i ing hem f om he i ne
and. Al ho gh e ag ee
i h he defendan ha he A ella e Co
did no
add e
he im ac he e oca ion of imm ni , co led
i h he ial co '
a ning ,29 had on he i ne e
and hei deci ion o in oke hei fif h amendmen
igh , e do no ag ee ha he im ac a
ch ha he
defendan ' igh
o d e oce and o e en a defen e
e e iola ed.
Nei he he ial co
no he o ec o ma in imida e
a i ne and d i e him f om he i ne
and. See,
e.g., Webb . Te a , 409 U.S. 95, 98, 93 S. C . 351, 34 L.
Ed. 2d 330 (1972) ( j dge' h ea ening ema k ...
effec i el d o e ha i ne off he and, and h
de i ed he e i ione of d e oce ); U ed
S a e . W a , 205 F.3d 23, 29 (2d Ci .) ( j dicial o
o ec o ial in imida ion ha di
ade a o en ial
defen e i ne f om e if ing fo he defen e can, nde
ce ain ci c m ance , iola e he defendan ' igh o
e en a defen e ), ce . denied, 531 U.S. 885, 121 S. C .
203, 148 L. Ed. 2d 142 (2000). Ne e hele , [ ]he
f nc ion of he co
in a c iminal ial i o cond c a fai
and im a ial oceeding.... When he igh of ho e
o he han he a ie a e im lica ed, [ ]he ial j dge ha
he e on ibili fo afeg a ding bo h he igh of
he **26 acc ed and he in e e
of he blic in he

A36
admini a ion of c iminal j ice.... *471 Acco dingl , i
i
i hin he co ' di c e ion o a n a i ne abo
he o ibili of inc imina ing him elf.... The co ,
ho e e , ab e i di c e ion if i ac i el in e fe e in
he defendan '
e en a ion of hi defen e, and he eb
e
e a i ne in o emaining ilen .... The
di o i i e e ion in each ca e i
he he he
go e nmen ac o ' in e fe ence i h a [ i ne '] deci ion
o e if
a
b an ial. (Ci a ion omi ed; in e nal
o a ion ma k omi ed.) S a e . T
, 157 Conn. A .
453, 475 76, 117 A.3d 920 (2015), a eal di mi ed, 323
Conn. 784, 151 A.3d 382 (2016).
The e en ca e i di ing i hable f om he ca e ci ed
b he defendan in hich a ning i
ed b co
o
o ec o ha e been held o be coe ci e. In ho e ca e ,
he go e nmen ac o g a i o l and h ea eningl
a ned he i ne abo commi ing e j
, h ea ened
o e oke a lea ag eemen , o made he i ne e
h icall na ailable. See, e.g., Webb . Te a ,
a,
409 U.S. a 97, 93 S.C . 351, 34 L.Ed.2d 330 ( The ial
j dge g a i o l ingled o
hi one i ne fo a
leng h admoni ion on he dange of e j
.... [And] he
j dge im lied ha he e ec ed [ he i ne ] o lie, and
en on o a
e him ha if he lied, he o ld be
o ec ed and obabl con ic ed fo e j
.... ); U ed
S a e . Va a e , 151 F.3d 1185, 1190 91 (9 h Ci .
1998) ( o ec o
b an iall in e fe ed i h i ne '
deci ion he he o e if
hen a ning abo
commi ing e j
e e in imida ing and in ended o
ifle i ne ' e imon
he e o ec o made an
nambig o
a emen of hi belief ha [ i ne ] o ld
be l ing if he e ified in
o of [defendan ' ] alibi
and h ea ened o i hd a
i ne ' lea ag eemen in

A37
n ela ed ca e if he e ified in
o of defendan '
alibi [em ha i omi ed] ); U ed S a e . M
, 535
F.2d 223, 225 26, 227 (3d Ci . 1976) (d ing mee ing in
hi office on da befo e i ne
e ified, o ec o
e ea edl
a ned i ne abo commi ing e j
,
hich c lmina ed in a highl in imida ing
e onal *472 in e ie ); U ed S a e . Be , 506 F.2d
207, 222 (D.C. Ci . 1974) ( [g]o e nmen condi ioned i
acce ance of [ i ne e ' g il ] lea
on hei
commi men o ef ain f om e if ing [in defendan ' ]
behalf ); U ed S a e . T a a a, 500 F.2d 420, 422,
423 (9 h Ci . 1974) ( he go e nmen laced i ne e ,
ho ma ha e been fa o able o he a ellee , o ide he
o e of o co
o e i e a endance hen i
ecl ded a ellee f om in e ie ing hem b elea ing
hem and ending hem back o Me ico beca e he
e e
illegal alien
ho e e no
bjec of g and j
in e iga ion); ee al o S a e . T
,
a, 157 Conn.
A . a 476, 117 A.3d 920 (co
ha e fo nd in e fe ence
hen go e nmen ac o ei he
e ed in o ole of
i ne ' ad oca e o
ecificall h ea ened i ne ).
In he e en ca e, nei he he ial co
no he
o ec o h ea ened he i ne e . The i ne e
e e
no bomba ded i h m l i le a ning , e e no a ned
ha e if ing in fa o of he defendan o ld lead o
e j
cha ge , e e no h ea ened i h ha ing hei
lea deal e oked, and e e no made h icall
na ailable. Al ho gh he co
ma no h ea en a
i ne in o emaining ilen o effec i el [d i e] ha
i ne off he and ; (in e nal o a ion ma k
omi ed) S a e . F ed C., 167 Conn. A . 600, 613, 142
A.3d 1258, ce . denied, 323 Conn. 921, 150 A.3d 1150
(2016); a co
ma ad i e a i ne
ho ha e ified

A38
incon i en l of he con e ence of commi ing e j
,
a long a he co
doe no
gge
hich e ion of he
i ne ' **27 e imon i co ec . Id., a 613 14, 142
A.3d 1258. He e, he co
ca ioned he i ne e ha
he la
a n e led a o he he he had
imm ni 30 and ha *473 he ho ld follo he ad ice
of co n el a o he he he ho ld e if . The co
did
no h ea en he i ne e in an
a . Al ho gh he a e
did info m he i ne e ha i a e oking imm ni
and ha none of hei e imon d ing he defen e ca e
o ld be co e ed b an imm ni , he eco d doe no
eflec ha i did o in a h ea ening manne . Ra he , i
info med he co
and i ne e of ho i in e e ed he
imm ni
a e. The a e ne e h ea ened he
i ne e ha , in ligh of hi e oca ion of imm ni , i
o ld o ec e he i ne e if he e ified o if he
e ified in a manne nfa o able o he a e' ca e. The
a e' ac ion migh ha e been a fac o in he i ne e '
deci ion o in oke hei fif h amendmen igh , b
[a]
defendan ' con i ional igh a e im lica ed onl
he e he o ec o o
ial j dge em lo c e c e
da
lang age o ac ic ha
b a a
e fe e i h a defen e i ne ' deci ion he he o
e if . (Em ha i added.) U ed S a e . Va a e ,
a, 151 F.3d a 1189. The a e' info ming he
i ne e of ha i belie ed o be he co e of he
imm ni
a e a no o coe ci e o in imida ing a o
b an iall in e fe e i h he i ne e ' deci ion .
Mo eo e , B gg, Vance, and Oli han all e e
e e en ed b co n el and had an o o ni
o eak
i h hei co n el ega ding hei deci ion o in oke
hei fif h amendmen igh . See U ed
S a e . Se a , 406 F.3d 1208, 1216 (10 h
Ci .) ( o en ial fo ncon i ional coe cion b a

A39
go e nmen ac o ignifican l dimini he ... if a
defendan '
i ne elec no o e if af e con l ing
an inde enden a o ne [em ha i omi ed] ), ce .
denied, 546 U.S. 913, 126 S. C . 277, 163 L. Ed. 2d 247
(2005); S a e . T
,
a, 157 Conn. A . a 477, 117
A.3d 920 ( ame).
Th , he e oca ion of imm ni , co led i h he ial
co '
a ning o he i ne e , did no d i e he e
i ne e f om he i ne
and and, h , did *474 no
iola e he defendan ' igh
o d e oce and o
e en a defen e. Acco dingl , e en if e a
me ha
he a e iola ed 54-47a b e oking he imm ni i
e io l g an ed o B gg, Vance, and Oli han , hi
e o a no con i ional in na e. Th , he
defendan ha failed o e abli h ha , b e oking hi
imm ni , he a e iola ed hi con i ional igh .
II
The defendan ne claim ha ,
an o hi co '
ecen deci ion in S a e . D c
,
a, 322 Conn. a
410, 141 A.3d 810, hi igh o d e oce
a iola ed b
he fi
ime in-co
iden ifica ion31 e imon of he
ic im' mo he , Nell Robin on, and b o he , Geo ge C.
F a ie . A o Robin on, he defendan a g e ha ,
beca e he did no
e io l info m an one ha he
had i ne ed he hoo ing o ha he co ld de c ibe he
hoo e , he de c i ion of he hoo e **28 con i ed
a fi
ime in-co
iden ifica ion bjec o D c
.A
o Geo ge F a ie , he defendan a g e ha , beca e he
did no
e io l iden if he defendan in an o -ofco , non gge i e iden ifica ion oced e, hi in-co
iden ifica ion iola ed D c
. The defendan f he

A40
a g e ha bo h iden ifica ion
a ea onable do b .

e e no ha mle

be ond

The a e e ond ha D c
doe no a l beca e
iden i
a no a i
e in he e en ca e. Addi ionall ,
he a e con end ha , a o Robin on, D c
doe no
a l beca e he de c i ion of he hoo e did no
con i e an iden ifica ion. A o Geo ge F a ie , he
a e a g e ha D c
doe no a l beca e hi inco
iden ifica ion of he defendan a n olici ed and
nan ici a ed, and D c
a lie onl in ca e in hich
he a e in end o e en a fi
ime in-co
iden ifica ion .... *475 Id., a 445, 141 A.3d 810. Finall ,
he a e a g e ha , o he e en ha D c
a lie ,
he admi ion of he e imon
a ha mle beca e of
he a e'
ong ca e, hich he defendan ' o n
e imon la gel co obo a ed.
We ag ee i h he a e ha , e en if e a
me ha
Robin on and Geo ge F a ie made in-co
iden ifica ion , iden i
a no a i
e a o he cha ge
of a em ed obbe , con i ac o commi obbe , and
felon m de , and, h , he admi ion of he fi
ime
in-co
iden ifica ion did no im lica e he defendan '
igh o d e oce . Ho e e , e di ag ee ha iden i
a no a i
e in ela ion o he cha ge of c iminal
o e ion of a fi ea m. Ne e hele , e de e mine ha
an e o a ha mle be ond a ea onable do b .
A
The follo ing addi ional fac a e nece a
oo
e ie
of hi claim. A
ial, Robin on, he ic im' mo he ,
e ified ha , a he ime of he inciden , he a in he
a a men on he econd floo i oning clo hing hen he

A41
hea d he ic im ell and looked o
he indo o ee
him nning and d cking a
o men ho a him. She
de c ibed he o hoo e : One a alle han he
o he , and one a
ockie and ho e han he o he
one. She e ified ha he ho , ock one fi ed o
g n ho a he ic im and ha he o he one hen fi ed
o g n ho .32 Robin on f he e ified ha he an
do n ai
o he f on doo , *476 he e he
o o he
child en e e anding, i h he doo o en. The ic im
a o ide he doo eaching o a d he . She g abbed
him and laid him on he g o nd. She looked a o nd and
a he o hoo e ge in o a hi e ca ha
ed a a .
She e ified ha he old all of hi o he olice a he
cene of he c ime b admi ed ha , in he
i en
a emen o hem, he e i no efe ence o **29 he
ha ing i ne ed he hoo ing o ha ing een he
hoo e .33
Follo ing Robin on' e imon , Geo ge F a ie he on
and he ic im' b o he
e ified ha , a he ime of he
inciden , he a in ide hi famil ' a a men and hea d
elling. He en o look o
he do n ai
indo and
a he ic im nning and elling fo hei mo he .
Geo ge F a ie e ified ha he en o o en he f on
doo and hea d a
o ima el fi e g n ho . He e ified
ha , hen he o ened he f on doo , he a he ic im on
he floo o ide hei a a men . He f he e ified ha
he hea d g n ho coming f om he di ec ion of mailbo e
on he emi e and a
o hoo e and a hi e, fo
doo ehicle a ked i h h ee men in ide. He e ified
ha he did no
e io l info m he olice ha he a
o hoo e and ne e iden ified he defendan a one of
he hoo e b
ecalled ha he defendan a one of
he o hoo e
[b]eca e he man ha
and in f on

A42
of me, I ecogni e hi face. He ecified ha he a [ he
defendan ] i h a g n b
ne e old an bod *477 ha
n il no . He e ified ha he defendan a
i ha
ho , ligh - kinned e on.
Geo ge F a ie
a
bjec o e en i e c o e amina ion, d ing hich he e ified ha he had
ffe ed f om a b ain mo a fe mon h af e he
ic im' m de and had diffic l
ecalling info ma ion.
On c o -e amina ion, he e ified incon i en l abo
ha he ecalled, hen and he e he hea d he g n ho ,
and ha he had old he o ec o . Af e hi e imon
concl ded, he o ec o en on he eco d, o ide he
e ence of he j
, o a e ha Geo ge F a ie had
e ified fal el a o hen he had me i h he and ha
hi e imon
a nan ici a ed, ecificall , hi
e imon abo
i ne ing he hoo ing and hi
iden ifica ion of he defendan a one of he hoo e .
Defen e co n el aid no hing on he ma e .
B
[W]he he [a a ] a de i ed of hi d e oce
igh i a e ion of la , o hich e g an lena
e ie .... (In e nal o a ion ma k
omi ed.) S a e . D c
,
a, 322 Conn. a 423, 141
A.3d 810. Whe he he admi ion of e e i ne
iden ifica ion e imon iola ed d e oce i
emi ed
on he he he iden ifica ion oced e a
nnece a il
gge i e: In he ab ence of nd l
gge i e oced e cond c ed b
a e ac o , he
o en ial n eliabili of e e i ne iden ifica ion
e imon o dina il goe o he eigh of he e idence,
no i admi ibili , and i a e ion fo he j
....
P inci le of d e oce
e i e e cl ion of n eliable
iden ifica ion e idence ha i no he e l of an

A43
nnece a il
gge i e oced e [o]nl
hen [ he]
e idence i o e emel nfai ha i admi ion iola e
f ndamen al conce ion of j ice .... A diffe en
anda d a lie
hen he defendan con end ha an inco
iden ifica ion follo ed an nd l
gge i e e ial
iden ifica ion oced e ha a cond c ed b a a e
ac o . In ch ca e , bo h *478 he ini ial iden ifica ion
and he in-co
iden ifica ion ma be e cl ded if he
im o e
oced e c ea ed a b an ial likelihood of
mi iden ifica ion. (Ci a ion omi ed; in e nal
o a ion **30 ma k omi ed.) Id., a 419 20, 141 A.3d
810.
In de e mining he he iden ifica ion oced e iola e
a defendan ' d e oce
igh , he e i ed in i i
made on an ad hoc ba i and i
o- onged: fi , i m
be de e mined he he he iden ifica ion oced e a
nnece a il
gge i e; and econd, if i i fo nd o ha e
been o, i m
be de e mined he he he iden ifica ion
a ne e hele
eliable ba ed on e amina ion of he
o ali of he ci c m ance . (In e nal o a ion ma k
omi ed.) Id., a 420 21, 141 A.3d 810.
In D c
, hi co
a faced i h a l ing he e
inci le o a fi
ime in-co
iden ifica ion. We
ecogni ed he gge i e na e of fi
ime in-co
iden ifica ion : [W]e a e ha d- e ed o imagine ho
he e co ld be a mo e gge i e iden ifica ion oced e
han lacing a i ne on he and in o en co ,
conf on ing he i ne
i h he e on hom he a e
ha acc ed of commi ing [a] c ime, and hen a king he
i ne if he can iden if he e on ho commi ed he
c ime.... If hi
oced e i no
gge i e, hen no

A44
oced e i
gge i e. (Em ha i omi ed; foo no e
omi ed.) Id., a 423 24, 141 A.3d 810.
To a oid hi kind of gge i e oced e, e anno nced
he follo ing oced al le: [I]n ca e in hich iden i
i an i
e, in-co
iden ifica ion ha a e no
eceded
b a cce f l iden ifica ion in a non gge i e
iden ifica ion oced e im lica e d e oce
inci le
and, he efo e, m
be e c eened b he ial co .
(Foo no e omi ed.) Id., a 415, 141 A.3d 810. We hen
e abli hed he follo ing e c eening oced e: In
ca e in hich he e ha been no e ial iden ifica ion ...
and he a e in end o e en a fi
ime in-co
iden ifica ion, he a e m
fi
e e
e mi ion *479 o do o f om he ial co .... The ial
co
ma g an
ch e mi ion onl if i de e mine
ha he e i no fac al di
e a o he iden i of he
e e a o , o he abili of he a ic la e e i ne
o
iden if he defendan i no a i
e. (Ci a ion
omi ed.) Id., a 445 46, 141 A.3d 810. Pe mi ion i
o e in he e kind of ca e beca e, hen iden i i
no an i
e, a defendan ' d e oce
igh a e no
im lica ed. Id., a 433, 141 A.3d 810.
We held ha hi
oced al le a lied e oac i el o
all ca e ending on e ie . Id., a 450 51, 141 A.3d 810.
Beca e, ho e e , i a oo la e o e c een fi
ime
in-co
iden ifica ion ha al ead had occ ed in
ending ca e , e o ided a oad ma fo ho
ending
a eal ho ld be handled: [I]n ending a eal
in ol ing hi i
e, he gge i e in-co
iden ifica ion
ha al ead occ ed. Acco dingl , if he e ie ing co
concl de ha he admi ion of he iden ifica ion a
ha mf l, he onl emed ha can be o ided i a

A45
emand o he ial co
fo he
o e of e al a ing he
eliabili and he admi ibili of he in-co
iden ifica ion nde he o ali of he ci c m ance .... If
he ial co
concl de ha he iden ifica ion a
fficien l eliable, he ial co
ma ein a e he
con ic ion, and no ne
ial o ld be e i ed. (Ci a ion
omi ed; em ha i omi ed.) Id., a 452, 141 A.3d 810. Of
co
e, if he eco d i ade a e fo e ie of he
eliabili and admi ibili of he in-co
iden ifica ion,
he e ie ing co
ma make hi de e mina ion. Id., a
452 n.35, 141 A.3d 810.
Since D c
, hi co
ha no been faced i h he
e oac i e a lica ion of D c
o a claim in ol ing a
fi
ime in-co
iden ifica ion ha al ead ha
occ ed. The A ella e Co , ho e e , ha add e ed
hi i
e. S ecificall , in **31 S a e . S
, 180
Conn. A . 624, 646, 184 A.3d 773, ce . denied, 328
Conn. 937, 184 A.3d 268 (2018), he defendan , ho had a
oman ic hi o
i h he ic im, a con ic ed of
kidna ing, home in a ion, and a a l
io o hi
co ' deci ion *480 in D c
. Id., a 627 28, 648, 184
A.3d 773. The ic im, ho did no make an o -of-co
non gge i e iden ifica ion, iden ified he defendan fo
he fi
ime a
ial a he a ailan . Id., a 647 48, 184
A.3d 773. On a eal o he A ella e Co , he defendan
in S
claimed ha ,
an o D c
, he
ic im' fi
ime in-co
iden ifica ion iola ed hi igh
o d e oce beca e he ic im did no fi
make an
o -of-co
non gge i e iden ifica ion and beca e he
ial co
did no
e c een he ic im' in-co
iden ifica ion. Id., a 648 49, 184 A.3d 773. The A ella e
Co
di ag eed. Follo ing hi co ' oad ma
in D c
fo add e ing hi i
e in ending ca e , he

A46
A ella e Co
de e mined ha , beca e he e a no
fac al di
e i h e ec o he he he ic im had he
abili
o iden if he defendan ; id., a 648, 184 A.3d
773; and, h , iden i
a no a i
e, he e a no
con i ional iola ion, and, he efo e, he ial co '
fail e o e c een he fi
ime in-co
iden ifica ion
a no ha mf l. Id., a 649 50, 184 A.3d 773. Beca e
he A ella e Co
fo nd he lack of e c eening
ha mle , i
o e l did no go on o de e mine he he
he iden ifica ion a eliable nde he o ali of he
ci c m ance .
We ag ee i h he A ella e Co ' a lica ion
of D c
in S
. Beca e e c eening a no
e i ed in ending ca e in hich he fi
ime in-co
iden ifica ion al ead occ ed, a e ie ing co
m
de e mine he he he admi ion a ha mf l, hich
nece a il incl de de e mining he he iden i
a a
i
e. See S a e . D c
,
a, 322 Conn. a 452, 141
A.3d 810. Th , fo ca e ending a he ime he deci ion
in D c
a elea ed, if iden i
a no a i
e, he
admi ion of a fi
ime in-co
iden ifica ion doe no
im lica e d e oce conce n and, h , a no
ha mf l.34
*481 In he e en ca e, he a e a g e ha ,
nde D c
, he admi ion of he fi
ime in-co
iden ifica ion did no iola e he defendan ' igh
o
d e oce fo h ee ea on : (1) Robin on did no make a
fi
ime in-co
iden ifica ion, (2) D c
a lie onl
hen he a e in end o e en a fi
ime in-co
iden ifica ion, and (3) iden i
a no a i
e. We
add e each in
n.
1

A47
A an ini ial ma e , e m
de e mine he he
Robin on and Geo ge F a ie made fi
ime in-co
iden ifica ion . I i clea ha Geo ge F a ie iden ified
he defendan , fo he fi
ime a
ial, a one of he
hoo e . He e ified ha he ne e
e io l info med
an one ha he i ne ed he hoo ing o ha he
defendan a one of he hoo e . I i le clea he he
Robin on' e imon con i e a fi
ime in-co
iden ifica ion.
Robin on ne e e ified a
ial ha he defendan a
one of he o hoo e . **32 No did he e if ha one
of he ic im' a ailan looked like he defendan .
Robin on did no men ion he defendan in an
a . She
did, ho e e , e if ha he a
o hoo e
one a
all and hin, he o he a ho and ock . Al ho gh
he defendan a g e ha hi de c i ion ma che he
h ical cha ac e i ic of he defendan and Vance,
Robin on ne e e ified o ch a co ela ion. A
ch, i
i no clea f om he eco d ha Robin on e lici l
iden ified he defendan a one of he hoo e . Ra he ,
he o ided a de c i ion of he
ec .
*482 Thi co
in D c
em ha i ed ha he ne
le
e anno nced he ein did no a l o ob e a ion of he
e e a o , ch a heigh , eigh , e , ace, and age, o
long a he o ec o doe no
e ion he i ne abo
he he he defendan e emble he
e e a o .Sae .Dc
,
a, 322 Conn. a 436 37,
447, 141 A.3d 810; cf. S a e . Be ea, 187 Conn. A . 263,
278, 202 A.3d 429, ce . denied, 332 Conn. 904, 208 A.3d
1239 (2019); S a e . T e , 175 Conn. A . 138, 150, 167

A48
A.3d 365, ce . denied, 327 Conn. 958, 172 A.3d 204
(2017).
Ne e hele , e no ed in D c
ha a defendan ' d e
oce
igh ma be im lica ed b he admi ion of a
i ne ' e imon a o hei ob e a ion abo a
e e a o if he i ne
a nable o o ide an of
he e de ail befo e he co
oceeding
.... S a e . D c
,
a, 322 Conn. a 437 n.19, 141
A.3d 810. Ho e e , beca e e e e no
e en ed i h
ha
oblem in ha ca e, e did no add e i . See id.
The de c i ion ha Robin on ga e of he e e a o
a minimal and gene ic a ho , ock man and a all,
hin man. Robin on did no e if a o ace, age, clo hing
o facial de c i ion . Thi co
ha no
e io l
add e ed he he he le el of de ail in a i ne '
de c i ion of a e e a o la a fac o in he he he
de c i ion con i e an iden ifica ion o im lica e a
defendan ' d e oce
igh . We, ho e e , need no
decide hi i
e beca e, e en if e a
me ha he le
in D c
a lie o Robin on' ob e a ion abo
he
e e a o , he defendan
ffe ed no ha m. See a II
C of hi o inion.
2
Ne
e add e
he a e' a g men ha D c
doe
no a l in he e en ca e beca e D c
a lie onl
hen he a e in end o e en a fi
ime in-co
iden ifica ion .... S a e . D c
,
a, 322 Conn. a
445, 141 A.3d 810. I i
e ha he oced e
e *483 e fo h in D c
did no con em la e ca e in
hich he fi
ime in-co
iden ifica ion a a
i e
o bo h he a e and he defendan . Al ho gh e

A49
ecogni e ha he o ec o in he e en ca e
commi ed no mi cond c beca e he iden ifica ion
e e
n olici ed and nan ici a ed and beca e hi co
had
e o anno nce he ne
le c ea ed in D c
, he fac
ha he e iden ifica ion
e e n olici ed and
nan ici a ed doe no affec he he he iola e he
defendan ' igh o d e oce . All fi
ime in-co
iden ifica ion a e bjec o he le in D c
; ee
foo no e 34 of hi o inion; ega dle of he o ec o '
in en .
3
Finall , he a e a g e ha D c
doe no a l , o
ha he e a no d e oce
iola ion; ee id.; beca e
iden i
a no a i
e. S ecificall , he a e a g e
ha , beca e he defendan e ified ha he a
e en
a he cene of he c ime and beca e he did no ha e o
be he hoo e o be con ic ed of felon m de , he
hoo e ' iden i
a no a i
e. The defendan
e ond ha iden i
a **33 a i
e beca e he
iden i of he hoo e and he he he e a mo e han
one hoo e e e ac i el di
ed a
ial. In ligh of he
defendan ' e imon ha he a
e en a he cene of
he c ime, e ag ee i h he a e ha iden i
a no a
i
e a o mo of he cha ge , hich did no e i e he
defendan o be he hoo e in o de o be fo nd g il b
di ag ee ha iden i
a no a i
e i h ega d o he
cha ge of c iminal o e ion of a fi ea m.
The defendan a cha ged i h and fo nd g il of
felon m de , o co n of a em
o commi obbe
in he fi
deg ee, con i ac o commi obbe in he
fi
deg ee, and c iminal o e ion of a fi ea m. See
foo no e 1 of hi o inion. Al ho gh he

A50
a e' *484 gene al heo of he ca e a ha he
defendan and Vance a em ed o ob he ic im and
hen fi ed hei g n a he ic im, he a e a g ed in
mma ion o he j
ha he defendan co ld be fo nd
g il of a em ed obbe e en if he did no ha e o
e
a g n. The o ec o
a ed ha i doe n' ha e o be
ha he bo h had g n ; i ha o be ha ei he [ he
defendan ] o [Vance] m
ha e been a med. Simila l ,
in ega d o he cha ge of felon m de , he o ec o
a g ed ha he a e doe no ha e o o e ho ho
and killed [ he ic im], j
ha ei he [Vance' o he
defendan ' ] ac ion ca ed [ he ic im' ] dea h.
Like i e, hen in
c ing he j
a o he cha ge of
felon m de , he ial co
e lained ha , o find he
defendan g il , i had o find ha he defendan , ac ing
alone o i h one o mo e e on ... commi ed o
a em ed o commi a obbe
and ha he defendan
o ano he a ici an in he a em ed obbe ca ed
he dea h of [ he ic im] .... A o he cha ge of a em ed
obbe
nde
53a-49 (a) (2) and 53a-134 (a) (2), he
ial co
in
c ed he j
ha , o find he defendan
g il , i had o find ha he defendan o ano he
a ici an in he c ime [ a ] a med i h a deadl
ea on. A o he cha ge of a em ed obbe
nde
53a-49 (a) (2) and 53a-134 (a) (4), he ial co
in
c ed he j
ha , o find he defendan g il , i
had o find ha he defendan o ano he a ici an in
he c ime [di la ed] o [ h ea ened] he e of ha he
[ e e en ed] b
o d o cond c o be a i ol, e ol e ,
ifle, ho g n, machine g n, o o he fi ea m. A o he
cha ge of con i ac o commi obbe , he ial co
did
no men ion o e ion of a fi ea m in i in
c ion. The
onl cha ge on hich he co
in
c ed he j
ha i

A51
had o find ha he defendan o e ed a fi ea m befo e
i co ld find him g il
a he cha ge of c iminal
o e ion of a fi ea m in iola ion of 53a-217 (a)
(1). *485 The ial co ' in
c ion
e e con i en
i h he la of hi
a e. See S a e . Da , 255 Conn.
782, 791, 772 A.2d 559 (2001) ( ea ing acce o ie and
inci al alike fo
o e of 53a-134 o ha
defendan doe no ha e o o e , e, o h ea en e of
deadl
ea on o be fo nd g il of obbe , a long a
ano he a ici an in obbe
o e ed, ed, o
h ea ened e of deadl
ea on).
A he a e' a g men and j
in
c ion make clea ,
iden i
a no a i
e a o he cha ge of felon
m de , bo h co n of a em ed obbe , and con i ac
o commi obbe . A o ho e cha ge , al ho gh he
iden i of he hoo e a di
ed, he defendan did
no need o o e o
e a fi ea m o be fo nd g il . I
a
fficien fo he a e o e abli h ha he defendan
a ici a ed in he a em ed obbe and he con i ac
o commi obbe
hile ano he a ici an Vance
o e ed, ed, o h ea ened he e of a fi ea m. The
defendan **34 laced him elf a he c ime cene a he
ime he c ime occ ed. He admi ed a
ial ha he a
anding nea Vance hen Vance fi ed hi g n a he
ic im. In ligh of he defendan ' e imon , he i
e
ha emained a o he e fo cha ge conce ned he he
he defendan a ici a ed in he a em ed obbe and
he con i ac o commi obbe . The iden i of he
hoo e
a no a i
e. Th , a o he e fo cha ge ,
beca e iden i
a no a i
e, he admi ion of he
iden ifica ion e imon of Robin on and Geo ge F a ie
did no im lica e he defendan ' d e oce
igh and,
he efo e, a no ha mf l.

A52
Iden i
a a i
e, ho e e , in ela ion o he cha ge of
c iminal o e ion of a fi ea m. Fo he j
o find he
defendan g il of hi cha ge, he a e a e i ed o
o e ha he o e ed a fi ea m. See Gene al S a e
53a-217 (a) (1). Al ho gh he ial co
no ed in i j
in
c ion ha o e ion co ld *486 be ac al o
con
c i e, he a e in clo ing a g men a g ed o he
j
onl ha he defendan ac all o e ed a fi ea m.
Cf. S a e . K , 321 Conn. 135, 149, 136 A.3d 1210
(2016) ( [ ] inci le of d e oce do no allo he a e,
on a eal, o el on a heo of he ca e ha a ne e
e en ed a
ial ). Al ho gh he a e a no e i ed
o e abli h ha he defendan ei he
a he hoo e o
o e ed a fi ea m in o de fo he j
o find him g il
of felon m de , a em ed obbe , and con i ac o
commi obbe , he a e a e i ed o e abli h ha
he ac all o e ed a fi ea m in o de fo he j
o
find him g il of c iminal o e ion of a fi ea m. Th ,
he iden i of he hoo e a a i
e fo
o e of
ha cha ge if he a e e abli hed ha he defendan
a he hoo e , hen i like i e e abli hed ha he
o e ed a fi ea m. Acco dingl , he iden ifica ion
e imon of Robin on and Geo ge F a ie did im lica e
he defendan ' d e oce
igh in ela ion o he
cha ge of c iminal o e ion of a fi ea m.
C
Beca e e ha e de e mined ha he admi ion of he
iden ifica ion e imon of Robin on and Geo ge F a ie
im lica ed he defendan ' d e oce
igh in ela ion
o he cha ge of c iminal o e ion of a fi ea m, e m
de e mine he he he e imon
a ha mle be ond a
ea onable do b . See S a e . D c
,
a, 322 Conn.
a 453, 141 A.3d 810. A con i ional e o i ha mle

A53
hen i i clea be ond a ea onable do b ha he j
o ld ha e e ned a g il
e dic i ho
he
im e mi ible [e idence] .... Tha de e mina ion m
be
made in ligh of he en i e eco d [incl ding he
eng h
of he a e' ca e i ho
he e idence admi ed in
e o ]. (Ci a ion omi ed; in e nal o a ion ma k
omi ed.) Id. We concl de ha an e o a ha mle
be ond a ea onable do b .
*487 Whe he an e o i ha mle in a a ic la ca e
de end on e e al fac o , incl ding he im o ance of
he i ne ' e imon o he a e' ca e, he he he
e imon
a c m la i e, he e ence o ab ence of
e idence co obo a ing o con adic ing he i ne '
e imon on ma e ial oin , he e en of c o e amina ion o he i e e mi ed, and he o e all
eng h of he o ec ion' ca e. S a e . S a , 312
Conn. 85, 102, 90 A.3d 936 (2014). Mo im o an l , e
m
e amine he im ac of he e idence on he ie of
fac and he e l of he ial.... If he e idence ma ha e
had a endenc o infl ence he j dgmen of he j
,i
canno be con ide ed ha mle . (In e nal o a ion
ma k omi ed.) Id.
**35 The follo ing addi ional fac , ome of hich e
al ead ha e di c
ed, a e ele an o o anal i .
Jo e h Rainone, a fi ea m e amine fo he Wa e b
Police De a men , e ified ha , on he ba i of b lle
f agmen fo nd a he cene of he c ime, i a
inconcl i e he he all of he b lle had been fi ed f om
he ame g n, and i a o ible ha ei he one o mo e
fi ea m had been ed. Ho e e , he e ified ha all of
he b lle fi ed e e .38 cla b lle , hich co ld be

A54
fi ed f om ei he a .38 e ol e o a .357 e ol e .
Addi ionall , he e ified ha a lea fi e, b a man a
e en, g n ho
e e fi ed. Th , i a o ible ha all
of he b lle co ld ha e been fi ed f om Vance' .357
e ol e o f om bo h Vance' .357 e ol e and ano he
fi ea m (ei he a .357 o a .38 e ol e ).
The e a conflic ing e imon a ial conce ning
he he he defendan o e ed and/o
ed a fi ea m
d ing he inciden . A de ailed in a I A of hi o inion,
in he io
a emen of B gg and Vance ha e e
admi ed fo
b an i e
o e nde W e a , bo h
a ed ha he defendan had a .38 e ol e in hi
o e ion a he ime of he inciden , al ho gh
he *488 la e ecan ed on he i ne
and and
e ified ha he did no ha e a g n. Addi ionall , in hi
a emen o he olice, hich al o a admi ed fo
b an i e
o e nde W e a , Oli han
a ed ha
he kne ha he defendan o e ed a .38 e ol e
beca e he e io l had een he defendan i h i ,
al ho gh no nece a il d ing he inciden a i
e.
Oli han di
ed hi kno ledge d ing hi e imon a
ial.
In addi ion o he e imon
e io l di c
ed, he
a e al o e en ed he e imon of Foo e. Foo e
e ified ha , af e he hoo ing, B gg old him ha bo h
he defendan and Vance had a em ed o ob he ic im
and ho a him. The a e al o offe ed he e imon of
Sade S e en , ho had been a Oli han ' a a men in
hi bed oom hen he defendan , B gg, and Vance
a i ed af e he hoo ing. She e ified ha he hea d
he defendan a ha he had ied o ob he ic im
and ha he hea d Vance a ha he ho he ic im.

A55
Ho e e , he e ified ha he did no hea he defendan
confe
o hoo ing he ic im. The a e hen had
S e en ' io
a emen o he olice ead in o he eco d
fo
b an i e
o e nde W e a . In he
a emen ,
S e en
a ed ha he had hea d bo h he defendan and
Vance admi o hoo ing he ic im. F he , he a e
offe ed he e imon of Oma Wil on (Oma ), he
defendan ' ncle. Oma e ified ha , in Ma , 2010,
a
o ima el fo mon h af e he inciden a i
e, he
a he defendan i h a g n.
Al ho gh i i
e ha B gg and Vance ecan ed hei
io
a emen
ha e e admi ed nde W e a , he
j
a en i led o c edi and el on he W e a
a emen . See, e.g., S a e . D
e , 78 Conn. A .
111, 120 22, 826 A.2d 241 (admi ion of e idence
iden if ing defendan a hoo e , e en if im o e , a
ne e hele ha mle be ond ea onable do b beca e,
in e alia, h ee o he i ne e al o iden ified defendan
a hoo e , incl ding i ne
ho e iden ifica ion
a *489 admi ed nde W e a beca e he ecan ed on
i ne
and a
ial), ce . denied, 266 Conn. 919, 837
A.2d 801 (2003). Thi i e eciall o in ligh of he fac
ha , de i e he ecan a ion b B gg and Vance, he
e imon and a emen
ha Foo e and S e en ga e o
he olice co obo a ed he io
a emen of B gg and
Vance ha he defendan a a med i h a fi ea m
d ing he inciden . Th , e en i ho
he iden ifica ion
e imon of Robin on and Geo ge F a ie , he j
hea d
e imon f om fo o he i ne e ha he defendan
o e ed a fi ea m a he ime of he hoo ing and
e imon **36 f om one i ne , Oma , ha he
defendan o e ed a fi ea m af e he hoo ing. Tha
e imon e abli he be ond a ea onable do b ha he

A56
j

o ld ha e e ned a g il
e dic , e en i ho
he im e mi ible iden ifica ion e imon . See,
e.g., S a e . A
, 314 Conn. 131, 159 60, 101 A.3d 915
(2014) (e en if iden ifica ion e imon
a im o e , i
a ha mle be ond ea onable do b beca e of o he
iden ifica ion e imon b
i ne
ho e onall kne
defendan ); S a e . D
e ,
a, a 120 22, 826 A.2d
241 (admi ion of e idence iden if ing defendan a
hoo e , e en if im o e , a ne e hele ha mle
be ond ea onable do b beca e h ee o he
i ne e
al o iden ified defendan a hoo e ).
Mo eo e , defen e co n el had he o o ni
o, and
did, e en i el c o -e amine Geo ge F a ie abo hi
iden ifica ion e imon . See S a e . A
,
a, 314
Conn. a 160 61, 101 A.3d 915 (con ide ing fac ha
defen e co n el e en i el c o -e amined i ne in
de e mining he he im o e iden ifica ion e imon
a ha mle ). Defen e co n el hea il a acked Geo ge
F a ie ' c edibili . Geo ge F a ie con in o l
con adic ed him elf, and hi e on e o mo
e ion
a ha he had no ecollec ion, al ho gh he al ead had
an e ed mo of he e ion on di ec e amina ion. He
al o e ified ha he had had
ge a *490 fe mon h
af e he ic im' m de o emo e a b ain mo . No
onl did defen e co n el a ack Geo ge F a ie '
c edibili , b
he a e imila l
e ioned him abo
hi iden ifica ion of he defendan , oin ing o
ha he
ne e
e io l had iden ified he defendan and ne e
old he olice o he o ec o ha he had i ne ed he
hoo ing. The a e e en en o fa a o e ion Geo ge
F a ie abo
he he he ac all a [ he defendan ]
i h a g n, o a e o j
a ing ha beca e o

A57
an ed o hel o
o b o he ' memo ? The
ke ici m i clea in he eco d.

a e'

F he mo e, in a g ing o he j
ha he defendan
o e ed a fi ea m d ing he inciden , he a e
ima il elied on he W e a
a emen and he
e imon of B gg and Vance, i h minimal eliance on
he iden ifica ion e imon of Robin on and Geo ge
F a ie . Wi h ega d o he cha ge of a em ed m de ,
he a e a g ed in mma ion o he j
: And in hi
a ic la co n , co n
o, i ha o be ha he
e e
a med i h a deadl
ea on. Well, again, i doe n' ha e
o be ha he bo h had g n ; i ha o be ha ei he [ he
defendan ] o [Vance] m
ha e been a med. And he
e imon i , ho e e , ho gh, ha he bo h had g n .
[B gg] aid he did in hi
a emen . [Vance] aid he
did in hi
a emen . [B gg] aid i a he e imon he
ga e a he obable ca e hea ing, and [Vance] aid i
hen he lead[ed] g il
o he c ime . Al ho gh he
a e did efe o Robin on' e imon ha he a
o
hoo e in ela ion o he felon m de cha ge in ega d
o he cha ge of c iminal o e ion of a fi ea m, he a e
did no el on Robin on' e imon , a g ing onl : So,
he ne
e ion i , did he o e a fi ea m on Jan a
18, 2010. B gg aid he had one. [Vance] aid he had one.
In addi ion o el ing on he W e a
a emen of B gg
and Vance, he a e al o elied on Oma ' e imon ha
he *491 a he defendan i h a g n a fe mon h af e
he ic im' m de , hich mean he defendan had an
in
men ali of he c ime.
The a e' o e all eliance on he iden ifica ion e imon
a i
e a minimal. The a e efe ed o Geo ge
F a ie onl h ee ime d ing clo ing a g men
o

A58
a g e he di ec ion in hich he g n ho
e e fi ed (b
no ho a hoo ing), o a g e ha he ic im a hea d
calling o **37 fo hi mo he , and o a g e ha he j
ho ld ake in o con ide a ion he fac ha he had had a
b ain mo hen con ide ing hi e imon . The a e
did no el on o efe ence Geo ge F a ie ' iden ifica ion
of he defendan in an
a . The a e, on fo occa ion ,
efe enced Robin on' e imon ha he a
o
hoo e and a g ed ha he j
ho ld ake in o
con ide a ion he fac ha he a emo ionall
di a gh hen he oke o he olice hen con ide ing
he e imon and a emen o he olice. The e
efe ence , ho e e , e e o e hado ed b he a e'
e ea ed efe ence o e imon f om o he
i ne e
ha he defendan o e ed a fi ea m
ecificall , nine
efe ence o he e imon of B gg o Vance, o
efe ence o he e imon of S e en , and h ee
efe ence o he e imon of Oma .
Acco dingl , e concl de ha , o he e en ha he
iden ifica ion e imon of Robin on and Geo ge F a ie
a im o e , i a ha mle be ond a ea onable do b
beca e i a c m la i e of o he iden ifica ion
e imon , i a
bjec o e en i e c o -e amina ion,
i a minimall elied on b he a e in clo ing
a g men , and, e en i ho
hei e imon , he e a
fficien e idence fo he j
o find he defendan
g il be ond a ea onable do b .
The j dgmen of he A ella e Co
i affi med.
In hi o inion he o he j ice conc ed.
F
1
The defendan al o a fo nd g il of a econd co n of a em ed
obbe in he fi
deg ee in iola ion of
53a-49 (a) (2) and 53a-134

A59
(a) (4), b
he ial co
aca ed ha finding a en encing,
an o S a e . P a c , 308 Conn. 242, 245, 61 A.3d 1084
(2013).
2
The a e' balli ic e e no ed ha a .38 cla b lle co ld be
fi ed f om a nine millime e i ol, a .38 S ecial e ol e , o a .357
Magn m e ol e . S a e . Coll mo e,
a, 168 Conn. A . a 851
n.2, 148 A.3d 1059.
3
Al ho gh he a e indica ed i a g an ing B gg onl
e
imm ni , beca e i g an ed him imm ni
an o 54-47a, i
nece a il g an ed him bo h e imm ni and an ac ional
imm ni . See F
.S e
C
, 298 Conn. 404, 410 11, 3 A.3d
912 (2010) ( 54-47a [b] nece a il
o ide
i ne
i h bo h e
and an ac ional imm ni , and a e canno e ic i offe of
imm ni
o onl
e o onl
an ac ional imm ni ).
4
The a e hen e e ed ha he co
info m he j
ha B gg
had been g an ed imm ni and a com elled o e if . O e
defen e co n el' objec ion , he ial co
info med he j
io o
he a of B gg' e imon ha he had been com elled o e if
nde
54-47a, al ho gh he co
did no
ecificall a ha he
had been g an ed imm ni .
5
The a e a g e ha he defendan ' claim, a i ela e o Vance,
fail beca e he eco d i inade a e o e abli h ha he a e e e
g an ed him imm ni . Al ho gh i i
e ha he a e did no
e lici l g an Vance imm ni on he eco d io o he a of hi
e imon , he a e did la e cla if on he eco d ha i had g an ed
Vance imm ni f om o ec ion fo he c ime of making a fal e
a emen . In ligh of hi cla ifica ion, he a e' a g men fail .
6
The ial co
info med Oli han ha
o ha e been gi en
an ac ional imm ni b he a e. See foo no e 3 of hi o inion.
7
Fo ome of he i ne e , he e a a dela be een he admi ion
of he W e a
a emen and he ecommencemen of di ec
e amina ion. B gg a no ecalled b he a e n il a
o ima el
nine da la e , af e en o he
i ne e had e ified on behalf of

A60
he a e. Vance a no ecalled b he a e n il a
o ima el
eigh da la e (al ho gh d e o ea he , e idence a
e en ed
d ing onl
o of ho e eigh da ), af e i o he
i ne e had
e ified on behalf of he a e. Di ec e amina ion of Oli han
ecommenced immedia el af e hi
io
a emen o he olice a
ead in o he eco d.
8
B gg e ified ha he igned hi
a emen o he olice and e ified
a he hea ing in obable ca e beca e he a
omi ed a lea deal
ha limi ed hi e iod of inca ce a ion o fi e ea . He al o alleged
ha he had been la ed and hi b he office
io o ag eeing o
ign he a emen .
Vance e ified ha he igned hi
a emen o he olice onl o ha
he o ld no ecei e he dea h enal and e ified a he lea
oceeding con i en l
i h he a emen onl o ha he o ld
ecei e a le e en ence. Vance e ified ha no onl did he no
make a a emen o he olice b
ha he lang age in he
a emen a incon i en i h ho he oke.
Oli han e ified ha he a b llied, bea en, and fo ced b he
olice in o making a fal e a emen again
he defendan . Acco ding
o Oli han , he doe no
eak in he manne
ed in he a emen
and ne e
o ld ha e ed he h a e con ained in he a emen .
He f he e ified ha he a offe ed a lea deal if he e j ed
him elf and e ified in a manne ha a con i en i h hi
a emen o he olice.
9
The defendan ne e e e ed ha he ial co
de e mine
he he imm ni
nde
54-47a e ended o e imon gi en
d ing he defen e ca e b , a he , ag eed i h he ial co
ha
he he a i ne i g an ed imm ni i olel in he hand of he
a e and ha he co
co ld no e i e ha imm ni be g an ed.
When he ial co
in i ed a o ha defen e co n el a eeking
f om he co , co n el e onded ha he did no belie e ha he
co
co ld do an hing b ne e hele
e e ed ha he j
be
ad i ed ha he io imm ni had been e oked. The co
declined o gi e he j
hi in
c ion.
10

A61
The a e al o e ioned B gg abo
hone con e a ion he had
had i h hi i e and mo he
hile he a inca ce a ed. B gg
e ified ha he did no ecall he b ance of he con e a ion b
ha he migh ha e old hi i e ha Vance a
illing o hel him.
He aid ha he did no ecall elling hi i e ha , if he ga e Vance
ome ki , e e hing o ld be fine. He did ecall elling hi
mo he o i e o ell Foo e ha he needed o alk o ha Foo e
o ld ell he
h.
Af e B gg' e imon in he a e' ca e concl ded, he a e la ed
a dio eco ding of he e ele hone con e a ion . In one eco ding,
B gg old hi i e ha , if he co ld ge ha nigga' ome ki , and
e e hing' gonna be good. He al o info med hi i e ha I'm
ing o hel he o he nigga' o .
11
On c o -e amina ion b he a e, B gg in oked hi fif h
amendmen
i ilege a o fo o he
e ion : (1) he he he had
e ified incon i en l a he hea ing in obable ca e abo
he he he
o e of going o Diamond Co
a o
cha e
ma ij ana, (2) he he he had e ified incon i en l d ing he
a e' ca e-in-chief abo
emembe ing he ele hone con e a ion
i h hi i e abo
ki , (3) he he he had e e h ea ened
Foo e, and (4) he he he failed o info m he olice ha he ea on
he, he defendan and Vance had gone o Diamond Co
a o
cha e ma ij ana. The defendan , ho e e , doe no a g e ha he
a ha med b B gg' ef al o e ond o he e e ion .
12
Al ho gh Vance had leaded g il
an o a lea deal a he
ime of he defendan '
ial, he had no e been en enced beca e
hi en ence a con ingen on he he he e ified
hf ll a he
defendan '
ial.
13
The defendan doe no a g e ha he a ha med b Oli han '
in oca ion of hi fif h amendmen igh in e on e o e ion b
he a e on c o -e amina ion d ing he defen e ca e-in-chief.
14
Sec ion 54-47a (a) e mi a o ec o o a l o he co
fo an
o de di ec ing a i ne , ho ha in oked hi fif h amendmen
i ilege again
elf-inc imina ion, o e if if he o ec o
de e mine ha he e imon of he i ne
in an c iminal

A62
oceeding in ol ing ... felonio c ime of iolence ... o an o he
cla A, B o C felon ... [i nece a
o ob ain] fficien info ma ion
a o he he a c ime ha been commi ed o he iden i of he
e on o e on
ho ma ha e commi ed a c ime ... [and] i
nece a
o he blic in e e ....
Sec ion 54-47a (b), ho e e , ohibi
he i ne f om being
o ec ed o
bjec ed o an enal o fo fei e fo o on acco n
of an
an ac ion, ma e o hing conce ning hich he i com elled
o e if o
od ce e idence, and no e imon o e idence o
com elled, and no e idence di co e ed a a e l of o o he i e
de i ed f om e imon o e idence o com elled, ma be ed a
e idence again him in an
oceeding, e ce
ha no i ne
hall
be imm ne f om o ec ion fo e j
o con em commi ed hile
gi ing ch e imon o
od cing ch e idence.
15
Con a
o he a e' a g men , he defendan doe no con end
ha he i ne e
e e en i led o addi ional imm ni fo
bjec
ma e no co e ed b he ee i ing imm ni . Fo hi ea on, e
do no need o de e mine he he he defendan had a con i ional
o
a o
igh o ha e he e i ne e
g an ed add
a imm ni .
16
E en if e a
me ha imm ni e end h o gho
he en i e ial,
hi in no a mean ha he a e e mi an imm ni ed i ne
o e if fal el ; he a e ecificall
ohibi
he a e f om
g an ing imm ni fo e j
a i ne commi
hile gi ing
e imon nde a g an of imm ni . See Gene al S a e
54-47a
(b); ee al o S a e . G a d, 258 Conn. 631, 634, 783 A.2d 1019
(2001) (imm ni i no a licen e o lie [in e nal o a ion ma k
omi ed] ). The defendan doe no a g e o he i e.
17
We no e ha , al ho gh he defendan a g e befo e hi co
ha
he ial co
failed o le on he i
e of he he he a e
o ided he i ne e
i h imm ni
h o gho
he en i e of he
ial, he defendan ne e e e ed ha he ial co
decide hi
i
e. Al ho gh he defendan a g ed a
ial ha he a e' ac ion
iola ed hi igh
o e en a defen e and o d e oce beca e
he a e a nfai l de i ing him of i ne
e imon b ca ing
he i ne e f om he i ne
and, he did no a g e ha he a e

A63
iola ed he a e. Defen e co n el e en admi ed ha he he
imm ni
a g an ed a olel in he hand of he a e and no
i hin he o e of he co . Defen e co n el did no ake i
e ih
he a e' a g men ha , nde he a e, imm ni e ended onl
o he i ne e ' e imon d ing he a e' ca e. When he ial
co
in i ed ha defen e co n el a eeking f om he co
on
hi i
e, defen e co n el e onded ha he did no hink he co
co ld do an hing abo
he he he i ne e ' imm ni e ended
o he defen e ca e-in-chief b
e e ed ha he j
be in
c ed
ha he a e had e oked imm ni , hich he ial co
denied.
Al ho gh he ial co
a ed ha i a nclea
he he imm ni
e ended o he defen e ca e-in-chief, i did no fail o decide hi
i
e beca e he defendan ne e o gh a ling on hi i
e.
Beca e he defendan did no ai e a a o claim a
ial ha he
a e im o e l a lied 54-47a b e oking imm ni , o he
e en ha he defendan ' claim i no con i ional in na e, e
do no e ie hi
a o claim fo ha mle e o , e en if e
a
me ha he a e' ac ion iola ed 54-47a.
See C a f d . C
e f C ec
, 294 Conn. 165, 203, 982
A.2d 620 (2009) ( e ill no e ie a claim nle i a di inc l
ai ed a
ial ); E ba
.C
e f C ec
, 329 Conn.
584, 597, 188 A.3d 702 (2018) ( ame).
De i e he defendan ' fail e o ai e hi
a o claim a
ial, o
he e en ha hi con i ional claim elie on a iola ion of 5447a, e do no find i n e e ed. A ial, he defendan claimed
ha he a e' ac ion ega ding imm ni
iola ed hi
con i ional igh . The fac ha he defendan no a g e ha he
a e' ac ion like i e iola ed 54-47a doe no make hi
con i ional claim n e e ed, no doe he a e o a g e. The
defendan ' a g men on a eal ha he a e' ac ion iola ed hi
con i ional igh
o d e oce and o e en a defen e beca e
he a e em lo ed ac ical game man hi o ca e he i ne e
f om he i ne
and and, h , nfai l de i ed him of hei
e imon
i he ame a hi a g men befo e he ial co ,
ega dle of he efe ence o 54-47a. See,
e.g., C a f d . C
e f C ec
,
a, 294 Conn. a
203, 982 A.2d 620 ( [ ]e ma ... e ie legal a g men
ha diffe
f om ho e ai ed befo e he ial co
if he a e b med i hin o

A64
in e
ined i h a g men
ela ed o he legal claim ai ed a
ial ).
18
Thi f ame o k ha been ed edominan l fo e al a ing he he
he a e' ef al o g an imm ni
o a defen e i ne , ho ne e
ha been g an ed imm ni , iola ed he defendan ' con i ional
igh . See S a e . K b ,
a, 280 Conn. a 402 404, 908 A.2d 506.
I al o ha been a lied b hi co
o de e mine he he he a e
iola ed a defendan ' con i ional igh
hen i g an ed a i ne
imm ni a one age of he oceeding ( he hea ing in obable
ca e) b declined o e end ha imm ni
o he ame i ne
hen called a a defen e i ne d ing ial. S a e . G a d,
a,
258 Conn. a 635 37, 783 A.2d 1019. The a ie do no di
e ha
hi f ame o k a lie nde he oced al o
e and fac of hi
ca e; in fac , he defendan elie on i in
o of hi con i ional
claim. Al ho gh e ha e been nable o iden if an fede al ca e in
hich hi f ame o k ha been a lied hen imm ni ha been
e oked, a he han hen he a e ha declined o g an imm ni ,
hi f ame o k a ea
o be e all a licable o he con i ional
anal i in he e en ca e beca e i con ide
he he he a e
engaged in a di c imina o g an of imm ni , hich i ho he
defendan in he e en ca e ca ego i e he a e' ac ion
di c imina o il g an ing imm ni fo he a e' ca e b
e oking
ha imm ni d ing he defendan ' ca e o gain a ac ical
ad an age.
Addi ionall , e no e ha , al ho gh he nomencla e of he
o ec o ial mi cond c heo i imila o a claim fo
o ec o ial
im o ie , he e a e o e a a e and di inc claim , and he
defendan in he e en ca e doe no ai e a o ec o ial
im o ie claim.
19
The defendan al o a g e ha B gg ef ed o e ond o e ion
abo a ele hone con e a ion i h hi i e in ol ing ki . O
e ie of he eco d, ho e e , ho
ha B gg did e ond o
defen e co n el' in i ie abo
ha
bjec d ing di ec
e amina ion in he defen e ca e. See al o foo no e 10 of hi o inion.
The defendan ha no iden ified an
e ion ha he a nable o
a k o an ne info ma ion ha he a nable o ob ain ega ding
hi
bjec ma e .

A65
20
The imm ni
ha he a e had g an ed o B gg a limi ed o d g
ac i i
ha he a engaged in on he da of he m de . See a I A
of hi o inion. Al ho gh he a e indica ed ha i did no in end o
o ec e B gg fo making a fal e a emen a he hea ing in
obable ca e, no imm ni
a officiall g an ed. See id.; ee
al o S a e . W a , 200 Conn. 310, 319, 511 A.2d 1000 (1986) ( he
igh o one'
i ilege again
o ec ion ha co ld e l f om he
e imon o gh doe no de end on he likelihood of o ec ion
b
on he o ibili of o ec ion ); M
. N a a, S e io
Co , j dicial di ic of Fai field, Docke No. 320696 (Ma 17, 1995)
(14 Conn. L. R . 289, 290, 1995 WL 316967) ( a o ec ing
a o ne ' indica ion in a a ic la ca e ha he ill no
o ec e ...
[i ] no
fficien o defea a claim of i ilege [in e nal o a ion
ma k omi ed] ).
21
The defendan doe no a g e ha he a ha med b Oli han '
in oca ion of hi fif h amendmen igh in e on e o e ion b
he a e d ing c o -e amina ion in he defen e ca e abo a man
named Jamel, i h hom he defendan a a e ed and ho
e ified abo hea ing him being bea en b de ec i e
hile in olice
c od .
22
O
e ie of he eco d doe no ho ha Oli han e ified ha he
fel g il abo Vance. Oli han e ified ha , hen Vance had been
li ing in No h Ca olina, he called Oli han and aid he a
a ing
in an abandoned ho e, and o Oli han fel bad fo him and in i ed
Vance o a
i h him in Connec ic . Oli han , ho e e , did e if
on di ec e amina ion in he a e' ca e-in-chief ha he fel a lo of
g il abo
hi ca e. On c o -e amina ion, defen e co n el in i ed
in o hi
bjec , in e on e o hich Oli han e ified ha he fel
g il fo l ing and inc imina ing he defendan , hi be f iend, b
igning a fal e a emen , hich he igned onl beca e he
de ec i e bea and coe ced him.
23
The defendan a g e ha he ha m ca ed b he e cl ion of hi
e imon
a com o nded b he a e' eliance on he na ailable
e imon in i
mma ion o he j
. See S a e . Ca e , 228 Conn.
412, 428 29, 636 A.2d 821 (1994), ce .
denied, C
ec c
. D'A b
a, 493 U.S. 1063, 110 S. C . 880, 107

A66
L. Ed. 2d 963 (1990); id., a 428, 636 A.2d 821( he ha m o he
defendan ' claim of elf-defen e e l ing f om he e cl ion of he
ic im' c iminal eco d a com o nded hen he a i an
a e'
a o ne , in hi eb al o he defendan ' clo ing a g men ,
commen ed ha he e a no e idence ha ic im a bad e on).
Al ho gh e ag ee ha a defendan ma be ha med b he im o e
e cl ion of e idence if he o ec o , in mma ion o he j
,
elie on he ignificance of he mi ing e idence, hi i no
ch a
ca e. Af e ha ing ho o ghl e ie ed he eco d, e de e mine ha
he a e did no el on he ab ence of he im o e l e cl ded
e imon d ing i
mma ion.
24
Bo h he ic im' mo he , Nell Robin on, and b o he , Geo ge C.
F a ie , e ified a he c iminal ial ha he a a hi e ge a a
ehicle f om he f on doo of hei a a men , hich conflic ed i h
B gg' e imon abo
a king he ehicle behind and be een o
of he a a men b ilding . See a II A of hi o inion.
25
Foo e e ified a
ial ha B gg info med him ha he had i ne ed
he hoo ing. The defendan a g e ha , beca e Foo e e ified af e
B gg, he ho ld ha e been e mi ed o e ion B gg abo
he he
he i ne ed he hoo ing. The defendan , ho e e , ne e a ked
B gg d ing di ec e amina ion in he defen e ca e-in-chief he he
he i ne ed he hoo ing, and, h , B gg ne e in oked hi fif h
amendmen
i ilege in e on e o hi
e ion. In he ab ence of
ch a eco d, e canno a ha he defendan a ha med.
26
The defendan a g e ha he A ella e Co
ec la ed ha he
i ne e ' e imon d ing he defen e ca e o ld ha e been
c m la i e b
ha he e i no a o kno o fo him o ha e
c ea ed a fficien eco d beca e he a e e en ed him f om
ob aining an e
o he e e ion . The ca e ci ed b he
defendan , ho e e , i di ing i hable beca e i in ol ed an e o of
con i ional magni de, he eb e i ing he a e o o e ha
he e o
a ha mle be ond a ea onable do b , hich i co ld no
do in he ab ence of a fficien eco d. See S a e . D'A b
, 212
Conn. 50, 61, 561 A.2d 422 (1989) ( [o]n he e en eco d, e canno
concl de ha he co ' e o , hich im lica e he defendan '
con i ional igh o im each and di c edi
a e i ne e , a

A67
ha mle be ond a ea onable do b ), o e
led in a on o he
g o nd b S a e . B
, 236 Conn. 514, 523 24 n.11, 673 A.2d
1117 (1996).
In he e en ca e, nde he o ec o ial mi cond c heo , he
b den i on he defendan o o ide a fficien eco d and o
e abli h ha he e imon
o ld no ha e been c m la i e. The
ial co
ad i ed defen e co n el o a k an
e ion he had and o
c ea e an ade a e eco d. In ligh of he fac ha he i ne e
in alidl in oked hei fif h amendmen igh in e on e o
e ion ha he al ead had an e ed in he a e' ca e, he e i
no ea on in he eco d o
ec ha an addi ional e imon
o ld ha e been an diffe en f om hei
io e imon .
27
Beca e e ha e de e mined ha , e en if he a e im o e l
e oked imm ni , and he i ne e
b e en l in alidl in oked
hei fif h amendmen igh , he defendan ha failed o e abli h
ha hi e o
a con i ional nde he o ec o ial mi cond c
heo on he g o nd ha he ha failed o e abli h ha he
e imon
o ld no ha e been c m la i e, e need no add e
he
a e' al e na i e a g men ha an e o in he e oca ion of
imm ni a o Vance a ha mle beca e he a e of
limi a ion fo he c ime of making a fal e a emen had e i ed.
See S a e . G a d,
a, 258 Conn. a 638, 783 A.2d 1019.
28
Bo h he ial co
and he a e co ec l
a ed ha he defendan
had he igh o ecall he a e'
i ne e d ing he defen e ca ein-chief and e ion hem on ne o ic a ea no ai ed d ing he
a e' ca e.
29
We no e ha he defendan did no objec o he co ' admoni ion
o he i ne e . Ho e e , beca e he eco d i ade a e fo e ie
and he defendan ' claim i of con i ional magni de, e e ie i
an o S a e . G d
, 213 Conn. 233, 239 40, 567 A.2d 823
(1989), a modified b I e Ya e R., 317 Conn. 773, 781, 120 A.3d
1188 (2015) (modif ing hi d condi ion of G d ); ee S a e . F ed
C., 167 Conn. A . 600, 609, 142 A.3d 1258 ( e ie ing
nde G d
n e e ed claim ha
ial co ' e j
admoni ion
o i ne
iola ed defendan ' d e oce
igh ), ce . denied, 323
Conn. 921, 150 A.3d 1150 (2016); ee al o S a e . E
, 311 Conn.

A68
726, 754 55, 91 A.3d 862 (2014) (defendan a no e i ed o
affi ma i el e e
e ie
nde G d ).
30
The defendan f he a g e ha hi igh
o d e oce and o
e en a defen e e e iola ed b he ial co ' fail e o decide
he he
54-47a e i ed he a e o e end imm ni
h o gho
he ial oceeding . The defendan , ho e e , ne e e e ed ha
he ial co
de e mine he he he a e o ided he i ne e
imm ni
h o gho
he en i e ial and no me el d ing he
a e' ca e-in-chief. See foo no e 17 of hi o inion.
31
Fo
o e of hi o inion, fi
ime in-co
iden ifica ion efe
o in-co
iden ifica ion in ca e in hich he i ne ha no
cce f ll iden ified he defendan in a io o -of-co
iden ifica ion oced e.
32
On c o -e amina ion, defen e co n el, ing a ho og a h of
Diamond Co , a ked Robin on o e a oin e o ho
he e on
he ho og a h he ic im and he hoo e
e e loca ed hen he
looked o he
indo and a he hoo ing. In de c ibing he
e en , Robin on e ified ha he hoo e cha ed af e he ic im
b
hen o ed nning and a ed hoo ing. In de c ibing he e
he hoo e
o ed, he e ified: Thi g
igh he e he ho ,
fa one
en
, ho him ice,
hed back. The o he all, kinn
one en
, ho him ice ....
The defendan doe no a g e on a eal ha Robin on'
e of he
h a e, [ ]hi g
igh he e, mean ha he a
ecificall
oin ing o and iden if ing he defendan . Al ho gh he eco d i
nclea , i i e all o ible ha Robin on'
a emen efe ed o
he e on he ho og a h he a oin ing, a in, hi g , he g
anding igh he e he e I am oin ing. The eco d doe no eflec
ha he iden ified he defendan , and nei he a
ha a g ed ha
he did.
33
Office Michael Modeen, ho e onded o he cene of he c ime,
e ified ha Robin on did no info m him ha he had i ne ed he
hoo ing o een he hoo e b , a he , ha he hea d e e al lo d
bang and hen o ened he f on doo o find he ic im fall o hi
back and ee a hi e ca
eed a a
i h o o h ee male in ide.

A69
Modeen, ho e e , did e if ha Robin on a o e come i h
emo ion and ha he had diffic l con e ing hi info ma ion.
34
The a e a g e ha , hen iden i i no a i
e, D c
doe no
a l . We ha e cla ified he im ac of he le in D c
a bi
diffe en l , ho e e , b
i h he ame e l in hi ca e. We ha e
held ha he oced al le in D c
a lie o all fi
ime inco
iden ifica ion . Unde D c
, o ec i el , all fi
ime inco
iden ifica ion m
be e c eened, i h he ial co
ha ing
di c e ion o e mi he admi ion of he e iden ifica ion in ca e in
hich iden i i no a i
e. Simila l , in ca e ending a he ime
of hi co ' deci ion in D c
, he lack of e c eening i ha mf l
onl if iden i
a a i
e. Th , D c
make clea ha fi
ime in-co
iden ifica ion im lica e d e oce onl if iden i i
a i
e.

APPENDIX B

A70
324 C

. 913, 153 A.3 1288
C

C

A E
A

C
.
COLL MO E

D

J

25, 2017

O
The defendan ' e i ion fo ce ifica ion fo a eal f om
he A ella e Co , 168 Conn.A . 847, 148 A.3d 1059
(2016), i g an ed, limi ed o he follo ing i
e :
1. Whe he
o ec o '
e imon d
o he ame
defendan a

he A ella e Co
o e l held ha a
g an of imm ni
o a i ne fo hi
ing he a e' ca e-in-chief doe no e end
i ne ' e imon
hen la e called b he
a i ne ?

*1289 2. If he an e o he fi
e o none hele ha mle ?

e ion i no,

a

he

3. Whe he in-co
iden ifica ion e imon made b he
ic im' mo he and b o he , con a
o hei
e ial
a emen , iola ed he defendan ' d e oce
igh
an o S a e . Dick on, 322 Conn. 410, 141 A.3d 810
(2016)?
EVELEIGH, J., did no a ici a e in he con ide a ion of
o deci ion on hi e i ion.

APPENDIX C

A71
168 C

.A

A

. 847, 143 A.3 1059

C

A E

C

C
.

A

COLL MO E
(AC 37703)

A
O

J

14, 2016
O

11, 2016

B
: Defendan a con ic ed in he S e io
Co , J dicial Di ic of Wa e b
, C emin , J., of
felon m de , a em
o commi obbe , con i ac o
commi obbe , and c iminal o e ion of a fi ea m.
Defendan a ealed.
H
: The A ella e Co , G endel, J., held ha :
1 i ne e
e e no con i ionall en i led o
addi ional imm ni
nde effec i e defen e heo
hen
called a defen e i ne e ;
2 i ne e
e e no con i ionall en i led o
addi ional imm ni
nde
o ec o ial mi cond c
heo
hen called a defen e i ne e ;
3 ial co
ac ed i hin i di c e ion in
aining
i ne e ' igh again
elf-inc imina ion a o ce ain
e ion ;

A72
4 i ne e
e e no en i led o in oke i ilege again
elf-inc imina ion a o e ion he had al ead
an e ed in S a e' ca e-in-chief;
5 ial co ' e o in allo ing i ne e o in oke
i ilege again
elf-inc imina ion a o e ion
al ead a ked hen he ini iall e ified in S a e' ca ein-chief a ha mle ;
6 an e o in admi ing ncha ged mi cond c e idence
a ha mle ;
7 i ne '
io incon i en
a emen
e e admi ible
fo limi ed
o e of im eaching i ne ' c edibili ;
and
8 ial co ' commen d ing en encing e e o e
commen a and did no demon a e im o e
leng hening of en ence fo defendan ' e e ci e of igh o
j
ial.
Affi med.
**1065 A eal f om S e io Co
Wa e b
, C emin , J.

A

L

, j dicial di

ic of

F

S an M. Hankin , a igned co n el, fo he a ellan
(defendan ).
Robe J. Scheinbl m, enio a i an
a e' a o ne ,
i h hom, on he b ief, e e Ma een Pla , a e'
a o ne , and C n hia S. Se afini, enio a i an
a e'
a o ne , fo he a ellee ( a e).
G endel, La ine and M llin , J .*

A73

O
GRUENDEL, J.
*849 I i
ell e abli hed ha he a e ma imm ni e
f om o ec ion a i ne called in i *850 ca e-inchief. See gene all Gene al S a e
54 47a. The
ima
e ion in hi a eal i
he he he a e, af e
imm ni ing ch a i ne fo e imon gi en d ing he
a e' ca e-in-chief, ma decline o e end ha imm ni
o he ame i ne in connec ion i h hi e imon
d ing he defen e ca e-in-chief. He e, e concl de ha
he a e a no e i ed o g an h ee o ec ion
i ne e **1066 addi ional imm ni fo hei
e imon d ing he defen e ca e-in-chief, and ha he
co ' ef al d ing he defen e ca e-in-chief o com el
ho e i ne e o e if
hen he in oked hei fif h
amendmen igh o emain ilen a
o e a o ome
e imon and ha mle a o he e . Acco dingl ,
beca e e concl de ha he emainde of he
defendan ' claim
h ee e iden ia claim and a claim
ha he co
im o e l enali ed he defendan a
en encing fo elec ing o go o ial al o lack me i , e
affi m he j dgmen of con ic ion.
The defendan , A
C
, a eal f om ha
j dgmen , ende ed af e a j
ial, of (1) felon m de
in iola ion of Gene al S a e
53a 54c; (2) a em
o
commi obbe in he fi
deg ee in iola ion of Gene al
Sa e
53a 49 (a) (2) and 53a 134 (a) (2); (3)
con i ac o commi obbe in he fi
deg ee in
iola ion of Gene al S a e
53a 48 (a) and 53a 134
(a); and (4) c iminal o e ion of a fi ea m in iola ion
of Gene al S a e
53a 217 (a) (1).1

A74
A
ial, he j
ea onabl co ld ha e fo nd he
follo ing fac . On Jan a 18, 2010, he defendan and
o of hi f iend , Ra ha n B gg and Vance Wil on
(Vance), e e d i ing a o nd Wa e b
in a hi e, fo
doo , en al H ndai ha he defendan ' a n and ncle
had len o him, looking o ob omeone. E en all
*851 he h ee men d o e in o he Diamond Co
a a men com le , hich com i e eigh a a men
b ilding . Half a do n he main oad of he com le ,
he men a an e en i e-looking, black Ac a o
ili
ehicle (SUV) and decided o ob i d i e .
The d o e do n a mall oad behind he a a men ,
he e he defendan and Vance lled o
hei g n and
e i ed he H ndai, a ing ha he
e e going o ob
he d i e of he SUV. The defendan had a .38 e ol e
and Vance had a .357 e ol e . B gg d o e o he end of
he mall oad and ai ed. The defendan and Vance
eached he SUV, a
o o ng child en nning o a d
i d i e , and decided o call off he obbe . The SUV
d o ea a .
The defendan and Vance hen a
e en een ea old
John F a ie ( ic im) and decided o ob him. A he
e e
ing o ob him, he la ed a a one of hei g n
and an o a d hi a a men , a he en ance o he
com le . The defendan and Vance bo h fi ed ho a he
ic im.
B gg d o e , he defendan and Vance an o e o he
H ndai and go in, and he
ed off o he a a men of
Jaba i Oli han , a clo e f iend ho li ed in Wa e b
.
The e, he defendan and Vance e lained o B gg and

A75
Oli han ha had j
an i ed a Diamond Co ,
namel , ha he had in ended o ob he man in he
SUV b decided no o hen he a hi o ng child en;
in ead, he
ied o ob he ic im and ho him hen he
e i ed. The hen a ked Oli han if he had ome hing o
clean hei g n .
Police a i ed a Diamond Co
i hin min e of he
hoo ing and fo nd he fa all
o nded ic im in f on of
hi famil ' a a men . An a o
e ealed ha a ingle
.38 cla b lle h o gh he ic im' hea had killed
him.2 The defendan a a e ed and ied.
*852 **1067 A
ial, he a e' ca e incl ded mo e han
hi
i ne e , ho e ified o e he co
e of fif een
da . A j
fo nd he defendan g il , and he co
im o ed a en ence of eigh - h ee ea in i on. The
defendan no a eal f om ha con ic ion.
I
The defendan ' fi
claim i ha he co
im o e l
failed o com el h ee defen e i ne e o e if .
S ecificall , he defendan a g e ha he co
im o e l allo ed he a e o e oke he imm ni of
h ee o ec ion i ne e
hen he
e e called a
defen e i ne e , hen im o e l allo ed ho e
i ne e o in oke hei fif h amendmen igh and
ef e o e if , and ha he e o e o combined o
ncon i ionall den he defendan he e i ne e '
e c l a o
e imon .
A
The follo ing addi ional fac and oced al hi o a e
ele an o hi claim. A he defendan '
ial, he a e
g an ed imm ni
o h ee i ne e B gg, Vance, and

A76
Oli han in e change fo hei e imon d ing he
a e' ca e-in-chief. Al ho gh he
e e called a
o ec ion i ne e , once he began o e if , he e
i ne e e dia ed io
a emen inc l a ing he
defendan and e ified o a o e one a e him, ei e a ing
hei e c l a o
e imon
hen he defen e c o e amined hem. The defendan o gh o e amine ho e
i ne e again d ing hi ca e-in-chief b , hi ime,
each i ne in oked hi fif h amendmen igh and
ef ed o an e man o all e ion a ked.
The inc l a o e idence f om he e h ee i ne e came
f om eco ded a emen
he ga e befo e ial o a io
a ho i ie , hich he co
admi ed fo
b an i e
o e .3 The a emen diffe ed ma kedl *853 f om
he ial e imon , and each of he h ee i ne e
e dia ed hi
a emen a leng h d ing he a e'
di ec e amina ion and he defendan ' c o e amina ion. We di c
each i ne in
n.4
1
B gg a he fi
of he h ee i ne e g an ed
imm ni . When he a e called him o e if in i ca ein-chief, he comm nica ed h o gh hi a o ne ha he
o ld be in oking hi fif h amendmen igh again
elfinc imina ion, fea ing ha he a e migh b ing d g
cha ge again him fo hi ac i i ie on he nigh of he
hoo ing and e j
cha ge if he con adic ed he
e imon he had gi en a he defendan '
obable ca e
hea ing. The a e old he co : Yo Hono , ba ed on
o
e ie of he a e, he a e in end o gi e [B gg]
e imm ni fo an d g ac i i he a engaged in on
Jan a 18, 2010.... [In addi ion] he a e doe no in end
o o ec e [B gg] fo an e j
ha he ma ha e
commi ed a he obable ca e hea ing. The co

A77
info med B gg ha a a e l , o [imm ni
nde
he a e] doe n' e i , beca e he a e ha emo ed
[ he o ibili of o ec ion ha ] o ld o he i e allo
o o [claim he imm ni ]. **1068 B gg indica ed ha
he nde ood. The co
in
c ed he j
ha
nde
[ ] 54-47a, [B gg] ha been com elled o e if ....
B
'
' C
- -C
When he a e e amined B gg d ing i ca e-in-chief,
he e ified ha on Jan a 18, 2010, he,
he *854 defendan and Vance d o e o Diamond Co
o
b d g f om he eed man, and hen d o e o
Oli han ' a a men . B gg ackno ledged nde
e ioning ha hi
o diffe ed f om he olice
a emen he ga e on Feb a 10, 2011, and f om hi
e imon a he defendan '
obable ca e hea ing on
A g
30, 2011. In e dia ing hi ea lie
a emen , he
claimed, ho e e , ha he olice had fo ced him o ign
he a emen af e
i ing i hem el e and ha he had
e ified fal el a he obable ca e hea ing in e change
fo a lea deal.
On c o -e amina ion, B gg ei e a ed ha , on Jan a
18, 2010, he e a ne e an lan o ob omeone, he
e e going o ge ome eed, ha a he hole hing,
and he did no ee he defendan o Vance i h a g n ha
nigh . B gg e ified ha he igned he olice a emen
in e change fo a lea deal and beca e he olice bea
him, and ha hi e imon a he obable ca e hea ing
a a of he ame lea deal.

A78
B
'
I
The a e bmi ed he o a emen made b B gg
io o hi e imon a
ial, bo h of hich e e
admi ed in o e idence fo
b an i e
o e
nde S a e . W e a , 200 Conn. 743, 753, 513 A.2d 86,
ce . denied, 479 U.S. 994, 107 S.C . 597, 93 L.Ed.2d 598
(1986).
Fi , he a e in od ced B gg' olice a emen , made
on Feb a 10, 2011, h o gh Lie enan Michael
Sla in, one of he de ec i e
ho had aken i . Sla in
e ified ha B gg had ag eed i h he a emen he had
gi en o he olice and ha he olice did no bea o
h ea en B gg. The co
admi ed he a emen a a f ll
e hibi .
B gg a ed o he olice ha on Jan a 18, 2010, he,
he defendan and Vance e e d i ing a o nd
hen *855 he defendan and Vance a a black Ac a
SUV a Diamond Co , lled o
hei g n , old B gg
ha he
e e going o ob i d i e , and go o of he
ca . B gg a he defendan i h a .38 e ol e and
Vance i h a .357. Soon, B gg hea d fi e o i g n ho
and a he defendan and Vance nning . The go
in o he H ndai and old B gg o d i e, and he ed
a a . When he a i ed a Oli han ' a a men , Vance
and he defendan e lained o B gg ha he g in he
Ac a had a bab in i , o he fel bad; in ead [ he ]
ook he o ng nigga. The defendan old B gg ha
Vance ha[d] hi g n o he [ ic im' ] che
hile he
e e
ing o ob him, and he [ ic im] ied o g ab i
and he
a ed o
le o e he g n, [and] ha i
h

A79
he ho him. While he defendan a alking, Vance
a ked fo ome ammonia o ha he co ld clean off hi
g n.
Second, B gg'
obable ca e hea ing a emen , made
on A g
30, 2011, a admi ed in o e idence h o gh
he e imon of he co
e o e
ho had eco ded and
an c ibed i . A he obable ca e hea ing, B gg had
e ified ha he defendan and Vance decided o ob he
man in he Ac a SUV, ha he
en o do o, ha he
hea d g n ho , ha he defendan and Vance came
nning o he H ndai, ha he go in and he d o e off,
and ha a Oli han ' a a men he had **1069 a ed
ha he obbed omeone el e in ead.
B
'
D
C
- -C
When he defen e old he co
ha i o ld be calling
B gg a a i ne , he a e old he co
ha he
a e' g an ing of imm ni
o he he o ec ion
i ne e doe no e end o hem a defen e i ne e
.... The co
old B gg ha he e a an i
ea o
he he o no he imm ni
ha he a e ga e [him]
hen [he a ] he e befo e a lie[d] o
[hi ] *856 e imon no , beca e no [he a ] being
called b he defendan ... and ha i
e, he he o no
he imm ni a ache[d] [ a ] nclea , o ha [he]
ho ld do i be g ided b
ha [hi ] a o ne , ho o ld
be i ing ne
o him d ing hi e imon , ad i e[d]
[him] a o an e ing an of he e ion . When he
a e added ha , no i h anding he co ' o i ion, i
i he a e' ha [B gg] i no being gi en ... imm ni
fo hi e imon a hi oin in ime, he co
cla ified,
I an o be
e hi i clea fo he eco d. I belie e

A80
ha I aid o [B gg] i ha he la i nclea a o
he he o no he imm ni he a gi en b he a e
ela e o hi e imon a a defen e i ne .
In e on e o e ion abo
he nigh of Jan a 18,
2010, B gg e ified ha he a d i ing he H ndai ha
nigh , ha he ho gh he
a going o ge ome eed,
and ha he did no kno
he e he hoo ing occ ed
beca e he a in a ca . B gg a e ed hi fif h
amendmen igh
hen a ked he e he d o e af e he
defendan and Vance e i ed he ca , and he e he a
hen he hea d g n ho . B gg al o an e ed defen e
co n el'
e ion abo
a io
hone call he had
made f om i on and a e ed hi fif h amendmen
igh fo onl one ch e ion af e e if ing ha hi
co in, Ma
i e Foo e, had olen f om him, he a e ed
hi fif h amendmen igh
hen a ked ha a
olen.
A o hi e imon a he obable ca e hea ing, B gg
ag eed i h he defen e co n el ha he had e ified a
ha hea ing fo he
o e of ge ing a deal, b
a e ed hi fif h amendmen igh
hen a ked if hi
e imon a ha hea ing a
e.
2
Vance a he econd of he h ee i ne e g an ed
imm ni . When he a e called him o e if ,
he *857 ai ed hi fif h amendmen igh again
elfinc imina ion. The a e la e cla ified ha i had g an ed
Vance imm ni
fo a claim of fal e a emen ....
'
' C
- -C
D ing he a e' ca e-in-chief, Vance e ified ha on
Jan a 18, 2010, he and B gg accom anied he

A81
defendan o Diamond Co
o collec $3000 f om
omeone o ha he defendan co ld e a Vance fo
he oin Vance had gi en he defendan . Vance belie ed
ha he
e e going o a k [ he man] he e he mone
i . Tha ' all. When he a i ed, ha man d o e off,
Vance nched he defendan in he ja and, belie ing
ha he defendan a
eaching fo ome hing, Vance
ho a he defendan i h a .357 Ta
Magn m
e ol e a he an a a . Vance e ified ha he had
ne e een he defendan i h a g n b had een him
i h a knife. Soon, he defendan go back in o he ca
i h Vance and B gg, and he d o e off.
The a e a ked Vance abo hi
o io acco n of he
hoo ing hi
a emen o olice on Feb a 22, 2011,
and **1070 hi g il
lea on Feb a 21, 2012 bo h of
hich diffe ed f om hi
ial e imon . Vance claimed
ha he igned he olice a emen onl beca e he had
been h ea ened i h he dea h enal and ha he
en e ed hi g il
lea in e change fo a en ence of onl
hi
o fif
ea ' inca ce a ion. When e ioned abo
hi olice a emen and g il
lea, Vance e dia ed
bo h and e i ed in hi
o abo d i ing o Diamond
Co
o collec mone o ed him fo he oin.
On c o -e amina ion, Vance e en iall ei e a ed hi
e imon gi en on di ec e amina ion.
*858
'
I
The a e bmi ed he o a emen made b Vance
io o hi e imon a
ial, bo h of hich e e
admi ed in o e idence fo
b an i e
o e

A82
nde S a e . W e a ,
86.

a, 200 Conn. a 753, 513 A.2d

Fi , he a e in od ced Vance' olice a emen , made
on Feb a 22, 2011, h o gh Sla in, ho e ified ha
Vance had igned a he bo om of each age and ha no
one h ea ened o fo ced him o do o. In Vance'
a emen , he aid ha on Jan a 18, 2010, he, he
defendan and B gg d o e o Diamond Co
he e he
a a black Ac a SUV and decided o ob i d i e .
Vance ook o a .357 e ol e , he defendan ook o a
.38 e ol e , and he e i ed he ca and an
o he
SUV, b
he hen a
o o ng child en, ca ing hem
o le i go. The SUV d o e off. Vance and he defendan
hen a he ic im alking b and decided o ob him.
The defendan
ck hi g n in he ic im' che , a ing,
o kno
ha i i , b
he ic im la ed he g n
a a and ook off nning. The defendan and Vance each
fi ed o o h ee ho in he ic im' di ec ion befo e
ge ing in o hei ca and d i ing o Oli han ' a a men .
The e, he defendan a ked fo Vance' g n o he co ld
di o e of i and hi g n.
Second, Vance' g il
lea a emen a admi ed in o
e idence h o gh he e imon of he co
moni o
ho
eco ded and an c ibed i . A he g il
lea hea ing,
Vance had admi ed ha he defendan a ked him o
commi a obbe ; ha he, he defendan , and B gg
decided o ob he man in he SUV; ha bo h he and he
defendan had g n ; ha he defendan ' g n a a .38;
ha he decided again
obbing he SUV hen he a
i d i e had o ng child en; ha he
ied o ob he
ic im in ead; ha he defendan an *859
o he
ic im fi
and
a g n o hi che ; ha Vance fi ed

A83
o o h ee ho
hen he ic im an; ha he
defendan fi ed ho a
ell; and ha back a Oli han '
a a men on Waln S ee , Vance ga e hi g n o he
defendan hen a ked.
'
D
C
- -C
When he defen e called Vance a a i ne , he a e
a e ed ha i i he a e' o i ion ha an e imon
ha he gi e a hi o ion of he oceeding i no
co e ed b ... imm ni . The co
e ea ed o Vance he
ame ad i emen i had gi en B gg conce ning imm ni
and old him o be g ided b he ad ice of o a o ne
and ha '
ha ' he a
e ho ld oceed.
The co
a ked fo an offe of oof o ide he e ence
of he j
, d ing hich defen e co n el a ked ha he
olice aid hen he ook Vance'
a emen , he he
Vance ho he ic im, and he he Vance called a e on
named Ka en A kin in J ne, 2012. Vance e lied: Ba ed
on he ad ice of m co n el, I'm going o in oke m fif h
amendmen igh .
**1071 Al ho gh he defendan a g ed ha Vance had
no alid fif h amendmen igh o a e , he a e and
Vance' a o ne a g ed ha Vance had e o be
en enced on a g il
lea o a io cha ge a i ing f om
he Jan a 18, 2010 hoo ing; ha he lea deal allo ed
a en ence in he ange of hi
o fif
ea ; and ha
n il Vance a en enced hi fif h amendmen igh
again
elf-inc imina ion con in ed o a l o he
e en of Jan a 18, 2010. The co
held ha Vance'
fif h amendmen igh con in ed o a l n il af e
en encing and ha , beca e he a e a[id] on he

A84
eco d ha [Vance] i no being imm ni ed i h e ec
o hi e imon a a defen e i ne , he efo e
he *860
o e l , in m ie , in oked hi fif h
amendmen
i ilege. Beca e i o ld be im o e o
call a i ne fo he ole
o e of ha ing him in oke
he fif h amendmen in f on of he j
;
ee S a e . Pe
, 215 Conn. 653, 660 61, 577 A.2d 1036
(1990), ce . denied, 498 U.S. 1048, 111 S.C . 756, 112
L.Ed.2d 776 (1991); he co
e c ed Vance i ho
ha ing him e if a a defen e i ne .
3
Oli han a he hi d of he h ee i ne e g an ed
imm ni in connec ion i h he defendan '
ial. When
he a e called him o e if , he comm nica ed h o gh
hi a o ne ha he o ld be in oking hi fif h
amendmen igh again
elf-inc imina ion. Oli han '
a o ne di c
ed i h he co
Oli han ' fea ha he
a e migh b ing fal e a emen cha ge again him if
he con adic ed hi
a emen o olice, and hinde ing
o ec ion cha ge fo hi in e ac ion
i h he
defendan , Vance, and B gg af e he hoo ing. Af e a
collo
i h he o ec o , he co
old Oli han , o
don' ha e a fif h amendmen
i ilege beca e ... o
ha e been gi en an ac ional imm ni b he a e.
Oli han aid ha he nde ood.
O
'
' C
- -C
D ing e ioning in he a e' ca e-in-chief, Oli han
e ified ha on he nigh of Jan a 18, 2010, he a a
he a a men on Waln S ee hen he defendan ,
Vance, and B gg came o e . P i a el , Vance old
Oli han ha he had j
killed omeone, and an ed o
kill B gg and he defendan beca e he didn' an o
lea e no i ne e . A co le of da la e , B gg old

A85
Oli han ha he defendan , Vance, and he had been
d i ing a o nd d inking and moking ha nigh , hen
Vance a
omebod
alking do n he *861
ee ,
ho ed o [of] he ca , [and] ied o ob him. The
[ ic im] fo gh [Vance] off and [Vance] ho [ he ic im].
[Vance] j m ed back in he ca and he
ed off.
Oli han f he e ified ha he defendan ne e alked
abo
he hoo ing i h him, and ha Oli han had ne e
een he defendan i h a g n, b
ha he had een
Vance i h a .357 calibe g n befo e he Jan a 18, 2010
hoo ing.
Oli han ackno ledged ha hi
o diffe ed f om he
a emen he had gi en o he olice on Feb a 2,
2011. He claimed, ho e e , ha he olice made him ign
ha
a emen af e bea ing him fo ho
, hile he a
high on PCP and alcohol. When he a e e ioned
Oli han line b line, he again e dia ed hi
a emen
and e i ed in hi
o
ha he a old ha Vance go
o of he ca alone and obbed a a e b .
On c o -e amina ion, defen e co n el e amined
Oli han e en i el abo hi
a emen , hich Oli han
e dia ed and aid he igned onl beca e olice bea
him and a o ec o
a offe ing [him] deal o e j e
[him] elf ....
**1072
O
'
I
The a e bmi ed Oli han ' olice a emen in o
e idence and he co
admi ed i fo
b an i e
o e nde S a e . W e a ,
a, 200 Conn. a 753,
513 A.2d 86. The a e again called Sla in a a i ne ,
ho e ified ha he had aken Oli han ' olice

A86
a emen in he ame manne he had aken B gg' and
Vance'
a emen , and ha no one fo ced o h ea ened
Oli han o ign.
In he a emen , Oli han aid ha on he nigh of
Jan a 18, 2010, a he a a men on Waln S ee ,
Vance and he defendan bo h old Oli han ha he had
been d i ing a o nd i h B gg looking o ob omeone
hen he a he ic im in he Diamond Co
*862 a a men com le . The old Oli han ha he
ied o ob he ic im, b
hen he fo gh back and an
o a d hi a a men , Vance ho him in he back. A
ome oin , B gg al o oke i h Oli han and old him
ha he defendan , Vance, and he e e d i ing a o nd in
he hi e ca on Jan a 18, 2010, looking fo omeone o
ob, ha he a he ic im in he Diamond Co
a a men com le , and ha Vance ho he ic im a he
an a a . Oli han
e io l had een Vance i h a
.357 calibe g n and he defendan i h a .38 calibe
e ol e .
O
'
D
C
- -C
When he defen e ied o call Oli han a a i ne , he
a e old he co
ha i ' he a e' o i ion ha he
imm ni
ha a gi en o M . Oli han hen he
e ified a a o ec ion i ne in he a e' ca einchief ... ended ... and he ha no imm ni fo an hing
ha goe on oda . The co
ad i ed Oli han
conce ning imm ni a i had B gg and Vance and old
him o be g ided ... b [hi ] a o ne ' ad ice ....
Oli han ' a o ne aid ha Oli han o ld no an e
an
e ion [b]a ed on he e e en a ion ha

A87
imm ni
ill no be e ended o him being called a a
defen e i ne .
D ing an offe of oof o ide he e ence of he j
,
defen e co n el a ked e e al e ion abo Oli han '
Feb a 2, 2011 a emen o he olice. Oli han
in oked he fif h amendmen hen a ked if he a bea en
on ha da e and ha he had mean b a of hi
ial
e imon a a o ec ion i ne ,5 *863 b he did
e if ha , on Feb a 2, 2011, he a a e ed i h a
man named Jamel, hom he had no kno n fo long. The
a e a ked h ee e ion on c o -e amina ion ho ,
and fo ho long, had Oli han kno n Jamel befo e hei
a e ; and did he ha e na co ic
hen a e ed.
Oli han a e ed hi fif h amendmen igh in e on e
o each e ion.
The a e a g ed ha Oli han co ld no elec i el
a e hi fif h amendmen igh , e if ing abo a
bjec fo he defen e b
ef ing o an e he a e'
e ion abo
he ame bjec . Defen e co n el ag eed
ha if Oli han did o, hen he o ld be na ailable fo
c o -e amina ion and o he co
o ld ha e o
ike
hi e imon . See S a e . Ma a a, 44 Conn.A . 84, 92
93, 688 A.2d 336 (co
o e l
ck defendan ' en i e
e imon
he e he ef ed o an e
e ion
**1073 on c o -e amina ion), ce . denied, 240 Conn.
912, 690 A.2d 400 (1997). The co
held ha , beca e
Oli han indica ed he i no going o e ond o an of
he e ion a ked on c o -e amina ion b he a e, i
o ld be f ile o call him a a i ne onl o ha e hi
e imon
icken. Acco dingl , he co
elea ed

A88
Oli han f om he b oena i h hich he had been
e ed, and he did no e if a a defen e i ne .
B
Wi h ha fac al hi o in mind, e no
n o he
defendan ' fi
claim on a eal, hich i ha he co
im o e l (1) allo ed he a e o e oke he imm ni
of B gg, Vance, and Oli han , h ee o ec ion
i ne e , hen he
e e called a defen e i ne e ;
and (2) failed o com el ho e h ee i ne e o e if
hen he a e ed hei fif h amendmen igh a
defen e i ne e , h den ing he defendan c cial,
e c l a o
e imon . We add e each a g men in
n.
*864 1
The defendan a g e ha he co
im o e l allo ed
he a e o e oke i g an of imm ni
o B gg,
Vance, and Oli han hen he
e e called a defen e
i ne e and, ha he e oca ion iola ed he
defendan ' igh
o d e oce and a fai
ial nde
he fo een h amendmen o he Uni ed S a e
con i ion, a
ell a hi igh
o com l o
oce
and o e en a defen e nde he i h amendmen 6 o
he Uni ed S a e con i ion.7 A
e ha e no ed, he
a e ini iall had g an ed each i ne imm ni d ing
he o ec ion' ca e-in-chief,
an o 54
47a.8 When he defendan called ho e ame i ne e fo
hi ca e-in-chief, he a e old each of hem ha he no
longe had imm ni .
The defendan cha ac e i e hi a a e oca ion of
imm ni and a g e ha
ch a e oca ion iola ed hi
con i ional igh beca e i effec i el
e en ed he
i ne e f om e if ing. B con a , he

A89
a e *865 a g e ha i did no e
e g an of
imm ni
o an of i
i ne e and ha he eal
e ion i
he he he co
o e l held ha he a e
need no g an add
a imm ni
o ho e i ne e .
(Em ha i added.) We ag ee i h he a e ha , beca e
i did no e oke he i ne e ' imm ni and he co
o e l held ha he a e a nde no obliga ion o
g an hem addi ional imm ni , he defendan '
con i ional igh
e e no iola ed.
**1074 Fi , o he e en ha he defendan claim ha
he co
iola ed hi con i ional igh b
mi a l ing 54 47a o e mi he a e
o e
e imm ni
e io l g an ed nde 54 47a,
em
in e e ha
a e. To he e en ha he
[defendan ' ] claim e i e
o in e e he
e i emen of [a a e], o
e ie i lena . I e
Ne ae W., 317 Conn. 723, 729, 120 A.3d 1177 (2015). We
begin i h he a e' e and ela ion hi o o he
a e , and con ide o he e idence of i meaning onl
if he e i elf i ei he ambig o o ield ab
d
e l . Id., 729 30, 120 A.3d 1177.
Sec ion 54 47a ha
o a . Sec ion 54 47a (a) o ide
in ele an a : Whene e in he j dgmen of ... a a e'
a o ne ... he e imon of an
i ne ... in an
c iminal oceeding in ol ing ... felonio c ime of
iolence ... o an o he cla A, B o C felon ... [i
nece a
o ob ain] fficien info ma ion a o he he a
c ime ha been commi ed o he iden i of he e on o
e on
ho ma ha e commi ed a c ime ... [and] i
nece a
o he blic in e e ... he a e' a o ne ...
ma , i h no ice o he i ne , af e he i ne ha
claimed hi
i ilege again
elf-inc imina ion, make

A90
a lica ion o he co
o e if ....

fo an o de di ec ing he

i ne

Sec ion 54 47a (b) o ide in ele an a : U on he
i
ance of he o de
ch i ne
hall no
be *866 e c ed f om e if ing ... on he g o nd ha he
e imon ... ma end o inc imina e him o
bjec him
o a enal o fo fei e. No ch i ne ma be
o ec ed o
bjec ed o an enal o fo fei e fo o
on acco n of an
an ac ion, ma e o hing conce ning
hich he i com elled o e if ... and no e imon ... o
com elled, and no e idence di co e ed a a e l of o
o he i e de i ed f om e imon ... o com elled, ma be
ed a e idence again him in an
oceeding, e ce
ha no i ne
hall be imm ne f om o ec ion fo
e j
o con em commi ed hile gi ing ch
e imon .... 9
The lain lang age of 54 47a (b) h
o ide ha , if a
i ne i com elled o e if abo a
an ac ion,
ma e o hing, hen he i ne canno be
o ec ed
o
bjec ed o an enal o fo fei e fo o on acco n
of ha
an ac ion, ma e , o hing. No hing in he
a e gge
ha a o ec o ma la e e oke ha
imm ni , befo e o af e he i ne
e ifie , and decide
o o ec e he i ne af e all. Indeed, if he a e had
ch o e , hen he imm ni
omi ed nde 54
47a o ld be an em
ge
e. We concl de ha , in he
ab ence of ecial ci c m ance , once he a e g an a
i ne imm ni
nde 54 47a, i lainl lack he
o e o e oke ha imm ni . Acco dingl , o he e en
ha B gg, Vance, o Oli han a com elled nde
54
47a o e if abo a an ac ion, ma e , o hing d ing
he a e' ca e-in-chief, hen, f om ha oin on, he

A91
a e co ld no longe
i .10

o ec e hem fo o on acco n of

*867 **1075 The a e a g e , and e ag ee, ha i did
no e
e g an of imm ni
o an of i
i ne e .
(Em ha i added.) Gi en he con ain im o ed b
54 47a, he a e' commen
o he h ee i ne e a e
be
nde ood no a a e oca ion of he imm ni
ha he al ead had, b
a he a a ef al o g an
ho e i ne e add
a imm ni .11 To i , he a e
did no i h o g an hem bo h an ac ional imm ni
f om o ec ion fo an
an ac ion di c
ed fo he
fi
ime d ing he defen e ca e-in-chief, and e o
de i a i e e imm ni
ha o ld ba he a e f om
ing hei defen e e imon
o e idence de i ed f om
i in an o en ial o ec ion again
hem ha he
a e co ld ill legall
e.
The e ion i no one of e oca ion. Ra he , he e ion
i
he he an of he con i ional o i ion ci ed b
he defendan e i ed he a e o g an ha addi ional
imm ni
o ho e i ne e .
We he efo e
n o he he he a e a e i ed o
g an he h ee i ne e addi ional imm ni fo hei
e imon a defen e i ne e . A a h e hold ma e ,
em
fi
de e mine he a licable anda d of e ie
ha go e n o e amina ion of he defendan ' claim .
The i
e of he he a defendan ' igh
o d e oce
and com l o
oce
e i e ha a defen e i ne be
g an ed imm ni i a e ion of la and, h , i
bjec o de no o e ie . ...

A92
[A] defendan ha a igh nde he com l o
and d e oce cla e o e en [hi ] e ion
he fac a
ell a he o ec ion' o he j
i ma decide he e he
h lie . ... The com
oce cla e of he i h amendmen gene all
an acc ed he igh o call i ne e
ho e e
ma e ial and fa o able o hi defen e ....

oce
*868 of
o [ ha ]
l o
affo d
imon i

We begin o anal i
i h he a o
o i ion
conce ning o ec o ial imm ni fo i ne e .
[Sec ion] 54 47a a ho i e he o ec ion o g an
imm ni
o a e i ne e nde ce ain ci c m ance .
We e lici l ha e held ha 54 47a confe no ch
a ho i
on he co
i h ega d o defen e
i ne e . ... Indeed, hi co
ha held e ea edl ha
he e i no a ho i , a o o o he i e, enabling a
ial co
o g an imm ni
o defen e i ne e . ... We
ha e no occa ion o e i i ho e holding oda .
We ecogni e ha o he co
ha e held ha nde
ce ain com elling ci c m ance he igh
o d e oce
and com l o
oce
nde he fede al con i ion
e i e he g an ing of imm ni
o a defen e i ne .
The fede al Ci c i Co
of A eal ha e de elo ed o
heo ie
an o hich he d e oce and
com l o
oce cla e en i le defen e i ne e o a
g an of imm ni . The a e he effec i e defen e heo ,
and he o ec o ial mi cond c heo ....
Unde he effec i e defen e heo ... he ial co
ha
he a ho i
o g an imm ni
o a defen e i ne
hen i i fo nd ha a o en ial defen e i ne can offe
e imon
hich i clea l e c l a o and e e a
e

A93
defe e ca e and hen he go e nmen ha no
ong **1076 in e e in i hholding ... imm ni ....
The Thi d Ci c i [Co
of A eal ] ha held e lici l
ha nde he effec i e defen e heo [i]mm ni
ill be
denied if he offe ed e imon i *869 fo nd o be
ambig o [o ] no clea l e c l a o ....
The o ec o ial mi cond c heo of imm ni i
ba ed on he no ion ha he d e oce cla e
[con ain ] he o ec o o a ce ain e en in [i ]
deci ion o g an o no o g an imm ni . ... Unde hi
heo , ho e e , he con ain im o ed b he d e
oce cla e i o e a i e onl
hen he o ec ion
engage in ce ain
e of mi cond c , hich incl de
fo cing he i ne
o in oke he fif h amendmen o
engaging in di c imina o g an of imm ni
o gain a
ac ical ad an age, and he e imon m
be ma e ial,
e c l a o and
c
a e, and he defendan m
ha e
e
ce
e
e e de ce. (Ci a ion
omi ed; em ha i added; in e nal o a ion ma k
omi ed.) S a e . K b , 280 Conn. 361, 403 404, 908
A.2d 506 (2006).
O S
eme Co
e io l ha declined o decide
he he ei he of he e heo ie i co ec , in he ab ence
of ci c m ance ha o ld hen a an e e al of a
j dgmen on ha ba i . Id., 405. The e en ca e again
o ide no occa ion o each he co ec ne of ei he
heo .
To cceed nde he effec i e defen e heo , a defendan
m
ho ha he e imon a i
e a
e en ial
o he defen e. Id.; ee, e.g., U ed S a e . MacC
e ,

A94
682 F.2d 468, 475, 479 (4 h Ci .1982)( e e ing j dgmen
of con ic ion he e
ima defen e i ne
ef ed o
an e ome e ion befo e j
a o ce ain di ec l
ele an de ail of alleged con i ac , al ho gh
e imon he ga e in ... oi di e a de ailed and
con adic ed, o offe ed innocen e lana ion o, [ he]
damaging e imon of a e'
ima
i ne ). He e, b
con a , he e i no ea on o belie e ha he h ee
i ne e ' e imon *870 d ing he defen e ca e-inchief o ld ha e been an hing o he han a eha h of
hei
o ec ion e imon , hich, if belie ed, al ead
ended o e one a e he defendan f om each of he c ime
cha ged. Each e ified a leng h, fa o abl o he
defendan , bo h hen he a e e amined hem d ing i
ca e-in-chief and hen he defendan c o -e amined
hem. Al ho gh i i o ible ha he i ne e
o ld
ha e o ided addi ional e c l a o de ail
hen called
a defen e i ne e , no hing in he eco d indica e
ha
ho e de ail
o ld ha e been.12 See **1077 U ed
Sae .T
Ca a G
, I c., 237 Fed.A
.
625, 630 (2d Ci .2007)( [N]o one kno
ha [ he
i ne e ] o ld ha e e ified o ince he ef ed o
commen on he ma e . [The defendan ' ] ec la ion
ha [ he ] o ld ha e e ified in [hi ] fa o i no
fficien o o e ha hei e imon
o ld ha e been
e c l a o . ). The defendan ha failed o ho ha an
addi ional e imon he h ee i ne e ma ha e
o ided a defen e i ne e
a e en ial o hi
defen e.
*871 Like i e, nde he o ec o ial mi cond c
heo , a defendan m
ho ha he e imon a
i
e a no c m la i e and ha he had no o he
o ce o ge he e idence. S a e . K b ,
a, 280

A95
Conn. a 404, 908 A.2d 506. The defendan ha
o ided
no indica ion of ha ne e c l a o
e imon he o ld
ha e elici ed f om he e h ee i ne e d ing hi ca ein-chief. A o al a g men befo e hi co , he
defendan ' co n el a
ecificall a ked ha
addi ional de ail he defendan a
e en ed f om
elici ing f om he e h ee i ne e , and he o ided
none. Acco dingl , he defendan ha failed o ho ha
he i ne e ' e cl ded e imon
o ld no ha e been
c m la i e and ha he had no o he o ce o ge he
e idence.
We h concl de ha he a e a no con i ionall
e i ed o g an addi ional imm ni
o B gg, Vance,
and Oli han hen he e ified a defen e i ne e .
2
The defendan al o a g e ha he co
im o e l
failed o com el B gg, Vance, and Oli han o e if
hen he a e ed hei fif h amendmen igh a
defen e i ne e , beca e a ha oin , a a e l of he
imm ni
ha he a e had g an ed hem d ing i
ca e-in-chief, he
e e no longe e o ed o o ec ion
and h had no alid fif h amendmen igh o
a e .13 We concl de ha he co
o e l ef ed o
com el he e i ne e o an e ome e ion , ha
he co
im o e l ef ed o com el hem
o *872 an e o he
e ion , and ha an e o a
ha mle beca e all of he e imon im o e l
e cl ded a c m la i e.
We begin i h o
anda d of e ie . A ling on he
alidi of a i ne ' fif h amendmen
i ilege i an
e iden ia de e mina ion ha hi co
ill e ie

A96
nde he ab e of di c e ion anda d. ... I i
ell e led
ha he ial co ' e iden ia
ling a e en i led o
g ea defe ence. ... The ial co
i gi en b oad la i de
in ling on he admi ibili of e idence, and e ill no
di
b ch a ling nle i i ho n ha he ling
amo n ed o an ab e of di c e ion. (In e nal o a ion
ma k omi ed.) S a e . L
e , 152 Conn.A . 682, 699,
99 A.3d 1242, ce . denied, 314 Conn. 940, 108 A.3d 1123
(2014).
[W]hen an im o e e iden ia
ling i no
con i ional in na e, he defendan [al o] bea
he
b den of demon a ing ha he e o a ha mf l ....
[W]he he [ he im o e e cl ion of a i ne '
e imon ] i ha mle in a a ic la ca e de end
on
a n mbe of fac o , ch a ... he he he e imon
a
c m la i e ... [and] he e en of c o -e amina ion
o he i e e mi ed .... Acco dingl , a noncon i ional
e o i ha mle
hen an a ella e co
ha a fai
a
ance ha he e o did no
b an iall affec he
e dic . (In e nal o a ion ma k
omi ed.) S a e . Pa e, 303 Conn. 538, 558 59, 34 A.3d
370 (2012).
**1078 The anda d fo de e mining he he o e mi
in oca ion of he i ilege again
elf-inc imina ion i
ell e abli hed. To ejec he in oca ion i m
be e fec c ea , f om a ca ef l con ide a ion of all he
ci c m ance in he ca e, ha he i ne i mi aken,
and ha he an e [ ] ca
b ha e [a] endenc
o inc imina e he i ne . ... The igh o
he *873 i ilege doe no de end on he likelihood of
o ec ion b
on he o ibili of o ec ion.
(Ci a ion omi ed; em ha i in o iginal; in e nal

A97
o a ion ma k omi ed.) S a e . G a d, 258 Conn. 631,
640, 783 A.2d 1019 (2001).
He e, all b
h ee of he e ion a o hich B gg,
Vance, and Oli han a e ed hei fif h amendmen
igh d ing he defendan ' ca e-in-chief e e e ion
ha he had al ead an e ed d ing he a e' ca e-inchief. The h ee ne
e ion
e e: (1) o B gg, ha hi
co in ole f om him; (2) o Vance, he he he called a
e on named Ka en A kin in J ne, 2012; and (3) o
Oli han , ha he mean hen he e ified d ing he
a e' ca e-in-chief ha he fel g il abo Vance.
A o he h ee ne
e ion , e a e nable o concl de
ha he co
ab ed i di c e ion in
aining he
i ne e ' in oca ion of hei fif h amendmen igh . We
no e ha [i]n a
ai ing a fif h amendmen claim b a
i ne , a j dge m
be go e ned a m ch b hi
e onal e ce ion of he ec lia i ie of he ca e a b
he fac ac all in e idence. (In e nal o a ion ma k
omi ed.) Ma
.F a a a , 259 Conn. 487, 495 96, 789
A.2d 979 (2002). To
ain he i ilege, i need onl be
e iden f om he im lica ion of he e ion, in he
e ing in hich i i a ked, ha a e on i e an e o
he e ion o an e lana ion of h i canno be
an e ed migh be dange o beca e inj io
di clo
e co ld e l . (In e nal o a ion ma k
omi ed.) Id., 495. A o he fi
e ion, he na e of
ha B gg' co in ole f om him co ld ha e
inc imina ed B gg if he i em a con aband. A o he
econd and hi d e ion , he eco d hed li le ligh on
hei ignificance. Acco dingl , on hi eco d, e canno
econd-g e
he de e mina ion of he ial co . We
concl de ha he co
did no ab e i di c e ion in

A98
aining he i ne e ' in oca ion of *874 hei fif h
amendmen igh
hen he
e e a ked abo
he e
h ee an ac ion , a o hich he lacked imm ni .14
B con a , a o ho e e ion ha he i ne e had
al ead an e ed d ing he a e' ca e-in-chief, 54
47a fo eclo ed an o ibili of o ec ion fo he
an ac ion , ma e , and hing a i
e. Acco dingl ,
f he
e ion abo
ho e ame i
e did no
im lica e he i ne e ' fif h amendmen igh again
elf-inc imina ion.15 The co
ab ed i di c e ion in
aining he i ne e ' in oca ion of hei fif h
amendmen igh a o ho e i
e .16
**1079 We concl de, ho e e , ha hi e o a
ha mle .17 He e, each i ne al ead had e ified and
been c o -e amined a leng h, on he ame i
e , d ing
he *875 a e' ca e-in-chief. We h concl de ha he
defendan ha failed o mee hi b den of o ing ha
he im o e e cl ion of he e i ne e ' e imon o
he ame effec d ing hi ca e-in-chief a ha mf l.
Beca e he co
did no e mi he a e o e oke he e
i ne e ' imm ni and o e l held ha he a e
need no g an hem addi ional imm ni
hen he
e e
called a defen e i ne e , and beca e he co '
fail e o com el he e h ee i ne e o ei e a e
e imon a defen e i ne e
a ha mle , he
defendan ' fi
claim fail .
II
The defendan ' econd g o of claim en ail
h ee alleged e iden ia e o : (1) ha he co
im o e l admi ed ncha ged mi cond c e idence

A99
gge ing ha he defendan had a g n one eek befo e
he hoo ing and fo mon h af e he hoo ing; (2) ha
he co
im o e l admi ed a io incon i en
a emen b B gg o im each hi
ial e imon ha he
had ne e di c
ed he hoo ing i h hi co in; and (3)
ha he co
im o e l e mi ed he a e' lead
de ec i e, Sla in, o e if , in he co
e of de c ibing
ho he *876 in e iga ion oceeded, abo
a io
i ne e ' a emen
o he olice.
We begin b e ing fo h he anda d of e ie . We
e ie he ial co ' deci ion o admi e idence, if
emi ed on a co ec ie of he la ... fo an ab e of
di c e ion. S a e . Sa c e , 283 Conn. 207, 218, 926 A.2d
633 (2007); ee al o S a e . D
a F., 145 Conn.A .
238, 246, 73 A.3d 915 (beca e [ ]he ial co
ha b oad
di c e ion in ling on he admi ibili ... of e idence ...
[ ]he ial co '
ling on e iden ia ma e
ill be
o e
ned onl
on a ho ing of a clea ab e of he
co ' di c e ion [in e nal o a ion ma k omi ed] ),
ce . denied, 310 Conn. 955, 81 A.3d 1181 (2013). In
de e mining he he he e ha been an ab e of
di c e ion, e e
ea onable **1080 e m ion ho ld
be gi en in fa o of he ial co '
ling on e iden ia
ma e . (In e nal o a ion ma k
omi ed.) S a e . Ga
e , 140 Conn.A . 69, 79 80, 57
A.3d 849, ce . denied, 308 Conn. 907, 61 A.3d 1097
(2013).
[W]hen an im o e e iden ia
ling i no
con i ional in na e, he defendan bea
he b den
of demon a ing ha he e o
a ha mf l. ... [W]he he
[ he im o e admi ion of a i ne ' e imon ] i
ha mle in a a ic la ca e de end
on a n mbe of

A100
fac o , ch a he im o ance of he i ne ' e imon
in he o ec ion' ca e, he he he e imon
a
c m la i e, he e ence o ab ence of e idence
co obo a ing o con adic ing he e imon of he
i ne on ma e ial oin , he e en of c o e amina ion o he i e e mi ed, and, of co
e, he
o e all
eng h of he o ec ion' ca e. ... Mo
im o an l , e m
e amine he im ac of he
[im o e l admi ed] e idence on he ie of fac and he
e l of he ial. ... [T]he o e
anda d fo
de e mining he he an e oneo e iden ia
ling i
ha mle
ho ld be he he he j
' e dic
a *877 b an iall
a ed b he e o . ...
Acco dingl , a noncon i ional e o i ha mle
hen
an a ella e co
ha a fai a
ance ha he e o did
no
b an iall affec he e dic . (In e nal o a ion
ma k omi ed.) S a e . Pa e,
a, 303 Conn. a 558
59, 34 A.3d 370.
We add e
claim in

each of he defendan ' h ee e iden ia
n.
A
The defendan fi
challenge he co ' admi ion of
e imon f om o i ne e abo
he he he o e ed
a g n on o occa ion o he han he nigh of he
hoo ing, a g ing ha
ch e idence of ncha ged
mi cond c a mo e ej dicial han oba i e. E en if
he co
im o e l admi ed hi e imon , hich e
do no concl de, ne e hele , i a ha mle .
In hi ega d, he defendan fi
challenge he co '
admi ion of a o ion of Oli han ' e imon d ing
hich he o ec o a ked if Oli han had old he olice
abo an inciden on Jan a 9, 2010, hen he
defendan allegedl ho omeone in he g oin a a ba

A101
figh . Ini iall , he a e o gh o admi hi e imon
fo
b an i e
o e , o o e ha he defendan
o e ed a g n nine da befo e he Diamond Co
obbe and h had he mean o commi he Diamond
Co
obbe . The defen e objec ed ha i a mo e
ej dicial han oba i e. The co
led ha he a e
co ld a k Oli han onl
he he he defendan had a g n
on Jan a 9 beca e g n o e ion hen a ele an o
an elemen of he fif h co n of he info ma ion, 18 and
[ ]ha i an e ce ion he e [ he e idence i ele an o]
an elemen of he c ime, *878 [and ha ] i one of he
ea on
h ncha ged mi cond c can be allo ed.
See Conn. Code E id. (2009) 4 5 (b) ( [e] idence of o he
c ime ,
ong o ac of a e on i admi ible ... o o e
... an elemen of he c ime ).
The a e, ho e e , o gh o a k abo
he de ail of he
Jan a 9, 2010 inciden a
ell, o he e en ha
Oli han had de c ibed hem in hi
a emen o he
olice b
e dia ed ha
a emen a
ial. The
o ec o made an offe of oof o ide he e ence of
he j
, d ing hich he e amined Oli han line b line
on hi olice a emen abo
he **1081 Jan a 9
inciden . Oli han ca ego icall denied ha he e e ga e
ch a a emen and added ha he had ne e een [ he
defendan ] i h a g n. Af e he offe , he defen e
ene ed i objec ion o he e imon . The co
led
ha i o ld allo he e ion onl fo
o e of
[ he] im eachmen and c edibili of M . Oli han , and,
hen he j
e ned o he co
oom, he co
in
c ed i acco dingl . The a e hen e amined
Oli han line b line on he a emen he had gi en o
olice abo
he defendan hoo ing ano he e on in he
g oin one eek befo e he Diamond Co
hoo ing.

A102
Oli han ca ego icall denied gi ing ch a a emen
he olice and added ha he had ne e een [ he
defendan ] i h a g n e e .

o

The econd iece of ncha ged mi cond c e idence ha
he defendan claim he co
im o e l admi ed i he
o ion of hi ncle Oma ' e imon in hich Oma aid
ha he a he defendan i h a g n on Ma 8, 2010.
Ini iall , he a e o gh o admi he e imon o o e
ha he defendan o e ed a g n fo mon h af e he
Diamond Co
hoo ing; he defen e objec ed ha
ch
e imon
a mo e ej dicial han oba i e; and he
co
led ha he e imon
a admi ible nde 4-5
(b) of he (2009) Connec ic Code of E idence a ele an
o an elemen *879 of he fif h co n of he
info ma ion.19 Af e an e en i e offe of oof b he
a e, he defen e al o objec ed ha he e imon
a no
ele an o he g n o e ion cha ge in co n fi e
beca e he Ma 8, 2010 g n a no he g n ha he
defendan allegedl o e ed on Jan a 18, 2010. The
a e a g ed ha he defendan ' o e ion of a diffe en
g n fo mon h la e a
ill ele an o he he he
defendan o e ed a g n on he nigh of he Diamond
Co
hoo ing. The co
led ha Oma ' e imon
ha he defendan o e ed a diffe en g n fo mon h
af e he Diamond Co
hoo ing a no ele an o
e abli h an elemen of he fif h co n of he info ma ion
b
a admi ible oge he i h he e imon abo g n
o e ion on Jan a 9, 2010, and Jan a 18, 2010, a
e idence of a
em of c iminal ac i i
of g n
o e ion engaged in b he defendan , offe ed o o e
he defendan ' in en o ob he ic im a Diamond
Co .20 See Conn. Code E id. (2009) 4 5
(b) ( [e] idence of o he c ime ,
ong o ac of a e on

A103
i admi ible ... o o e ... a
em of c iminal ac i i ).
Oma hen e ified ha he a he defendan i h a
handg n on Ma 8, 2010. In i j
cha ge, he co
in
c ed he j
ha he e imon abo g n
o e ion on Ma 8, 2010, a admi ed olel o ho
o e abli h a
em of c iminal ac i i being engaged in
b he defendan .
E en if he co
had im o e l admi ed bo h of he e
o ion of e imon , hich e do no concl de, e hold
ha he defendan ha ne e hele failed o ca
hi
b den of o ing ha he j
' e dic a
b an iall
a ed b i admi ion. See,
e.g.,
*880 S a e . Sa e e
, 287 Conn. 608, 637,
949 A.2d 1156 (2008) ( [e] en if e e e o a
me,
i ho deciding, ha he ial co
im o e l admi ed
he e idence ... e concl de ha he defendan failed o
mee hi b den of o iding ha
ch im o ie
a
ha mf l ), o e
led in a on o he g o nd
b S a e . DeJe , 288 Conn. 418, 437, 953 A.2d 45
(2008), and
e eded in a af e econ ide a ion
b **1082 S a e . Sa e e
, 291 Conn. 574, 579, 969
A.2d 710 (2009), o e
led in a on o he g o nd
b S a e . Pa e, 303 Conn. 538, 548, 34 A.3d 370 (2012).
The defendan ackno ledge ha hi claim i e iden ia ,
no con i ional, in na e. [W]hen an im o e
e iden ia
ling i no con i ional in na e, he
defendan bea
he b den of demon a ing ha he
e o a ha mf l. ... [W]he he [ he im o e admi ion
of a i ne ' e imon ] i ha mle in a a ic la ca e
de end
on a n mbe of fac o , ch a he im o ance
of he i ne ' e imon in he o ec ion' ca e,

A104
he he he e imon
a c m la i e, he e ence o
ab ence of e idence co obo a ing o con adic ing he
e imon of he i ne on ma e ial oin , he e en of
c o -e amina ion o he i e e mi ed, and, of co
e,
he o e all
eng h of he o ec ion' ca e. ... Mo
im o an l , e m
e amine he im ac of he
[im o e l admi ed] e idence on he ie of fac and he
e l of he ial. ... [T]he o e
anda d fo
de e mining he he an e oneo e iden ia
ling i
ha mle
ho ld be he he he j
' e dic a
b an iall
a ed b he e o . ... Acco dingl , a
noncon i ional e o i ha mle
hen an a ella e
co
ha a fai a
ance ha he e o did no
b an iall affec he e dic . (In e nal o a ion
ma k omi ed.) S a e . Pa e,
a, 303 Conn. a 558
59, 34 A.3d 370.
Fi , hi e imon
a no a ic la l im o an o
he o ec ion' ca e. Whe he he defendan had *881 a
g n on Jan a 9, 2010,21 o on Ma 8, 2010, a
ancilla
o he cen al i
e of he ca e, namel , he he
he defendan a ici a ed in he obbe and hoo ing of
he ic im on Jan a 18, 2010. The a e e en ed
am le e idence of he obbe , a di c
ed b e en l
in connec ion i h he
eng h of he o ec ion' ca e.
Second, e idence ha he defendan o e ed a g n
eek befo e o mon h af e he hoo ing a la gel
e fl o beca e he e a al o e idence ha he
o e ed a g n on he nigh of he hoo ing.
Thi d, a o co obo a ing o con adic o e idence,
m l i le i ne e ei he e ified o admi ed in

A105
a emen
o he olice, hich he a e e io l had
bmi ed in o e idence, ha he a he defendan
i h a g n on he nigh of he hoo ing o on o he nigh ,
hile e e al i ne e mo no abl B gg and Vance,
in di ec con adic ion o hei olice a emen
e ified ha he had ne e een he defendan i h a
g n. Nei he Oli han ' no Oma ' e imon
a ni e
o i o al in hi ega d.
*882 **1083 Fo h, he defendan a able ade a el
o c o -e amine bo h Oli han and Oma . Oli han
e ified fa o abl o he defen e d ing bo h di ec and
c o -e amina ion.
Fif
a
mo
e

h and finall , he o ec ion' ca e a
ong. The
e' ca e com i ed mo e han hi
i ne e and
e han 200 e hibi o e he co
e of fif een da of
imon .

The ic im' mo he e ified ha , f om he famil
a a men , he a
o eo le i h h i e imila o
he defendan and Vance bo h hoo a he ic im a
a
o ima el 9:40 .m. on Jan a 18, 2010. The
ic im' b o he e ified ha , f om he famil a a men ,
he a he defendan and a econd man bo h hoo a he
ic im a li le af e 9:30 .m. on Jan a 18, 2010.
The a e bmi ed he io
a emen and e imon
of he defendan '
o accom lice , B gg and Vance, bo h
of hom ini iall confe ed o he a med obbe in ho e
a emen and e imon . Al ho gh he ecan ed hei
confe ion once he ecei ed lea deal and e ified
fa o abl o he defen e a
ial, he a e im eached

A106
hem i h hone call eco ding in hich B gg eemingl
a ked a io
ela i e o hel him coo dina e hi
e imon
i h Vance, a ing a one oin ha Vance had
ag eed o ake he hole cha ge in e change fo ome
mone .
Oli han and hi hen gi lf iend, Sade S e en , bo h ga e
a emen
o olice ha he had hea d he defendan
and Vance confe
o obbing and hoo ing he ic im
hen he came o Oli han ' a a men on he nigh of
Jan a 18, 2010, al ho gh he , oo, a iall ecan ed
ho e a emen a ial and claimed in ead ha Vance
alone confe ed ha he obbed and ho he ic im.
The a e' c ime cene echnician and i balli ic
e e de e mined ha he fo b lle co e
eco e ed *883 f om he c ime cene l
he in ac b lle
eco e ed f om he ic im' bod
e e .38 cla b lle ,
fi ed f om a .38 S ecial e ol e , a .357 Magn m e ol e ,
o a nine millime e i ol. Beca e i ol ejec b lle
ca ing
hen fi ed, ho e e , he a e' balli ic e e
e ified ha he lack of ca ing fo nd a he c ime cene
a con i en i h he ho being fi ed f om a e ol e .
M l i le i ne e ei he e ified o ga e a emen
o
olice ha e e admi ed in o e idence o he effec ha
he defendan had a .38 e ol e and ha Vance had a
.357 e ol e , hich he had i h hem on he nigh of
he hoo ing.
Phone eco d ho ed ha , a a
o ima el he ime of
he hoo ing, he defendan ' cell hone eflec ed e e al
call f om he a ea of Diamond Co . Va io neighbo
a a fo doo hi e ca d i ing h o gh Diamond Co

A107
j
befo e he hoo ing and eeding o of Diamond
Co
j
af e he hoo ing. The defendan ' a n
e ified ha , on he nigh of he hoo ing, he had len
he defendan he en al ca a fo doo , hi e
H ndai and ha he e ned he ca o he en al
com an he ne da .
The defendan him elf e ified ha , on he nigh of he
hoo ing, he and Vance d e ed all in black and d o e o
Diamond Co
i h B gg in he defendan '
hi e en al
ca ; ha he a ked behind he a a men ; ha he
defendan and Vance e i ed he ca and alked fi
o a d he man in he SUV, hen o a d he ic im af e
he eali ed he man in he SUV had child en; ha
Vance fi ed ho in he ic im' di ec ion; ha B gg
lled
in he ca ; ha he defendan and Vance go in;
and ha B gg d o e off. The defendan claimed, ho e e ,
ha he ne e ag eed o
ied o ob an one; Vance had
go en in o an n ela ed al e ca ion i h he ic im, on
hi o n, and ho him fo ha ea on. The a e
in od ced in o e idence hone call eco ding in hich
he defendan **1084 e ea edl old hi *884 mo he o
con ince one of he o ec ion i ne e o in oke he
fif h amendmen igh if called o e if .
A a e l , e concl de ha he defendan ha failed o
ca
hi b den of o ing ha he j
' e dic a
b an iall
a ed b he admi ion of e idence ha he
had a g n one eek befo e o e e al mon h af e he
hoo ing.
B
A o B gg'
io incon i en
a emen , he defendan
challenge he co ' admi ion of he e imon of

A108
B gg' co in, Foo e, abo B gg' confe ion o him
d ing a ca ide e e al eek af e he hoo ing. We
concl de ha he co
o e l admi ed ha e imon
fo he limi ed
o e of im eaching B gg' c edibili .
The follo ing addi ional fac and oced al hi o a e
ele an o hi claim. Ini iall , he a e o gh o admi
he challenged e imon fo
b an i e
o e ,
a g ing ha , al ho gh i a hea a , i fell nde he
cocon i a o e ce ion o he ohibi ion on
hea a ,22 b
he a e la e conceded ha he
cocon i a o e ce ion did no a l . In ead, he a e
o gh o admi he e imon olel fo im eachmen
o e , a e in ic e idence of a io incon i en
a emen b B gg. The a e a g ed ha , nde he
Connec ic Code of E idence, i '
i hin he j dicial
di c e ion of he ial co
he he o admi he
im eaching a emen
he e no fo nda ion ha been
laid. See Conn. Code E id. 6 10 (c) ( [i]f a io
incon i en
a emen made b a i ne i no ...
di clo ed o he i ne a he ime he i ne
e ifie ,
and if he *885 i ne admi
o making he a emen ,
e in ic e idence of he a emen i inadmi ible, e ce
ed c e
f ec
[em ha i added] ). The
defen e objec ed o he e imon a hea a and a g ed
ha , if he a e i hed o e i a an incon i en
a emen , hen i ho ld ha e di clo ed i o B gg hen
he e ified.
Af e e ie ing he an c i of B gg' ea lie
ial
e imon , he co
no ed ha B gg ice had denied
confe ing o Foo e, once hen a ked di ec l if he e
came a oin in ime he e [he] old [Foo e] ha had
ha ened on Diamond Co
B gg e lied, [n]o and,

A109
econd, hen B gg a a ked if hi
a emen o olice
ha [ ]he onl one [he] old abo
hi [ a hi ] co in
Ma
i [e] Foo e a
e B gg e lied, [n]o. The
co
led ha Foo e co ld e if o B gg'
io
incon i en
a emen , b
ha
ch e imon
o ld be
admi ible onl fo he limi ed
o e of im eaching
B gg.
Acco dingl , befo e Foo e e ified o hi con e a ion
i h B gg, he co
in
c ed he j
a follo :
Ladie and gen lemen, I alked o o
hen e fi
began he ial abo e idence admi ed fo a limi ed
o e. An commen
ha M . B gg made o M . Foo e,
he can be ed b o onl fo
o e of e al a ing
he c edibili of M . B gg; o can'
e hem fo an
o he
o e. So, o he e en ha o find hem
[ ele an ] o can e hem, b onl in ofa a he
ela e o he c edibili of M . B gg; he a e no o be
ed b o ... he e a emen a e no o be ed b o
fo
b an i e
o e . So, hi i a limi [ed] in i ,
c edibili onl , no fo
b an i e
o e .
Foo e e ified ha h ee o fo
eek af e he hoo ing,
he and B gg e e d i ing **1085 a o nd moking o
hen B gg confided in him ha had ha ened
on *886 he nigh of he hoo ing. Foo e ecalled ha
B gg had aid ha he, Vance, and he defendan e e o
looking o ob omeone ha nigh . The a he ic im
and decided o ob him. The defendan and Vance go o
of he ca and
a g n in he ic im' face, hich he
hed a a . The ic im hen an a a and he
defendan and Vance ho him. The a e a ked if B gg
had e e old Foo e ha , on he nigh of he hoo ing, he,

A110
he defendan , and Vance e e he e o b ma ij ana, o
o e le a deb . Foo e e ified ha B gg had no old him
ch a o .
A he end of he ial, he co
again in
c ed he j
The e imon of Ma
i e Foo e a admi ed onl fo
im eachmen
o e a o Ra ha n B gg. An o he
e of ha e imon
o ld be im o e .

:

We begin b e ing fo h he a licable la . Sec ion 6 10
(a) of he Connec ic Code of E idence o ide : The
c edibili of a i ne ma be im eached b e idence of a
io incon i en
a emen made b he i ne . O
S
eme Co
ha held ha [i]m eachmen of a i ne
b he e of a io incon i en
a emen i
o e onl
if he o a emen a e in fac incon i en . ... Mo eo e ,
he incon i enc m
be b an ial and ela e o a
ma e ial ma e . (Ci a ion omi ed; em ha i
omi ed.) S a e . R c a d
, 214 Conn. 752, 763, 574
A.2d 182 (1990).
Sec ion 6 10 (c) of he Connec ic Code of
E idence o ide in ele an a
ha [i]f a io
incon i en
a emen made b a i ne i no ...
di clo ed o he i ne a he ime he i ne
e ifie , e
c e de ce of he a emen i
inadmi ible, e ce
ed c e
f ec
.
(Em ha i added.) Thi co
ha held ha [ ]e ha e no
infle ible le ega ding he nece i of calling he
a en ion of a i ne on c o -e amina ion o hi alleged
io incon i en
a emen befo e ei he
e ioning
him on he bjec *887 o in od cing e in ic e idence
ending o im each him. (In e nal o a ion ma k

A111
omi ed.) S a e . Ga
e ,
a, 140 Conn.A . a 79,
57 A.3d 849. Ra he , ial [c]o
ha e ide di c e ion
he he o admi
io incon i en
a emen
ha ha e
no a i fied he
ical fo nda ional e i emen in 6
10 (c) of he Connec ic Code of E idence .... (In e nal
o a ion ma k omi ed.) Id., 80.
He e, he defendan a g e ha he co
ab ed i
di c e ion in admi ing Foo e' e imon nde
6 10 (c)
of he Connec ic Code of E idence, a e in ic e idence
of a io incon i en
a emen b B gg. In ie of all
he ci c m ance , e concl de ha he co
ea onabl
decided (1) ha B gg' confe ion o Foo e a
b an iall incon i en i h bo h hi denial of ha ing
made ch a confe ion and i h hi e imon a
ial
abo d i ing o Diamond Co
onl o b ma ij ana
f om he eed man on he nigh of he hoo ing; and (2)
ha he i
e of he he he j
ho ld belie e B gg'
a emen o olice ha he defendan and Vance
commi ed he c ime cha ged, o B gg' e imon a
ial ha he me el a em ed o b ma ij ana, a
ma e ial o he defendan ' g il o innocence.
Acco dingl , he co
did no ab e i di c e ion in
admi ing he challenged e imon fo he limi ed
o e of im eaching B gg.23
*888 **1086 C
The defendan d e e hi hi d and final e iden ia
claim in con i ional ga b, a g ing ha he ial co
e ed in e mi ing lead de ec i e ... Sla in o e if
abo and commen on hea a info ma ion olice
ecei ed f om he a e'
i ne e , [ ha he admi ion of
hi e imon ] iola ed he defendan ' igh
o
conf on a ion and c o -e amina ion, [ ha he admi ion
of hi e imon ] in aded he o ince of he j
a o

A112
bo h i ne c edibili and c i ical di
ed fac , and
[ ha he admi ion of hi e imon ] a con a
o he
le of e idence. (In e nal o a ion ma k omi ed.)
The defendan a g e ha he co
e mi ed Sla in o
e if a a
e - i ne
ho fil e ed he e imon of
o he i ne e fo he j
. We concl de ha he co
o e l admi ed Sla in' e imon fo he limi ed
o e of e laining ho he olice in e iga ion
oceeded.
The follo ing addi ional fac and oced al hi o a e
ele an o hi claim. Nea he end of he a e' ca e-inchief, he a e ecalled Sla in a a i ne
o ha he
co ld e if abo ho he olice in e iga ion of he
Jan a 18, 2010 hoo ing oceeded. A a of hi
e imon , he a e lanned o a k Sla in abo
he
a emen
ha a io
i ne e had gi en o olice.
The defen e objec ed ha
ch e imon
o ld be bo h
im o e hea a and im o e commen a on he
e imon of o he i ne e . The co
led ha
ch
e imon
a admi ible, b onl
i h e ec o
indi id al ha ha e al ead e ified, and onl fo he
o e of [ ho ing] ho ha affec ed he [ olice]
in e iga ion ... [no ] fo an o he
o e. The co
added ha i o ld be gi ing he j
a limi ing
in
c ion and, acco dingl , in
c ed he j
a
follo :
Yo ' e al o going
he i ne e aid
ha e *889 al ead
ho e commen b
i ne
aid, a
d d a de e

o hea e imon abo
ha ome of
o he olice
i ne e ha
e ified he e in f on of o . Tha
Lie enan Sla in abo
ha a
e ded a
a
affec
a
f e c ed b
f a
e

A113
a
e
a
e a e e
e[
e ] a da d
e f ed. T e
e
e f
e
b
Le e a Sa
e
, c e ,
e
ce
e
a
ceeded. So, he e a e going o be ome
commen abo o he hing o ' e hea d he e f om
o he i ne e . T a '
be ed f a
e
e
a
e
ce eac ed
e e
e . So,
o ' e go
e alked abo com a men . Yo ' e go a
com a men fo he i ne and ha he i ne
e ified o. Then o ' e go a com a men , commen
ha Lie enan Sla in ma make abo
ha ho e
i ne e aid. A a ,
e
ec e
f e
ce
e
a
.
Yo ' e go o e a a e ha o he fac ha I'm going o
allo him o make commen on ha omebod el e
aid d e '
ea
a
a , a e, f
a
d ea
a e
a d ffe e
a I
c ed
ea a
e e
,
c
a e
e e b d
d d a a d ea
e b
e a e
a da d. (Em ha i added.) The co
cla ified, [and] if
I aid, ha he aid, I didn' mean in an [ a ] o
o an hing ha an bod aid. I'm j
ing
o **1087 a l he le a be I can. Yo ' e go o
de e mine he c edibili . Tha ' o job, no m job.
Sla in e ified a follo
abo
he in e iga ion and he
ole ha a io
i ne e ' olice a emen
la ed in i .
Ten da af e he hoo ing, he olice ecei ed a i . On
he ba i of ha i , he en e ed o nickname in o a
olice da aba e and came
i h he name of he
defendan and Oli han . He ea ched he J dicial B anch
eb i e fo ho e name and fo nd ha he defendan
ecei ed a icke a fe da befo e he hoo ing. F om he

A114
olice e o of ha inciden , he *890 ob ained he
defendan ' hone n mbe and a de c i ion of he ca he
d o e, hich ma ched he ca een on he nigh of he
hoo ing. He al o lea ned of a hi d indi id al, Vance,
ho a
i h he defendan hen he a icke ed.
One ea la e , on Jan a 5, 2011, Foo e a a e ed on
n ela ed cha ge and old olice ha he had info ma ion
abo
he Jan a 18, 2010 hoo ing. Foo e confi med
ha he defendan , Oli han , and Vance e e in ol ed
and added a fo h name B gg. Foo e old olice ha
ho e indi id al
ied o ob he ic im on he nigh of
he hoo ing, ha he ic im di e ec ed he a em ed
obbe , ha he ho him fo ha ea on, and ha
B gg a he ge a a d i e . Foo e did no gi e he olice
a
i en a emen a ha ime.
The olice ne in e ie ed Oli han and hi hen
gi lf iend, S e en , ho bo h ga e
i en a emen on
Feb a 2, 2011, den ing ha Oli han a in ol ed
and a e ing ha he defendan , Vance, and B gg e e
he c l i . On Feb a 10, 2011, he olice in e ie ed
B gg, ho ga e a
i en a emen confe ing ha he,
he defendan , and Vance, b no Oli han , a em ed
he obbe on he nigh of Jan a 18, 2010. B gg'
a emen ha he defendan and Vance ini iall lanned
o ob a man in an Ac a SUV, b changed lan
hen
he a he had o child en ca ed one of he de ec i e
o emembe a hone call he ecei ed ho l af e he
hoo ing f om a f iend ho a a Diamond Co
icking
hi child en on he nigh of he hoo ing. On Feb a
16, 2011, olice in e ie ed him and ook a i en
a emen . On Feb a 18, 2011, he olice in e ie ed
Vance' hen gi lf iend, Vondella Riddick, ho ga e a

A115
i en a emen . Finall , olice a eled o No h
Ca olina he e he in e ie ed Vance, ho ga e a
i en a emen on Feb a 22, 2011, confe ing ha
he, he defendan , and B gg a em ed o ob he ic im
and ended
hoo ing him.
*891 A ha oin , he olice a e ed he defendan ,
Vance, and B gg. P io o ial, he olice cond c ed
addi ional in e ie , incl ding a econd in e ie
i h
S e en and an in e ie
i h he defendan ' a n , bo h
of hom ga e i en a emen .
Af e he a e fini hed e ioning Sla in, he defen e
c o -e amined him. The defen e e io l had c o e amined each of he i ne e
ho e olice a emen
Sla in di c
ed in hi e imon .
The co ' final cha ge o he j
a he end of he ial
ei e a ed ha he j o
e e he ole j dge of he
fac , and ha he m
de e mine he c edibili of
olice e onnel in he ame a and b he ame
anda d a [ he ] o ld e al a e he e imon of an
o he i ne . The cha ge did no
ecificall efe ence
Sla in' e imon , b in
c ed he j
gene all ha ,
[ ]o
ill ecall ha I ha e led ha ome e imon
and e idence ha been allo ed fo a limi ed
o e. An
e imon o e idence hich I iden ified a being limi ed
oa
o e o
ill con ide onl a i ela e o he
limi fo hich i a allo ed, and o hall no con ide
ch e imon o e idence **1088 in finding an o he
fac a o an o he i
e.

A116
Al ho gh he defendan f ame hi objec ion o hi
e imon in con i ional e m , in oking he i h
amendmen ' conf on a ion cla e24 and he fai
ial
com onen of he fo een h amendmen ' d e oce
cla e,25 hi claim i in eali e iden ia in na e.
See *892 S a e . S
, 110 Conn.A . 70, 86, 954 A.2d
202 ( [ ]obing ga den a ie claim [of an e iden ia
na e] in he maje ic ga b of con i ional claim doe
no make ch claim con i ional in na e [in e nal
o a ion ma k omi ed] ), ce . denied, 289 Conn. 954,
961 A.2d 422 (2008).
A o he defendan ' conf on a ion cla e claim, he
Uni ed S a e S
eme Co
ha
a ed ha
hen he
decla an a ea fo c o -e amina ion a ial, he
Conf on a ion Cla e lace no con ain a all on he
e of hi
io e imonial a emen .
C a f d . Wa
, 541 U.S. 36, 60 n. 9, 124 S.C .
1354, 158 L.Ed.2d 177 (2004). He e, he co
allo [ed]
commen [onl ] i h e ec o indi id al ha ha[d]
al ead e ified a
ial, on a emen
ha ha[d]
al ead been e en ed o he j
.... The defendan had
an o o ni
o c o -e amine ho e i ne e abo
hei
a emen and o he conf on a ion cla e a no
im lica ed.26
*893 **1089 A o he defendan ' fai
ial claim,
beca e e concl de ha he co
o e l admi ed he
challenged e imon and o e l in
c ed he j
a
oi
e, he defendan ' igh o a fai
ial a no
im lica ed.

A117
P oceeding hen o he defendan ' e iden ia claim , he
defendan objec
o he e imon on o g o nd : (1) a
im o e commen a on he e imon of o he
i ne e , and (2) a im o e hea a . Nei he objec ion
ha me i .
Fi , he defendan a g e ha Sla in' e imon in
hi ca e ... laced an im o e glo on he e imon of
o he i ne e . (In e nal o a ion ma k omi ed.) O
S
eme Co
ha held ha i i im o e o a k a
i ne
o commen on ano he
i ne '
e aci . *894 S a e . S
, 259 Conn. 693, 706, 793
A.2d 226 (2002). [I] i ne e e mi ible ... o a k a
i ne
o cha ac e i e he e imon o
a emen of
ano he i ne .... (In e nal o a ion ma k omi ed.)
Id.; ee al o id. ( im o e o a k e ion de igned o
ca e one i ne
o cha ac e i e ano he ' e imon a
l ing ); id. (
e ion o defendan of he he ic im lied
in e imon im o e beca e i o gh info ma ion
be ond defendan ' com e ence ).
He e, ho e e , Sla in did no commen on he e imon
of o he i ne e . Al ho gh Sla in did e if abo
he
ame nde l ing fac a o he
i ne e , ch a he
a emen
ha a io
i ne e ga e o he olice, he
defendan ha ci ed o no le ha ba
o i ne e
f om e if ing abo
he ame nde l ing fac . No a e
e a a e of an .
Mo eo e , he defendan '
im o e l colo ed he j
i ne e ' e imon igno
ad
ed f
b a

a g men ha Sla in
' e ce ion of o he
e ha Sla in' e imon
a
e
c ed b
e . The

A118
co
admi ed Sla in' e imon fo he limi ed
o e
of e laining ho he olice in e iga ion oceeded,
in
c ed he j o
ha hi e imon
a no o be
ed fo an [o he ]
o e, and ecificall in
c ed
he j o
ha Sla in' e imon ho ld no in an
a
... affec o indi id al de e mina ion of he c edibili of
[o he ] i ne [e ] a he ... a he e on he [ i ne ]
and and e ified. See S a e . L.W., 122 Conn.A .
324, 335 n. 7, 999 A.2d 5 (co ' ca iona in
c ion
ele an o anal i of he he e idence o e l
admi ed), ce . denied, 298 Conn. 919, 4 A.3d 1230
(2010). We e me ha he j
follo ed he
in
c ion a gi en. S a e . Web e , 308 Conn. 43, 58
n. 11, 60 A.3d 259 (2013). [I] i
ell e abli hed ha ,
[i]n he ab ence of a ho ing ha he j
failed o
declined o follo he co ' in
c ion , e e me
ha i heeded hem. (In e nal o a ion *895 ma k
omi ed.) H e . Hea P
c a , P.C., 298 Conn. 371,
402, 3 A.3d 892 (2010). Acco dingl , e concl de ha
Sla in' e imon
a no im o e commen a on he
e imon of o he i ne e .
**1090 Second, he defendan a g e ha Sla in'
e imon abo
ha codefendan and o he
i ne e
old olice con i ed of fi
le el, do ble, i le and
ad
le hea a . On he con a , he co
did
admi Sla in' e imon fo i
h, b onl o
e lain ho he olice in e iga ion oceeded. An o of-co
a emen ffe ed
e e
f e a e
a e ed i hea a and i gene all inadmi ible nle
an e ce ion o he gene al le a lie . (Em ha i
added; in e nal o a ion ma k omi ed.)
S a e . R a , 99 Conn.A . 92, 108, 912 A.2d 1064,
ce . denied, 281 Conn. 925, 918 A.2d 276 (2007).

A119
E idence offe ed fo ano he
o e, ho e e , i
admi ible no a an e ce ion o he hea a
le, b
beca e i i no i hin he le. S a e . S a e, 195
Conn. 651, 661, 491 A.2d 345 (1985). Fo in ance, he
a e ma ... e en e idence o ho he in e iga i e
effo
made b he olice and he e ence of e en a
he nfolded, e en if ha e idence o ld be inadmi ible
if offe ed fo a diffe en ea on. S a e . V d , 71
Conn.A . 89, 95, 800 A.2d 661, ce . denied, 261 Conn.
935, 806 A.2d 1070 (2002). He e, he a e did e ac l
ha . Acco dingl , he challenged e imon
a no
im o e hea a .
The co
o e l admi ed Sla in' e imon fo he
limi ed
o e of e laining ho he olice in e iga ion
oceeded.
III
The defendan ' fif h and final claim i ha he co
im o e l enali ed him i h a longe en ence fo
elec ing o go o ial, a e ealed b he co ' ema k
a en encing.
*896 The follo ing addi ional fac and oced al
hi o a e ele an o hi claim. Befo e being en enced,
he defendan add e ed he co
o e lain ha
al ho gh I do acce
e on ibili fo m ac ion [in ofa
a ] ... I feel ha if I a li ing a be e life in 2010, I
o ldn' be i ing igh he e. [Ne e hele ] I did no
hoo [ he ic im]. I didn' do i . Wha I did a ee ha
ha ened and didn' a an hing, hen he olice
e ioned me ... [a]nd I g e
ha ' he ea on h I'm
i ing he e oda beca e ... I a he fi
e on he
e ioned in hi ca e, [and] if I [had] old he
h

A120
[abo ] ha ha ened [ hen] he o ec o
o ldn' be
o e he e a ing [I] de e e he ma im m, he o ld
ha e been offe ing me a deal like he a offe ing B gg o
lie ... [a ] m
obable ca e hea ing. And I o ld be f ee
in in ano he fi e ea , ma be. ... B
ince I didn' a
an hing hi i
ha I ha e o hi i
ha I ha e o li e
i h. ... Once again, I'm o , fo 'all lo , b
he fac
... of he ma e , Yo Hono , [a e ha ] on he e fi e
co n ... I'm innocen .
Af e b iefl add e ing he ic im' famil , he co
add e ed he defendan : An hon Coll mo e, o
ac ion on he nigh of Jan a 18 h, 2010, e e
com le el andom, o all en ele and j
icio in
na e. Yo ha e ed [ he ic im' ] famil , lef hem i h
a lo
ha ill linge i h hem fo e e . Yo ac ion
clea l demon a e o al indiffe ence o he la
of o
ocie and a com le e di ega d fo o he .
F
e
e,
a e
acce f
e
b
f
ac
. I canno ge in ide o
mind o de e mine o mo i e ha nigh o commi
ch a en ele ac . Yo ho ld ha e kno n ha he
deci ion ha o ook ha nigh e e going o lead o a
agic end, and he did. (Em ha i added.) The co
concl ded b no ing he defendan ' leng h , iolen
c iminal eco d.
*897 **1091 A he o e , e no e ha hi
n e e ed claim b he defendan i e ie able nde
he fi
o ong of S a e . G d , [213 Conn. 233,
239, 567 A.2d 823 (1989)] beca e: (1) he eco d i
ade a e fo e ie a he ial co ' ema k d ing

A121
en encing a e e fo h in he an c i
in hei
en i e ; and (2) he claim i of con i ional magni de,
a demon a ed b he defendan ' di c
ion of ele an
a ho i in hi main b ief. (Foo no e
omi ed.) S a e . E
, 311 Conn. 726, 756, 91 A.3d 862
(2014). We h
n o he hi d ong of G d , o
de e mine he he
he alleged con i ional iola ion ...
e i
and ... de i ed he [defendan ] of a fai
ial.
(In e nal o a ion ma k omi ed.) I e Ya e R., 317
Conn. 773, 781, 120 A.3d 1188 (2015).
A o he he a con i ional iola ion e i , i i
clea l im o e o inc ea e a defendan ' en ence
ba ed on [hi o he ] deci ion o and on [hi o he ]
igh o
he [g]o e nmen o i
oof a he han
lead g il .... (Em ha i omi ed; in e nal o a ion
ma k omi ed.) S a e . E
,
a, 311 Conn. a 758,
91 A.3d 862. Ne e hele , a defendan '
gene al lack of
emo e ; id., 761 62, 91 A.3d 862; and
ef al o
acce
e on ibili
; id.; fo c ime of hich he a
con ic ed a e legi ima e en encing con ide a ion '
.... Id., 761. [R]e ie of claim ha a ial co
leng hened a defendan ' en ence a a ni hmen fo
e e ci ing hi o he con i ional igh o a j
ial
ho ld be ba ed on he o ali of he ci c m ance . ...
[T]he b den of oof in ch ca e e
i h he
defendan . (In e nal o a ion ma k omi ed.) Id., 759.
He e, he defendan a g e ha he co ' commen a
en encing ha he a
ill n illing o acce f ll
e on ibili fo [hi ] ac ion
o e ha he co
im o e l leng hened hi en ence a
ni hmen fo
elec ing o go o ial. We di ag ee. In con e , ha
lang age a a commen on he defendan '

A122
ema k *898 a en encing, in hich he defendan
con in ed o blame hi
edicamen in la ge a on hi
ali of life and on he o ec o , a he han acce
f ll e on ibili fo hi o n ac ion . In con e , he
co ' ema k a
o e commen a on he defendan '
gene al lack of emo e ; S a e . E
,
a, 311
Conn. a 761 62, 91 A.3d 862; and
ef al o acce
e on ibili .... 27 Id.; ee al o **1092 S a e . We ,
167 Conn.A . 406, 419, 142 A.3d 1250 (2016) ( ejec ing
imila claim).
The j dgmen i affi med.
In hi o inion he o he j dge conc

ed.

F
The li ing of j dge eflec
he da e of o al a g men .

hei

enio i

a

on hi co

a of

1
The defendan a al o fo nd g il of a econd co n of a em ed
obbe in he fi
deg ee in iola ion of
53a 49 (a) (2) and 53a
134 (a) (4), b
he co
aca ed ha finding a en encing,
an
o S a e . P a c , 308 Conn. 242, 245, 61 A.3d 1084 (2013).
2
The a e' balli ic e
f om a nine millime e
Magn m e ol e .

e no ed ha a .38 cla b lle co ld be fi ed
i ol, a .38 S ecial e ol e , o a .357

3
See S a e . W e a , 200 Conn. 743, 753, 513 A.2d 86 ( [ ]e,
he efo e, ado
oda a le allo ing he b an i e e of io
i en incon i en
a emen , igned b he decla an , ho ha
e onal kno ledge of he fac
a ed, hen he decla an e ifie a

A123
ial and i
bjec o c o e amina ion ), ce . denied, 479 U.S. 994,
107 S.C . 597, 93 L.Ed.2d 598 (1986).
4
The m l i le, o e la ing na e of he e i ne e ' e imon
e i e a mo e de ailed e en a ion of he fac
han i o dina il
nece a .
5
The follo ing collo
of Oli han :

occ

ed d

ing defen e co n el'

e ioning

[Defen e Co n el]: No , o e ified a he ial ha o fel g il ,
ha
o fel g il abo Vance Wil on. Can o e lain ha ?
[The Wi ne ]: I lead he fif h. ...
[Defen e Co n el]: Yo indica ed d ing o
o fel g il . Wha a ha efe ence?

di ec

[Oli han ' Co n el]: He ook he fif h amendmen

e imon
o ha

ha
e ion.

6
The i h amendmen igh
o com l o
oce and o e en a
defen e a e made a licable o he a e h o gh he fo een h
amendmen ' d e oce cla e. S a e . A d e , 313 Conn. 266,
272 n. 3, 96 A.3d 1199 (2014).
7
Al ho gh he defendan a g e in hi b ief ha he a e' cond c
iola ed bo h he fede al and a e con i ion , he ha
o ided no
inde enden anal i nde he a e con i ion, a e i ed
b S a e . Ge e , 222 Conn. 672, 684 86, 610 A.2d 1225 (1992), and
o e limi o
e ie o he fede al con i ional claim.
See S a e . A e , 289 Conn. 550, 580 n. 19, 958 A.2d 1214 (2008).
8
A ial, he a e ne e
ecified b
ha a ho i i imm ni ed he
h ee i ne e . The a e a e
on a eal, ho e e , ha i elied
on 54 47a fo B gg and Oli han . A o Vance, he a e a g e
ha he eco d of hi imm ni i inade a e o e ie , b a g e in
he al e na i e ha i g an of imm ni
o Vance a
o e , ci ing
a 54 47a ca e, S a e . G a d, 258 Conn. 631, 635 n. 3, 638, 783
A.2d 1019 (2001). A no oin befo e he ial co
o hi co
ha
he a e a e ed an o he o ce fo i a ho i
o imm ni e

A124
i ne e . Acco dingl , e confine o
e ie o 54 47a.
See F
.S e
C
, 298 Conn. 404, 411 13, 3 A.3d 912
(2010) (declining o e ie claim ha
a e ha inhe en a ho i
o imm ni e i ne e , beca e i a no ai ed befo e ial co ).
9
He e, he a e oceeded in he o o i e o de , fi
elling he co
ha i a g an ing he i ne e imm ni and hen ha ing he
co
in
c he i ne e ha he co ld no longe ef e o e if
on he ba i of hei fif h amendmen igh again
elf-inc imina ion.
10
Beca e a g an of imm ni
an o 54 47a nece a il
incl de
an ac ional imm ni , all h ee i ne e ecei ed ch
imm ni
hen he a e imm ni ed hem d ing i ca e-in-chief.
See F
.S e
C
, 298 Conn. 404, 411, 3 A.3d 912
(2010) ( he Gene al A embl in ended o o ide bo h an ac ional
and de i a i e e imm ni
o i ne e com elled nde he
a e o e if ). Sec ion 54 47a al o confe
e and de i a i e e
imm ni , meaning ha , in addi ion, he a e canno
e e imon
com elled nde
54-47a o e idence fo nd a a e l of ha
e imon
o o ec e he i ne fo ano he offen e abo
hich
he i ne did no e if . See id.; b
ee C
.S e
C
,
163 Conn.A . 483, 490 n. 5, 136 A.3d 272 (2016) ( ea ing e and
de i a i e e imm ni a
holl con ained b e of an ac ional
imm ni ).
11
Fo i
a , he ial co
ne e e lici l
a ed he he i ie ed
he i
e a one of e oking e i ing imm ni o g an ing addi ional
imm ni , b i commen
gge
ha i ook he la e ie .
12
A o al a g men befo e hi co , he defendan did a g e ha
ial
co n el a ba ed d ing c o -e amina ion in he a e' ca e-inchief f om a king ce ain e ion , a he
e e be ond he co e of
he a e' di ec e amina ion, hen ba ed f om a king ho e ame
e ion d ing he defen e ca e-in-chief beca e he i ne e
a e ed hei fif h amendmen igh , and ha hi
fficed o ho
ha he defen e a denied e en ial e imon . We di ag ee, fo
o
ea on .

A125
Fi , a a legal ma e i i no o en iall e c l a o
e ion b
ac all e c l a o an e
ha he defendan m
ho o
ain hi b den nde he effec i e defen e heo . See U ed
Sae .T
Ca a G
, I c., 237 Fed.A
. 625, 629 30 (2d
Ci .2007) ( e ion alone no
fficien ); ee al o U ed
S a e . MacC
e ,
a, 682 F.2d 475 77, 479 ( e e ing
con ic ion he e i ne
ad e io l an e ed e ion d ing
oi di e o ide j
'
e ence and an e
e e de ailed and
e c l a o ). He e, e canno
ec la e a o ha he an e
o he
defendan '
e ion migh ha e been. See Ne
Ha f d . C
ec c Re
ce Rec e A
, 291 Conn. 502,
510, 970 A.2d 578 (2009) ( ec la ion and conjec e ... ha e no lace
in a ella e e ie [in e nal o a ion ma k omi ed] ).
Second, a a fac al ma e , e en if e co ld ec la e a o he
an e
o he e ion ha e e a ked, e o ld concl de ha
ch e imon
a c m la i e o o he i e ob ainable beca e,
he e, he i ne e did an e he a majo i of e ion a ome
oin d ing he ial, and he onl
e ion ha emained
nan e ed e e highl angen ial o he ac al i
e a hand. See
a I B 2 of hi o inion.
13
We no e ha he a e, in i b ief, did no add e
he defendan '
a g men ha he co
im o e l
ained he e i ne e '
in oca ion of hei fif h amendmen igh .
14
A o he h ee ne
e ion , he co ' fail e o com el B gg,
Vance, and Oli han o e if did no iola e he defendan '
con i ional igh beca e he i ne e a e ed a alid fif h
amendmen igh . See S a e . S
, 170 Conn. 206, 209 10, 365
A.2d 821 (in conflic be een i ne ' fif h amendmen igh again
elf-inc imina ion and defendan ' igh o com l o
oce , fif h
amendmen igh
e ail ), ce . denied, 425 U.S. 954, 96 S.C . 1732,
48 L.Ed.2d 199 (1976).
15
The defendan al o claim , a a oced al ma e , ha he co
e ed b no indi id all a e ing he he each e ion im lica ed
he i ne ' fif h amendmen igh o emain ilen , and in ead
e mi ing a blanke a e ion of ha igh . We do no add e
hi

A126
claim beca e e concl de ha , e en if he oced e a im
he e e ion did no im lica e he fif h amendmen .

o e ,

16
A o he e e ion , he co ' fail e o com el B gg, Vance, and
Oli han o e if did no iola e he defendan ' con i ional
igh beca e he ame e imon al ead had been e en ed
d ing he a e' ca e-in-chief, and he defendan ha iden ified no
com elling ac ical ea on h ha e imon needed o be e ea ed
in he defen e ca e-in-chief. See S a e . We , 274 Conn. 605, 624 25,
877 A.2d 787 ( [ ]he fede al con i ion e i e[ ] ha c iminal
defendan be affo ded a meaningf l o o ni
o e en a
com le e defen e ... [ hich i ] in lain e m he igh o ... e en
he defendan ' e ion of he fac a
ell a he o ec ion' o he
j
o ha i ma decide he e he
h lie [in e nal o a ion
ma k omi ed] ), ce . denied, 546 U.S. 1049, 126 S.C . 775, 163
L.Ed.2d 601 (2005).
17
The defendan a g e ha hi e o
a
c al and h no
bjec o ha mle ne anal i . We di ag ee. [W]e fo go ha mle
e o anal i onl in a e in ance in ol ing a
c al defec
of c
a
a
de.... S c al defec ca e def anal i b
ha mle e o
anda d beca e e e
ec d c f e a,f
be
e d,
b
affec ed .... (Em ha i al e ed; in e nal
o a ion ma k omi ed.) S a e . A
, 314 Conn. 131, 150, 101
A.3d 915 (2014). [S] c al defec ca e con ain a defec affec ing
he f ame o k i hin hich he ial oceed , a he han im l an
e o in he ial oce i elf. ... S ch e o infec he en i e ial
oce ... and nece a il ende a ial f ndamen all nfai ....
E am le of ch
c al e o incl de, among o he , acial
di c imina ion in he elec ion of a g and j
o ei j
and he
denial of a defendan ' igh o co n el, igh o a blic ial, o igh
o elf- e e en a ion. (Ci a ion omi ed; in e nal o a ion ma k
omi ed.) Id., 151. He e, he co ' a io e de a
im o e l e cl ding e imon ha he j
had al ead
hea d nei he
e e an e o of c
a magni de no
infec [ed] he en i e ial oce ... nece a il ende [ing] [ he] ial
f ndamen all nfai .... (In e nal o a ion ma k omi ed.) Id.
18

A127
The fif h co n of he info ma ion, hich cha ged he defendan i h
c iminal o e ion of a fi ea m in iola ion of 53a 217 (a) (1),
alleged ha on o abo Jan a 18, 2010, a a
o ima el 9:42
.m., a o nea [Diamond Co , he defendan ] o e ed a fi ea m
and had been con ic ed of a felon .
19
See foo no e 18 of hi o inion.
20
The defendan a cha ged i h o co n of a em ed obbe in
he fi
deg ee in iola ion of
53a 49 and 53a 134, one co n of
con i ac o commi obbe in he fi
deg ee in iola ion of
53a 48 and 53a 134, and one co n of felon m de i h a edica e
felon of obbe .
21
The co
in
c ed he j
ha i co ld e he e imon abo
Jan a 9, 2010, onl o a e Oli han ' c edibili , no fo
b an i e
o e . The defendan a g e ha he j
o ld ha e
igno ed hi clea in
c ion and in ead ed he e idence
b an i el . [I] i
ell e abli hed ha , [i]n he ab ence of a
ho ing ha he j
failed o declined o follo he co '
in
c ion , e e me ha i heeded hem. (In e nal o a ion
ma k omi ed.) H e . Hea P
c a , P.C., 298 Conn. 371, 402,
3 A.3d 892 (2010). Ne e hele , in de e mining he he e idence i
mo e ej dicial han oba i e, a co
m
a e
he i k ha a
j
ill igno e ch in
c ion and e e idence fo an im o e
o e. See S a e . B
e, 31 Conn.A . 120, 124 25, 129 32, 623
A.2d 532 (1993) ( e e ing con ic ion he e e idence a
ch ha
j
likel
ed i fo im o e
o e, de i e co ' clea
in
c ion), a eal di mi ed, 229 Conn. 839, 643 A.2d 1281 (1994).
Beca e he defendan he e doe no challenge he admi ion of he
Jan a 9 g n o e ion e imon o he e en ha he j
o e l
ed i o a e Oli han ' c edibili , in o anal i of
ha mle ne
e con ide he i k ha he j
im o e l
ed ha
e imon fo
b an i e
o e .
22
See Conn. Code E id. 8 3 ( [ ]he follo ing a e no e cl ded b he
hea a
le ... [1] ... [a] a emen ha i being offe ed again a

A128
a
con

and i ... [D] a a emen b a cocon i a o of a a
hile he
i ac i ongoing and in f he ance of he con i ac ).

23
The defendan al o a g e ha Foo e' e imon
a im o e
hea a . We di ag ee. An o -of-co
a emen ffe ed
e e
f e a e a e ed i hea a and i gene all inadmi ible
nle an e ce ion o he gene al le a lie . (Em ha i added;
in e nal o a ion ma k omi ed.) S a e . R a , 99 Conn.A . 92,
108, 912 A.2d 1064, ce . denied, 281 Conn. 925, 918 A.2d 276 (2007).
E idence offe ed fo ano he
o e, ho e e , i admi ible no a
an e ce ion o he hea a
le, b beca e i i no i hin he
le. S a e . S a e, 195 Conn. 651, 661, 491 A.2d 345 (1985). He e,
he co
ice in
c ed he j
ha he e idence a admi ed
olel fo im eachmen . I i a f ndamen al inci le ha j o a e
e med o follo he in
c ion gi en b he j dge. (In e nal
o a ion ma k omi ed.) S a e . W a , 258 Conn. 1, 15 n. 14,
778 A.2d 186 (2001).
24
The i h amendmen o he Uni ed S a e con i ion o ide in
ele an a : In all c iminal o ec ion , he acc ed hall enjo
he igh ... o be conf on ed i h he i ne e again him ....
The i h amendmen igh o conf on a ion i made a licable o he
a e h o gh he d e oce cla e of he fo een h amendmen .
See, e.g., P
e . Te a , 380 U.S. 400, 403, 85 S.C . 1065, 13
L.Ed.2d 923 (1965).
25
The defendan a g e ha hi e imon iola ed hi
igh o ha e
hi j
de e mine i
e of c edibili and fac and ha hi
a e[ ] [a claim] of con i ional magni de. Al ho gh he doe no
ecif nde
ha
o i ion of he con i ion he a e
hi igh ,
e ga he f om he ca e he ci e ha i i e en iall a fai
ial
claim nde he d e oce cla e of he fo een h amendmen o
he Uni ed S a e con i ion, hich o ide in ele an a : no
hall an S a e de i e an e on of life, libe
o
o e , i ho
d e oce of la ....
26
Al ho gh Sla in did e if , in one in ance, o he o -of-co
a emen of a non i ne , e concl de ha he defendan ai ed

A129
an challenge o ha e imon . A
ial, he a e a ked Sla in ho
he olice fi
lea ned ho a in ol ed in he hoo ing. Sla in
began o a ha he had ecei ed a i b defen e co n el
in e
ed, objec ing a o ha he i migh ha e been on he
g o nd ha i a hea a . The a e claimed i fo i effec on he
li ene , he co
o e
led he objec ion, and Sla in e ified ha
he olice ecei ed a i f om a o ng lad
ho o e hea d ome
eo le alking on a b
ha a a
named Re and S ack o ...
D ead
e e ... he one e on ible fo killing [ he ic im]. The
co
hen e c ed he j
and held a ideba , a hich defen e
co n el a ked he co
o
ike he e imon abo
he i
info ma ion b e
e l ag eed ha he a e co ld a k he
e ion, o hea d ome hing, o go a i , and hen a a e l of
ha i , ha did o do. I doe n' ha e o ha e ha he i i . The
co
ado ed ha o i ion, ling ha Sla in co ld e if ha he
a ho i ie [go ] a i and ac [ed] on ha b co ld no e if ha
he i aid (a), (b), o (c). When he co
ei e a ed ha he a e
co ld a k abo
[ ]he fac ... [ ha olice] go a i , he a e a ked,
[b]
ha '
he e he objec ion o ld l[ie] fo [defen e co n el], and
he co
e lied: Tha ' no ha I hea d. Wha I hea d a , he
i
e a
i h e ec o he c e of he con e a ion f om
omeone o ide of he a ho i ie . Am I co ec in ha ? (Em ha i
added.) Defen e co n el e lied, Ye . The co
hen b o gh he
j
back in o he co
oom, in
c ing he j o
ha i a
iking he e imon he had hea d abo
he i and ha
al ho gh Sla in o ld be e if ing abo
ha o he had aid, ch
e imon
a no o be ed fo an
o e o he han ho he
olice eac ed o ho e e on e ... o gi e [j o ] he con e of he
olice in e iga ion. The a e hen elici ed he follo ing e imon
f om Sla in:
Q. Oka . And no
o indica ed ha a
came in o he Wa e b
olice?

ome oin in ime a i

A. Ye .
Q. And
A. I

hen

a

ha ?

a on, I belie e, Jan a

Q. Oka . And ba ed on ha

28 h, 2010.
i ,

ha did o do?

A. Ba ed on ha i , he he name ha I had o o k i h, he
nickname
e ha e a da aba e of nickname ,
ee name , ha
e' e been com iling
a ic la l ano he e gean and I ince

A130
fo almo
en ea no . We had ho e nickname in hi li , and
he nickname came o
o be S ack , hich o ld be [ he
defendan ], and Re o D ead , hich
ned o , e belie ed, o be
M . Oli han Jaba i Oli han .
Defen e co n el did no objec o hi e imon . Again
hi
backg o nd, [ ]e deem hi claim ai ed, and, he efo e, e decline
o e ie i . S a e . P
, 160 Conn.A . 358, 369, 125 A.3d 280,
ce . denied, 320 Conn. 903, 127 A.3d 186 (2015).
27
On e e al of hi claim , he defendan al o a k hi co
o in oke
i
e i o
o e
o e e e he j dgmen of he ial co
and
emand he ca e fo a ne
ial. We decline o do o. The e e ci e of
o
e i o
o e i an e ao dina
emed o be in oked onl
hen ci c m ance a e ch ha he i
e a hand, hile no i ing
o he le el of a con i ional iola ion, i none hele of mo
e io ne , no onl fo he in eg i of a a ic la
ial b al o fo
he e cei ed fai ne of he j dicial
em a a hole. (Em ha i
omi ed; in e nal o a ion ma k omi ed.) S a e .L c a , 298
Conn. 537, 576, 4 A.3d 1176 (2010). Thi i no
ch a ca e.
Finall , he defendan a k hi co
o e ie he ealed e hibi
[ bmi ed o he co
a
ial, con aining he e onnel file of
e e al de ec i e
ho e ified] and [ o] g an a
o ia e elief.
(Ci a ion omi ed.) The a e doe no di
e he o ie of ch
e ie , b a g e ha
nle
he ealed e hibi con ain
info ma ion ... o com elling ha i co ld ha e im ac ed he o come
a
ial, he co
did no ab e i di c e ion in den ing he
defendan ' e e fo ho e file . A
ial, he co
ag eed o e ie
he file o de e mine he he an info ma ion in hem ho ld be
di clo ed o he defendan . I a ea
ha no ch info ma ion a
di clo ed. We ha e e ie ed he ealed file o
el e and concl de
ha he co
did no ab e i di c e ion in den ing he defendan '
e e .

APPENDIX D

A131
SUPREME COURT
STATE OF CONNECTICUT
SC 19868
STATE OF CONNECTICUT
.
ANTHONY COLLYMORE
MARCH 4, 2020
ORDER
THE MOTION FOR THE DEFENDANT-APPELLANT,
FILED FEBRUARY 20, 2020, FOR RECONSIDERATION
AND/OR REARGUMENT, HAVING BEEN PRESENTED
TO THE COURT IT IS HEREBY ORDERED THAT
RECONSIDERATION IS GRANTED, BUT THE RELIEF
REQUESTED THEREIN IS DENIED.
MULLINS, J., DID NOT PARTICIPATE IN THE
CONSIDERATION OF OR DECISION ON THIS
MOTION.
BY THE COURT,
_________/ /_________________
SUSAN REEVE
DEPUTY CHIEF CLERK
NOTICE SENT: MARCH 4, 2020
COUNSEL OF RECORD
HON. WILLIAM T. CREMINS
CLERK, SUPERIOR COURT, UWY CR11 0397596 T
190240

APPENDIX E

A132
UNITED STATES CONSTITUTIONAL PROVISIONS
U.S. C n . Amend. 5. C iminal ac i n --P i i n
c nce ning--D e
ce
f la and j
c m en a i n
cla e .
N

e n hall be held an e f a ca i al,
he i e infam
c ime, nle
n a e en men
indic men f a G and J
, e ce in ca e a i ing in he
land na al f ce ,
in he Mili ia, hen in ac al
e ice in ime f Wa
blic dange ; n
hall an
e n be bjec f
he ame ffence be ice
in
je a d f life limb; n
hall be c m elled in an
c iminal ca e be a i ne again him elf, n be
de i ed f life, libe ,
e , ih
d e
ce
f la ; n
hall i a e
e
be aken f
blic e,
ih
j
c m en a i n.
U.S. C n . Amend. 6. Righ

f he acc

ed.

In all c iminal
ec i n , he acc ed hall enj
he
igh
a eed and blic ial, b an im a ial j
f
he S a e and di ic he ein he c ime hall ha e been
c mmi ed, hich di ic hall ha e been e i
l
a ce ained b la , and be inf med f he na e and
ca e f he acc a i n; be c nf n ed i h he
i ne e again him; ha e c m l
ce f
b aining i ne e in hi fa , and ha e he
A i ance f C n el f hi defence.

A133
U.S. C n . Amend. 14. Sec. 1. [Ci i en
S a e .]

f he Uni ed

All e n b n na ali ed in he Uni ed S a e , and
bjec
he j i dic i n he e f, a e ci i en f he
Uni ed S a e and f he S a e he ein he e ide. N
S a e hall make enf ce an la
hich hall ab idge
he i ilege
imm ni ie f ci i en f he Uni ed
S a e ;n
hall an S a e de i e an e n f life,
libe ,
e , i h
d e
ce
f la ; n den
an e n i hin i j i dic i n he e al
ec i n
f he la .
STATUTORY PROVISIONS
18 U.S. C

6602

6002. I

a

Whene er a i ne ref e , on he ba i of hi pri ilege
again
elf-incrimina ion, o e if or pro ide o her
informa ion in a proceeding before or ancillar o-(1) a co r or grand j r of he Uni ed S a e ,
(2) an agenc of he Uni ed S a e , or
(3) ei her Ho e of Congre , a join commi ee of he o
Ho e , or a commi ee or a bcommi ee of ei her
Ho e, and he per on pre iding o er he proceeding
comm nica e o he i ne an order i
ed nder hi
i le, he i ne ma no ref e o compl
i h he order
on he ba i of hi pri ilege again
elf-incrimina ion; b
no e imon or o her informa ion compelled nder he
order (or an informa ion direc l or indirec l deri ed
from ch e imon or o her informa ion) ma be ed
again
he i ne in an criminal ca e, e cep a

A134
pro ec ion for perj r , gi ing a fal e a emen , or
o her i e failing o compl
i h he order.

18 U.S. C
c

6003. C

a

a

(a) In he ca e of an indi id al ho ha been or ma be
called o e if or pro ide o her informa ion a an
proceeding before or ancillar o a co r of he Uni ed
S a e or a grand j r of he Uni ed S a e , he Uni ed
S a e di ric co r for he j dicial di ric in hich he
proceeding i or ma be held hall i
e, in accordance
i h b ec ion (b) of hi ec ion, pon he req e of he
Uni ed S a e a orne for ch di ric , an order
req iring ch indi id al o gi e e imon or pro ide
o her informa ion hich he ref e o gi e or pro ide on
he ba i of hi pri ilege again
elf-incrimina ion, ch
order o become effec i e a pro ided in ec ion 6002 of
hi i le.
(b) A Uni ed S a e a orne ma , i h he appro al of
he A orne General, he Dep
A orne General, he
A ocia e A orne General, or an de igna ed A i an
A orne General or Dep
A i an A orne General,
req e an order nder b ec ion (a) of hi ec ion hen
in hi j dgmen -(1) he e imon or o her informa ion from ch
indi id al ma be nece ar o he p blic in ere ; and
(2) ch indi id al ha ref ed or i likel o ref e o
e if or pro ide o her informa ion on he ba i of hi
pri ilege again
elf-incrimina ion.

A135
C

c c

G

a S a
.I

54-47a. C
c

(a) Whene er in he j dgmen of he Chief S a e'
A orne , a a e' a orne or he dep
chief a e'
a orne , he e imon of an
i ne or he prod c ion
of book , paper or o her e idence of an
i ne (1) in
an criminal proceeding in ol ing narco ic , ar on,
briber , gambling, elec ion la
iola ion , felonio
crime of iolence, an iola ion hich i an offen e nder
he pro i ion of i le 22a, corr p ion in he e ec i e,
legi la i e or j dicial branch of a e go ernmen or in he
go ernmen of an poli ical bdi i ion of he a e, fra d
b a endor of good or er ice in he medical a i ance
program nder Ti le XIX of he Social Sec ri Ac
amendmen of 1965, a amended,1 an iola ion of
chap er 949c,2 or an o her cla A, B or C felon or
ncla ified felon p ni hable b a erm of impri onmen
in e ce of fi e ear for hich he Chief S a e' A orne
or a e' a orne demon ra e ha he ha no o her
mean of ob aining fficien informa ion a o he her a
crime ha been commi ed or he iden i of he per on or
per on
ho ma ha e commi ed a crime, before a co r
or grand j r of hi
a e or (2) in an in e iga ion
cond c ed b an in e iga or grand j r a pro ided
in ec ion 54-47b o 54-47g, incl i e, i nece ar o he
p blic in ere , he Chief S a e' A orne , he a e'
a orne , or he dep
chief a e' a orne , ma , i h
no ice o he i ne , af er he i ne ha claimed hi
pri ilege again
elf-incrimina ion, make applica ion o
he co r for an order direc ing he i ne
o e if or
prod ce e idence bjec o he pro i ion of hi ec ion.
(b) Upon he i
ance of he order ch i ne
hall no
be e c ed from e if ing or from prod cing book ,
paper or o her e idence in ch ca e or proceeding on he

A136
gro nd ha he e imon or e idence req ired of him
ma end o incrimina e him or bjec him o a penal
or forfei re. No ch i ne ma be pro ec ed or
bjec ed o an penal or forfei re for or on acco n of
an ran ac ion, ma er or hing concerning hich he i
compelled o e if or prod ce e idence, and no e imon
or e idence o compelled, and no e idence di co ered a a
re l of or o her i e deri ed from e imon or e idence
o compelled, ma be ed a e idence again him in an
proceeding, e cep ha no i ne
hall be imm ne from
pro ec ion for perj r or con emp commi ed hile
gi ing ch e imon or prod cing ch e idence.
Whene er e idence i objec ed o a inadmi ible beca e
i a di co ered a a re l of or o her i e deri ed from
compelled e imon or e idence, he b rden hall be
pon he per on offering he challenged e idence o
e abli h a o rce independen of he compelled e imon
or e idence.

APPENDIX F

A137
NO: UWY CR11-0397596-T : SUPERIOR COURT
STATE OF CONNECTICUT : JUDICIAL DISTRICT
OF WATERBURY
: AT WATERBURY,
CONNECTICUT
ANTHONY COLLYMORE

: 2013

BEFORE THE HONORABLE WILLIAM T. CREMINS,
JUDGE
APPEARANCES:

Re

e en ing he S a e f C nnec ic

:

ATTORNEY CYNTHIA SERAFINI, SASA
ATTORNEY DON THERKILDSEN, ASA
Office f he S a e A
ne
400 G and S ee
Wa e b
, C nnec ic 06702
Re

e en ing he Defendan :
ATTORNEY DON O BRIEN, SPD
P.O. B 218
Sim b
, C nnec ic 06070
(O de ing Pa
A . Ma in Zeldi )

A138
TRANSCRIPT NOTATION
The ci ed an c i i den ed b
l me f ll ed
b age, e.g., V l me: Page. The indi id al l me a e
c n ec i el n mbe ed:
1 PT:
Feb a 28, 2011 A aignmen P ceeding
2 PT:
Ma 19, 2011
P elimina P ceeding
3 PT:
J l 14, 2011
P elimina P ceeding
4 PT:
J l 22, 2011
P elimina P ceeding
5 PT:
J l 22, 2011
P elimina P ceeding
6 HPC:
A g
10, 2011
P bable Ca e Hea ing
7 HPC:
A g
30, 2011
P bable Ca e Hea ing
8 HPC:
Se embe 7, 2011 Deci i n/P bable Ca e,
P elimina P ceeding
9 PT:
Oc be 4, 2011
P elimina P ceeding
10 PT:
Feb a 22, 2012 P elimina P ceeding
11 PT:
J ne 20, 2012
P elimina P ceeding
12-21 VDT: Jan a 17-30, 2013
V i Di e
21-23 T:
Feb a 4, 2013, A.M. T ial P ceeding
24-25T:
Feb a 5, 2013, A.M. T ial P ceeding
26 T:
Feb a 6, 2013, P.M. T ial P ceeding
27-28 T:
Feb a 7, 2013, A.M. T ial P ceeding
29-30 T:
Feb a 13, 2013, A.M. T ial P ceeding
31-32 T:
Feb a 14, 2013, A.M. T ial P ceeding
33-34 T:
Feb a 15, 2013, A.M. T ial P ceeding
35-36 T:
Feb a 19, 2013, A.M. T ial P ceeding
37-38 T:
Feb a 20, 2013, A.M. T ial P ceeding
39-40 T:
Feb a 21, 2013, A.M. T ial P ceeding
41-43 T:
Feb a 22, 2013, A.M. T ial P ceeding
44-45T:
Feb a 28, 2013, A.M. T ial P ceeding
46 T:
Ma ch 1, 2013, A.M.
T ial P ceeding
47 T:
Ma ch 1, 2013, P.M.
T ial P ceeding

A139
48-49 T:
50-51 T:
52-53 T:
54-55 T:
56-57 T:
58-59T:
60-61 T:
61 T:
62 HPC:
63 ST:

Ma ch 4, 2013, A.M.
Ma ch 5, 2013, A.M.
Ma ch 6, 2013, A.M.
Ma ch 7, 2013, A.M.
Ma ch 11, 2013, A.M.
Ma ch 12, 2013, A.M.
Ma ch 13, 2013
Ma ch 14, 2013, P.M.
A il 15, 2013
Ma 16, 2013

T ial P ceeding
T ial P ceeding
T ial P ceeding
T ial P ceeding
T ial P ceeding
T ial P ceeding
J
Delibe a i n
Ve dic
HPC Wai e
Sen encing

A140
FEBRUARY 14, 2013 AM SESSION 31 T:
STATE S CASE [E ce ]
[S a e di ec f a e
i ne c -defendan Ra ha n
B gg ega ding l ca i n f ca , ma , A
ne Se afini]

[16] Q

I
he b ild -- I
b ilding 4 and 5?

he d i e a be

een

[17] A Ye .
Q And he lled d n he e and he e did he a k?
A Righ behind m a n h
e.
Q S igh behind b ilding 4?
A Um hmm.
Q And hen ha ha ened?
A The g
he ca , him and Wil n.
Q Wh g
f he ca ?
A Him and Wil -- C ll m e and Wil n.
Q Did
ha e a h ne n
ha nigh ?
A Did I ha e a h ne? Ye .
Q And ha kind f a h ne a ha ?
A P babl a Ne el.
Q A Ne el?
A P babl .
Q The kind ha
can chi
meb d n?
A Ye .
Q Oka . And did
ge a chi f m M . C ll m e?
AN .
QS
hen -- M . C ll m e and M . Wil n b h g
f he ehicle?
A Ye .
Q And i a ha
in in ime he e
a

A141
An h n C ll m e

i h a g n, igh ?

[18] A N , I didn

ee ne. N .
QY
a An h n C ll m e i h a g n n Jan a
18 h, 2010, didn
?
A N , I didn .
Q And didn
de c ibe he
e f g n ha
An h n C ll m e had ha nigh a a .38?
A N , I didn .
Q Did
e e -- Didn
ell ha
he lice?
A N , I didn .
Q And
kn
ha a .38 l k like, igh ?
AIa
me a g n, e .
Q Y kn
ha a .38 l k like i m
e i n.
A A g n. I -- I d n kn
e ac l
ha
e f g n,
b I kn
i a g n.
Q Think
kn
he diffe ence be een a e l e
and a emi-a
ma ic?
A Ye , I kn
ha .
Q Oka . And d
kn
ha a .357 l k like?
AN .
QY
a M . Wil n
-- Y
a M . Wil n i h
a g n in hi hand a ha ime, didn
?
A N , I didn .
Q And
a ha i a a .357, c ec ?
A N , I didn .
Q And [19]
had een M . Wil n in he
e i n
fag n i
Jan a 18 h, 2010, c ec ?
AN .
Q N , hen Wil n and C ll m e g
f he ca ,
i a
nde anding a ha
in in ime he
e e
g ing
b he man in ha SUV, c ec ?

A142
AN .
Q And
indica ed in
e im n
g in
he d i e
ea ?
A Ye .
Q And ha beca e
e e ld ge in
he
d i e
ea , c ec ?
AN .
Q Well,
indica ed ha a
me in in ime
g in
he d i e
ea and hen
m ed he ca ,
c ec ?
A Ye .
Q And ha beca e
e e ld m e he ca ,
igh ?
AN .
QS
j
d e ff lea ing behind S ack and
Mann?
A N , I g in he d i e
ea ca e I -- I a n
ld.
Ij
fel like ge ing in he d i e
ea ca e he
a
aking
l ng.
Q I a aking
l ng. S -- B
hen
d e ff,
igh ?
A Yeah. I en
g
n he ca a
nd and mee
him n he he ide.
Q Well, hen
a
en
n he ca
a
nd,
didn g back
-A Well -Q -- and c me
b ilding 4 and 5, did
?
AN .
QY
en -- c n in ed n ha d i e a and came
[20] be een b ilding 1 and 2, c ec ?
A Ye .
Q And i
e im n
da and
e im n

A143
la

T e da ha
didn ell hem ha
e e g ing
d i e he ca and n ne ld
, c ec ?
A Ye .
Q And n ne ld
ge in he d i e
ea .
Tha
ha
e elling
da , igh ?
A Ye .
QB
n ne hele g in he d i e
ea and
d e ff n
elling M . C ll m e M . Wil n he e
e e g ing?
A I a g ing mee hem. I a g ing back a
nd
mee hem.
QB
didn ell hem ha , igh ?
AN .
Q And he didn ell
ha ,
kn , mee
d n a he end f he
ee , did he ?
AN .
QS
meh
he managed fig e
ha
e e d n a he end f he
ee e en h gh
ne e
ld hem ha , igh ?
A Ye .
Q The didn ell
g he e, igh ?
A Ye .
Q Tha
i e a c incidence, i n i ? S
e ified
ha a
me in in ime
hea d -hea d a n i e?

[21] A I h gh I did.
Q And ha ca ed
n d n he adi , igh ?
A Ye .
Q And
e hea d g n h
bef e ha nigh ,
c ec ?
A Ha e I hea d g n -- I h gh I hea d g n h
bef e.

A144
QN . M
e i n
i : Y had hea d
g n h . Y kne
ha a g n h
nded like bef e
ha nigh , c ec ?
A Ye .
Q And
h gh ha ha
hea d a a
g n h , c ec ?
A Ye .
Q Oka . And h
man g n h
did
hink
-hea d?
AI a n
e. Tha
h I
ned d n he m ic.
QS
d n kn ? I ha ha
e a ing?
A Ye .
Q Oka . And hen
aid a
me in in ime M .
C ll m e came d n -- came
he ca , c ec ?
A When I lled all he a d n b b ilding 1 and 2.
Q Oka . And he e did
ll he ca
?
A Righ behind b ilding 2, like igh he e he c b i
a.
Q Oka . Righ behind -- Can
h
i h hi
in e
he e
lled he ca ?
A Righ he e.

[22] Q S

igh behind b ilding 2?
A Um hmm.
Q Righ a he b ilding a
c me -- The e a
li le hill he e, igh ?
A Ye .
Q And ha
igh bef e
c me
-- bef e
e en ge
he c ne f Manhan -- f b ilding 1,
c ec ?
A Ye .
Q Oka . S he e n
a ha M . C ll m e M .

A145
Wil n
ld ha e been able
ee he ca if he
e e n
Manhan S ee , c ec ?
A Ye .
Q Oka . And
-- B n ne hele
he ha ened
n d n in ha di ec i n?
A N , I lled he ca
.
QY j
aid
lled he ca
he end f he
-- b
m f he -A Ye , b
ha n
hen he g in he ca .
Q Well, i n ha he e
aid he had g in he
ca ?
AN ,i n .
Q Didn
-A I aid I lled
igh he e.
Q -- l k a a ma -THE COURT: Y ha e ha e he e i n e
nded
bef e he ne
e i n i a ked, lea e.

[23] Q Didn

l k a a ma
hen
ga e
a emen
he Wa e b
P lice De a men ?
A The h ed me a ma .
Q And didn
ma k n ha ma
he e
icked
hem ?
A Ye .
Q And didn
i e n ha ma hi i
he e I
icked hem ?
A Ye .
Q And hen
igned i , c ec ?
A Ye .
Q And ha
ld be d n bel
b ilding 2, c ec ?
A Ye .
Q Sh ing
ha ha been ma ked S a e E hibi

A146
26. Tha
he ma ha
igned.
THE COURT: I m
. A
ne O B ien can -ATTY. SERAFINI: He can ge
,Y
H n .
THE COURT: Wh d n
d i n he he ide
e e b d can ee i .
Q Thi i he ma ha
igned, c ec ?
A Ye .
Q Sh ing he -- Sh ing he Wa e b
P lice
De a men he e i a
icked
An h n
C ll m e and Vance Wil n, c ec ?

[24] A Ye .
Q And ha e ac l
he e
j
h ed
n hi
ma , c ec ?
A Ye .
Q Oka . And again -ATTY. O BRIEN: C ld I ee ha ma ? Y
H n ,
c ld I ee ha ma ?
THE COURT: She e amining. N a hi -Q And again, ha i
ell bel
he
ee -- Manhan
S ee , c ec ?
A Ye .
Q And
indica ed ha M . C ll m e came
he
ca and he a j
alking?
A Ye .
Q And h
fa behind him a M . Wil n?
A Like 20 fee , 30 fee .
Q 200 fee ?
A N . 20 fee , 30 fee .
Q 20 fee ?
A Ye .
QS h
fa am I f m
?

A147
A P babl ab
30 fee .
Q S he a m ch cl e ?
A Yeah. In he -QY
hink hi i 20 fee ?
A I aid 20 30 fee , e .
Q B I mean,
hink ha f m
A (Indi ce nible).
Q -he e I am i 20 fee ?
A N . I a li le le
han ha .

he e

a e --

[25] Q Ma be like en fee ?
A A li le m e
babl .
Q Oka . S if he 20 fee , he ma be back
he e
he d
i ?
A P babl b he de k.
Q S ma be ab
15 fee ? And i
e im n
ha he j
alking, a ha ing behind him?
A I aid he a
alking, e .
Q He
alking behind him? And n ne in an kind
fah
, igh ?
AN .
Q The e j
alking al ng, ha en c me e
he e
e a ked, igh ?
A Ye .
Q Oka . And he b h g in
he back ea , igh ?
*
*
*
MARCH 5, 2013 AM SESSION 50: T
DEFENSE CASE [e ce
]

[5] THE COURT: And ha ab
h a e he e, d he ha e c
a e he e
ATTY. O'BRIEN: We

he he i ne e
n el? The i ne e
h

A148
THE COURT: - ha a e inca ce a ed?
ATTY. O'BRIEN: M . B gg d e , Ra ha n B gg, hi
a
ne i he e b I nde and he e a
inkle i h i
beca e he C
he a e a
ne ha indica ed
ha he n g ing e end he imm ni
ha he
g an ed f him
e if n [6] he ca e hi e im n
n he defen e ca e.
THE COURT: Well, a c n el i a a e, I can d
an hing i h e ec
imm ni
ha
he S a e. S
h
d
an h
d
an he C
add e
ha ? I
he S a e de e mina i n he he
n
he
a e g ing g an i , he C
ha n j i dic i n in ha
a ea. I can e i e hem d an hing.
ATTY. O'BRIEN: I nde and ha , Y
H n b if i
n
ha M . B gg d e n
e if , I an hi j
kn
ha he S a e i
e en ing him f m e if ing
beca e he n e ending he imm ni
ha he
g an ed f hi e im n .
ATTY. SERAFINI: N , Y
H n . He ha a 5 h
Amendmen
i ilege ha he can in ke a an ime. The
S a e i n g ing
and he ca e la i
i clea . S a e
e
Gi a d, G-i- -a- -d, and ha a 2 58 C nnec ic
6 31 i a 2001 ca e and nl he S a e can g an
imm ni .
THE COURT: Oka .
ATTY. O'BRIEN: The e n
e i n ha nl he S a e
can g an imm ni , Y
H n . Thi i in a ni e i
ci c m ance, a i ha been h
gh .
Ye e da
e hea d he Cecil B. DeMille
d c i n,
film g ing n he all, a di , i h e ec
ha M .
B gg aid d ing he
bable [7] ca e hea ing, a
ell
a he in d c i n f he e ec ding . The e ec ding
e e in e i ence a he ime ha he a e if ing, had

A149
he been la ed f him
hich I belie e and I I e
indica ed hi bef e ha i he
e
a
d c
e amina i n,
call he e n a en i n i and he
ge a chance ei he acce i
ejec i and hen I ha e
an
ni
d ac
e amina i n.
Tha a n d ne in hi ca e, hi
a e en iall
B gg 2, he a called in
e if again i h
ha ing
c
e amina i n, ega ding he i
e ha he e ified
. S
THE COURT: Well
ATTY. O'BRIEN: - I
THE COURT: - le me a k
a e i n, c n el? He
eem be e a ing inc n i en
a emen
ih
Whalen a emen , i ha c ec ?
ATTY. O'BRIEN: Ei he a , Y
H n .
THE COURT: Oka . All igh . S hen, le me gi e
a
h
he ical beca e I ha e c nce n ab
he i
e ha
e ai ing. If a i ne ge
n he and and a , A,
and ha i ne i
hen ge
n
he i ne in he
a emen aid A, he i ne
n he and a B, a
i he
[8] ffe he a emen ha A made n a a a
Whalen a emen .
ATTY. O'BRIEN: Thi i he ame i ne ,
e
THE COURT: Same i ne .
ATTY. O'BRIEN: - alking ab
.
THE COURT: If
a g men i c ec ha i ne
c ld admi ha he made he a emen and hen he
a emen c ldn c me in beca e i
ld hen be
e in ic e idence. C ec ?
ATTY. O'BRIEN: Righ .
THE COURT: B
ha n
ha Whalen e i e , i i ?
ATTY. O'BRIEN: If he admi ing he a emen hen

A150
he e n
he e n c nflic in in hi e im n
THE COURT: B
ha
ATTY. O'BRIEN: - he e n
THE COURT: - nde ha
ATTY. O'BRIEN: - he e n i
e f Whalen.
THE COURT: - nde ha cena i he i ne c ld
hibi he Whalen a emen f m c ming in b j
a ing ha
ha I aid. Righ ?
ATTY. O'BRIEN: Righ .
THE COURT: Y c ld ne e ge a Whalen a emen
in.
ATTY. O'BRIEN: Righ . And
h ldn be able if if he i ne i admi ing ha he aid [9] in he a e
if he S a e had in d ced a ked him ab
hi
a emen , e , I aid ha . Ye , I aid ha .
THE COURT: All igh . S
ha
ha a e
a king
he C
Im n
e I nde and ha
e
a king he C
d ?
ATTY. O'BRIEN: Well, I m a ing hi
hi i a
i a i n he e B gg ha e ified ice and I ha en
had an
ni
e
c
-e amine him he
ec nd ime.
THE COURT: H
d e ha ela e hi 5 h
Amendmen [10] i ilege?
ATTY. O'BRIEN: Well, i ela e
i beca e if i had
been d ne
e l
i h he a I bmi ha i h ld
ha e been d ne, hich i
hen he e if ing didn
a a he
bable ca e hea ing all f he hing ha
e e
e eb
gh
e e da f him
im eachmen
e . S hen a ha
in he ha
ei he a chance e lain i
admi
i and hen I ha e
an
ni
c
-e amine him. N , I m being

A151
ecl ded f m c
-e amining him n hing ha e e
e e la ed f
he j
and
n he m ie c een
e e da .
ATTY. SERAFINI: And h e
THE COURT: H
One ec nd, lea e.
H
d e ha ela e hi 5 h Amendmen
i ilege?
ATTY. O'BRIEN: Beca e a he ime if he
if he
d ing i
if he S a e i d ing i c ec l he g an ing
him imm ni f hi e im n and a ha ime he ha
imm ni
THE COURT: Well
ATTY. O'BRIEN: - i d e n e end j
di ec
e im n
THE COURT: C n el
ATTY. O'BRIEN: - i e end
c
e amina i n.
ATTY. SERAFINI: J
f
he eck
THE COURT: I m
ell
ne
ne ec nd.
I ill d n nde and ha
e a king hi C
d
i h e ec
M . B gg
ATTY. O'BRIEN: I nde and
THE COURT: - amendmen .
ATTY. O'BRIEN: - he - I nde and C
i ai n
THE COURT: Oka .
ATTY. O'BRIEN: - b
ha I m a ing i beca e f he
a hi e amina i n f M . B gg ha been c nd c ed
e he c
e f e en iall
da beca e e e da
a B gg, he
hea d hi
ice,
a hi
THE COURT: I I nde and, c n el, b le
le me
ge
he in , ha a e
a king me [11] d ? I m
ing na
hi d n, ha
ha
if he S a e
de e mine ha he e n g ing gi e him imm ni

A152
and A
ne H chin n belie e ha , ha i a
blem,
ha a e
a king me d ?
ATTY. O'BRIEN: I d n' kn
ha he C
can d
an hing, ha
he a e a
ne and he a e
a
ne ha ch en d i hi
a ,b
he C
ha
all ed hi
hi e amina i n be d ne in ha fa hi n,
hich i m bjec i n f m he beginning
THE COURT: Oka .
ATTY. O'BRIEN: - hich i he
e
a
d c
e amina i n
THE COURT: Tha been
ATTY. O'BRIEN: - i
call
THE COURT: - ha
ATTY. O'BRIEN: - a en i n
he
THE COURT: - ha been
ATTY. O'BRIEN: - e n
THE COURT: - ha been e e ed f
he ec d. All
igh . S
ATTY. O'BRIEN: And and
THE COURT: - I mean ATTY. O'BRIEN: - in in effec , hi c nf n a i n igh ,
m clien c nf n a i n igh ha been e ing i hed
beca e f ha beca e I can [12] a k B gg he
e i n ha e e ele an f
e e da
e im n ,
hich a e im n in effec .
THE COURT: Oka . A
ne H chin n, ha
ha
ha - ha
i i n i h e ec
M . B gg and hi e im n
da ?
ATTY. HUTCHINSON: Y
H n , I ha en
ken
M . B gg e beca e I m n
e if he in e . And m
nde anding i ha an hing he a
da , if i
c n adic
i
e im n in hi
ceeding, i

A153
e im n in a HPC,
ibl hi
i en a emen
ha been admi ed, if if an hing he a
da i
c n a
ha he S a e i f ee cha ge him i h
e j
and ha
ha m c nce n.
And I ha e
ken M . C ll m e a
ne , he ha
indica ed he na e f he e i n . M
he c nce n i
e i n and an e d n al a g a
an ici a e
and and a la defendan
a la
i ne
e if ing
d e n nde and he a ame e in an e ing he
e i n and all he ha
d i
THE COURT: Well
ATTY. HUTCHINSON: - a he
ng hing
THE COURT: - ell, le me
ATTY. HUTCHINSON: - and ha
en
THE COURT: - le me
ATTY. HUTCHINSON: - i

[13] THE COURT: - le me
ATTY. HUTCHINSON: - f
he S a e. .
THE COURT: - a k
hi
e i n. M nde anding
f he le i h e ec
he 5 h Amendmen
i ilege
f a i ne i ha i
aken e i n b
e i n,
ld
ag ee i h ha ?
ATTY. HUTCHINSON: M nde anding a
THE COURT: In he
d
meb d can
a
defendan can in ke e i d, b a i ne i
e i n
b
e i n. I hink ha
he le,
ld
ag ee i h
ha ?
ATTY. HUTCHINSON: I
ld ag ee i h ha .
THE COURT: Le me j
ATTY. HUTCHINSON: I didn ake a l k a i .
THE COURT: Thi i Ta icani, T-a- -i-c-a-n-i e
Na i n ide M
al In
ance C m an , 77 C nn. A . 1

A154
39 a

age 1 36, hich a e
i ne e in king he 5 h
Amendmen d n ha e a blanke igh
ef e
e if , b a e bliga ed an e h e e i n ha
can be an e ed and make a ecific claim f i ilege
a
he e .
And
ha C nnec ic ca e la , a ella e c
.
ATTY. HUTCHINSON: And m nde anding i
ha
I nde and ha , I ag ee i h ha he
blem i
ha hen he S a e ge
c
-e amine ha he e ma ha e been a ea ha he
[14] d
a
ened and he a e a
ne
ill an
c
-e amine f he in ha a ea and he can
THE COURT: B if he g a i ilege, hen
can a
hi a
ne ad i e him in ke i . C ec ?
ATTY. HUTCHINSON: A l ng a I can d ha n c
.
THE COURT: Well, hi i h
e e g ing
ceed.
Again, ba ed n he le, e ll ha e
ake M . B gg
e im n
e i nb
e i n and A
ne H chin n
I m g ing all
i igh ne
him.
ATTY. HUTCHINSON: Thank
.
THE COURT: All igh . And I ill e lain
he j
ha he e ma be ime
hen M . B gg ma in ke hi
i ilege, he ill hen ha e a igh
c n l ih
and if
hink he e i n im lica e ha
ATTY. HUTCHINSON: Then I ill acc ding
ill
ad i e him acc dingl .
THE COURT: And ha
he a
e ll d i .
ATTY. HUTCHINSON: Thank
.
THE COURT: N , le
d e an b d di ag ee i h
ha ?
ATTY. SERAFINI: Ma I ha e a m men , lea e?
THE COURT: S e.

A155
ATTY. SERAFINI: Beca e i m nde anding [15]
ha if he i ne i g ing in ke hei 5 h
Amendmen
i ilege ha cann be d ne in f n f he
j
, J dge.
THE COURT: Well, c n el, ba ed n
ATTY. SERAFINI: I m j
THE COURT: - I in hi ci c m ance, nle
can
h
me a ecific
hibi i n n
ATTY. SERAFINI: The
THE COURT: - i ne e , n
n he defendan
ATTY. SERAFINI: Y .
ATTY. O'BRIEN: Mm-hmm.
THE COURT: - a ca e ha a
ha a i ne cann
h
in ke hi 5
h ldn be all ed in ke i in f n
faj
, he e me e i n can be an e ed and
me can .
ATTY. THERKILDSEN: Bef e he C
le n ha
ma I ge ha ca e? I can
ide a ca e f
he C
f
ha , I j
need be e c ed m men a il .
THE COURT: Wha
he ca e beca e I ha e m
f
hem he e?
ATTY. THERKILDSEN: I a i a c iminal ca e, I
ha e g l k i
in m ffice,
Y
H n .
THE COURT: All igh .
ATTY. O'BRIEN: Y
H n , ma I I be hea d n
ha ?

[16] THE COURT: S e.
ATTY. O'BRIEN: If ha
if ha
he a he C
g nna
ceed I hink ha
I hink ha h
he
defen e beca e if I a k a e i n he
THE COURT: Well, c n el

A156
ATTY. O'BRIEN: - a e
hi
THE COURT: - ha
ha
ATTY. O'BRIEN: - 5 h Amendmen THE COURT: - ha
ld
gge a an
al e na i e?
ATTY. O'BRIEN: Well, ha
he S a e e end
he imm ni .
THE COURT: N . Take ha
ha
hei i
e, n
mine. Wi h e ec
ha I can d , gi e me an
al e na i e
ha I m gge ing and I ll c n ide i .
ATTY. O'BRIEN: The C
i m e lea ned han I am
ce ainl
THE COURT: C n el, if
ha e an al e na i e, I ll
c n ide i . I j
h gh ab
hi beca e I h gh
hi i
e
ld c me
and I can c me
ih
an hing el e.
ATTY. O'BRIEN: I nde and, Y
H n .
THE COURT: Oka . Y
aid
need
alk M .
B gg.
ATTY. O'BRIEN: Ye , I d like if i
THE COURT: A
ne

[17] ATTY. SERAFINI: C ld I j
THE COURT: - H chin n
ATTY. SERAFINI: - can I j
n he ec d?
THE COURT: S e.
ATTY. SERAFINI: When c n el claim he e
had n had he
ni
c
-e amine he e
i ne e f
he ec d M . O B ien had a c
f he
e im n f m M . B gg a he HPC, he S a e en
h
gh all f he e i n ha I h gh e e
inc n i en , a ked him ha and c n el had he
ni
c
-e amine him n ha he ac all

A157
aid. S
n
a he didn ha e he
ni ,
J dge, in he S a e
ini n ha i n
e.
THE COURT: Well, again, ha f
he a ella e c
de e mine. Oka . S
aid
an
alk M .
B gg.
ATTY. O'BRIEN: Ye , Y
H n .
THE COURT: A
ne H chin n, I a
me
an
be he e hen M . O B ien alk
M . B gg.
ATTY. HUTCHINSON: Ye .
THE COURT: H
m ch ime d
need
I can gi e
he j
me indica i n f hen e c ld a .
ATTY. O'BRIEN: P babl a half-h
,Y
H n .
THE COURT: All igh . Wha ab
M . Sla in, i he
he e?

[18] ATTY. SERAFINI: He he e. Ye .
THE COURT: All igh . The e i n i h
l ng d
hink
e g ing ha e him n he and? The e
n hing in he e ha ela e
M . Sla in,
ha i
e
ATTY. O'BRIEN: N
n
ha l ng if ha
he ca e.
ATTY. SERAFINI: We ll ha e deal i h ha , he
m i n in limine he a e filed.
THE COURT: All igh . Le d i hi
a . We ll
e e g ing
a a 5 min e f
a
need a
half-an-h
?
ATTY. O'BRIEN: Ye .
THE COURT: All igh . We e g ing
a a 5
min e f 11, e ll ake M . B gg fi , if c n el ha a
ca e b ing i
A
ne Maede and hen b ing i
me
and I ll c n ide i , b I can c me
i h an he
al e na i e ba ed n he ni e ci c m ance f hi
ca e. Fi e f.
(The c
ece ed and ec n ened.)

A158
THE COURT: Oka . Le b ing M . C ll m e
,
lea e.
(The defendan en e ed he c
m.)
THE COURT: Oka . E e b d i back. Bef e I
c n in e e had e e al chambe c nfe ence j
i
ening c
again. I an
be I I [19] hea d
me hing ha I a a li le bi c nce ned ab
, did I
hea he S a e a ing ha he e ma be an a g men ha
he C
i
b ning e j
in hi ma e , did
ATTY. SERAFINI: N , I
THE COURT: - I hea ha igh ?
ATTY. SERAFINI: - didn a ha .
THE COURT: Oka . All igh . Thank
. I h gh
ha
ha I hea d.
All igh . Thi i h
e e g ing
ceed. We e
g ing ha e M . B gg c me
, he al ead been
n
in hi ma e . I m g ing indica e M . B gg ha
he e i a legal i
ea
he he
n
he imm ni
ha he a g an ed b he S a e in hi e im n in he
S a e ca e-in-chief, he he
n
ha a lie
hi
e im n a a defen e i ne . I an in m
ini n
i an nclea i
e and ha he h ld be g ided b he
ad ice f hi a
ne , A
ne H chin n, h
ill be
i ing ne
him d ing he e amina i n.
An c mmen f
he ec d n ha
ced e?
ATTY. SERAFINI: I m
, I i he g ing be
e i ned
ide he e ence f he j
in in he e ence f he j
beca e
THE COURT: In he
ATTY. SERAFINI: - c n el
THE COURT: - e ence.

[20] ATTY. SERAFINI: - ha indica ed ha he e ec

A159
ha he ill be in king hi 5 h Amendmen .
THE COURT: F e e
e i n?
ATTY. HUTCHINSON: N f e e
e i n
THE COURT: Oka . Then
ATTY. HUTCHINSON: - Y
H n .
THE COURT: - he g ing d i in f n f he j
.
ATTY. HUTCHINSON: A
e had e i
l di c
ed
he le a e diffe en f a i ne
THE COURT: The le a e diffe en
ATTY. HUTCHINSON: - han
THE COURT: - f a i ne
han f m a defendan .
ATTY. HUTCHINSON: Thank
.
THE COURT: Oka . An
he c mmen ?
ATTY. SERAFINI: We need add e
ha m i n in
limine ha he S a e filed, Y
H n .
THE COURT: M i n in limine ela ed ?
ATTY. SERAFINI: Self- e ing hea a .
THE COURT: Wh
ld an elf- e ing a emen
made made b M . C ll m e be admi ible, nde ha
e ce i n
he hea a
le?
A
ne O B ien?
ATTY. O'BRIEN: I g e
he e i n i , i i elf- e ing
j
e en iall admi ha
e e he e b
ha
didn d an hing?

[21] THE COURT: Well, ha

a denial

ATTY. O'BRIEN: Tha
THE COURT: - i n i ?
ATTY. O'BRIEN: - ha
can g a an ee ha
hi
hi
a emen i ha he can g a an ee ha he didn
h
ha b .
THE COURT: N , ha
elf- e ing. Unle
can

A160
in
an e ce i n nde Sec i n 8 f he C de, hich
i he hea a ec i n, i
i a a emen b a a
n
being ffe ed again
he a
f
he
h f i c n en ,
he ef e i hea a nde A icle 8. Unle
can
in
me an e ce i n ha
ld a l i
ld
n be admi ible nde
le .
ATTY. O'BRIEN: Y
H n , I hink in he c n e
f
he in e ie
hi i being d ne b , I belie e, Sla in and
Ti ad
THE COURT: C n el
ATTY. SERAFINI: He l king
THE COURT: - I m a king, lea e if he e a e g ing be
ha
ld be defined a elf- e ing a emen
le
ake hi ne e a a ime,
e ha e he ec d. W ld
a e he e
ill he be being ffe ed f
he
h
f hei c n en ?
ATTY. O'BRIEN: Ye . Ye .
THE COURT: Oka . The ef e,
ld
ag ee ha
[22] he a e hea a ?
ATTY. O'BRIEN: Well, i
i a defendan ,
i an
admi i n in a en e.
THE COURT: I i being ffe ed again
he a ?
ATTY. O'BRIEN: Ye .
THE COURT: H ?
ATTY. O'BRIEN: Again
he S a e?
THE COURT: N .
ATTY. O'BRIEN: Oh.
THE COURT: Again Mi e
ATTY. O'BRIEN: - ell i
i - i n hing ffe ed
again , i
a
f hi defen e
THE COURT: B
ha
ATTY. O'BRIEN: - ha he he

A161
THE COURT: - he e ce i n
he hea a
le, if i
ffe ed f
he
h, i hea a , i
ld hen ha e
fall nde an e ce i n
he hea a
le , he le ,
nle
can in
me an e ce i n, i
inadmi ible hea a .
ATTY. O'BRIEN: I can .
THE COURT: Oka .
ATTY. O'BRIEN: I can gi e
ne.
THE COURT: Then i
hen if i
ffe ed f
he
h
i
nde
le , hea a , if he e n e ce i n, i
n admi ible. Oka .

[23] ATTY. O'BRIEN: One

ne ec nd, Y

H n ,m

clien ha
me hing.
ATTY. SERAFINI: S ha
i he m i n in limine
g an ed, Y
H n ?
THE COURT: I need hea he e i n . Ba icall , if
i
ffe ed i
nle
he e an e ce i n i hea a ,
i n admi ible. S I
ld
ATTY. SERAFINI: S
ell,
THE COURT: - a
me A
ne O B ien
ld f ll
ha
ATTY. SERAFINI: - ha I
THE COURT: - g ideline.
ATTY. SERAFINI: - ha I m eeking i
ha e
e en c n el f m a king he e i n ha
ld be
elici ing ha inf ma i n, ha
THE COURT: Well, I
ATTY. SERAFINI: - ha I m a king in THE COURT: - I hink nde he ATTY. SERAFINI: - he m i n in limine.
THE COURT: c l f hi c
, hich c n el ha
had i i n
e f an a
ne
ffe e idence ha

A162
he kn
i inadmi ible. I f ge ha n mbe ha i
b
ha in he e. Oka .
ATTY. SERAFINI: S i he C
defe ing he m i n
in limine

[24] THE COURT: Well, I m a

ming, A
ne
O B ien,
e n g nna a k e i n ha migh elici
e
n e ha
ld n be admi ible e im n nde
le . I ha a fai c mmen ?
ATTY. O'BRIEN: Ye , i i . Y
H n , in e m f m
e i ning f Sla in and/ Ti ad i ill ha e d
ih
he in e ie
f m clien and ha
ii n
THE COURT: C n el, I d n mean in e
, igh
n
le
ake ca e f M . B gg.
ATTY. O'BRIEN: Oka .
THE COURT: Le d ha fi . Oka . Le b ing M .
B gg , b ing him
. Can e ge a chai e
f
C n el, he e d
an
be d
an
be
in he e, igh he e?
ATTY. HUTCHINSON: Ye .
THE COURT: All igh . Can
ge a chai in he e,
lea e? Oka .
ATTY. O'BRIEN: Y
H n , I ha e a e e
ha M .
B gg be all ed hea he h ne c n e a i n ha
e e la ed e e da , i
ha ing he j
c me in,
ha hen I a k him ab
h e c n e a i n he ll
ha e a f ame f efe ence.
THE COURT: Well, i
h e h ne c n e a i n a e
in e idence d
i he e a a
la
can he
a
a k he e i n ,
can [25] la i beca e i
e idence, i can be made kn n
he i ne . D
e
ha e i e
la ?
ATTY. THERKILDSEN: The - I belie e he c m
e

A163
nd ba i e
, a l ng a c n el in ended n d ing
hi him elf, I m n g ing d i f him.
I i
i i e
.
THE COURT: All igh . D
e ha e a c nnec i n
he
c m
e
ac m
e ?
ATTY. THERKILDSEN: Thi c m
e , he can e he
Sa e c m
e .
THE COURT: All igh . I he di k di k
ld be
lain iff
S a e , Im
1 94, I belie e. D e ha
nd igh ?
Linda, i ha he di k i h he call f m M . B gg?
(The C
c nfe ed i h he cle k.)
THE COURT: Ye , b ing him
.
(The C
c nfe ed i h he cle k.)
THE COURT: M . B gg,
ld
c me
he e, lea e?
Thank
. All igh . Can e em e he hand
e ain fi ?
Oka . M . B gg,
e ill nde a h,
e e
n in bef e.

[26] THE WITNESS: Yeah.
THE COURT: The e i an i
ea
he he
n
he
imm ni
ha he S a e ga e
hen
e e he e
bef e a lie
e im n n , beca e n
e
being called b he defendan , ka ,
ha
h ld
d
and and ha i
e, he he
n
he imm ni
a ache i
nclea , he
he la d e n clea l e ha
ha
h ld d i be g ided b
ha
a
ne ad i e
a
an e ing an f he e i n .
Oka . I ha
i ha clea ?
THE WITNESS: Ye .
THE COURT: A
ne H chin n, i ha
ATTY. HUTCHINSON: Ye , Y
H n .

A164
THE COURT: Oka . Le b ing
ATTY. SERAFINI: I - bef e
THE COURT: Ye . Plea e.
ATTY. SERAFINI: - ha
a , J dge, I
ld j
like
ad i e M . B gg ha he S a e i n gi ing him
imm ni f an e im n a a i ne in he defen e
ca e and n
i h anding he C
i i n i i he
S a e ha he i n being gi en e
he i n being
gi en imm ni f hi e im n a hi
in in ime.
S
THE COURT: All igh . Well
ATTY. SERAFINI: - I j
an

[27] THE COURT: - I an

be
e
ATTY. SERAFINI: - ha
be clea
he
THE COURT: - I an
be
e hi i clea f
he
ec d. I belie e ha I aid M . B gg i ha he la i
nclea a
he he
n
he imm ni he a gi en
b he S a e ela e
hi e im n a a defen e i ne .
Tha
ha I ld him. I an
be
e ha , ha clea
f
ATTY. SERAFINI: Well, a I
THE COURT: - he ec d.
ATTY. SERAFINI: - indica ed, J dge, i
he S a e
i i n ha hen
l ka S a e e
Ree e and
Sa e e
Gi a d and ead h e in c nj nc i n i h
he a e ha he imm ni can nl be gi en b he
S a e, he C
ha n a h i
gi e an
imm ni
a i ne
THE COURT: I d n
ATTY. SERAFINI: - and hi
THE COURT: - belie e ha
ka , I an
IATTY. SERAFINI: - hi e im n
Ma I

A165
THE COURT: G ahead.
ATTY. SERAFINI: - c n in e?
THE COURT: N .
ATTY. SERAFINI: Hi e im n c ncl ded hen he a
called a a defen e i ne , he a c
-e amined, and if
he a e had a em ed [28] i hd a he imm ni
bef e he a c
-e amined I
ld ag ee i h he
C
ha , ha
ld be im
e b beca e hi
e im n c ncl ded and he a n l nge
he i n
l nge being called a a
ec i n i ne , he d e n
ha e imm ni f m he S a e f an hing ha he
ha
he e ifie
a hi
in n.
THE COURT: All igh . S again, M . B gg,
h ld
be g ided b
ha
a
ne ell
. Oka .
THE WITNESS: Y .
THE COURT: All igh . Le b ing he anel
.
ATTY. O'BRIEN: Y
H n ,I
ld I
ld an he
j
THE COURT: H ld n ne ec nd.
ATTY. O'BRIEN: - I
ld an he j
kn
ha
he n being gi en imm ni b he S a e
THE COURT: Unde ha
ATTY. O'BRIEN: - f hi e im n THE COURT: - nde
ha
ATTY. O'BRIEN: - ha
h
e ha e Vicki H chin nTHE COURT: - nde
ATTY. O'BRIEN: - i ing in he
THE COURT: All
ATTY. O'BRIEN: - b .

[29] THE COURT: - I m g ing
B gg i i ing ne
e i n ha he a

ell he j
ha M .
hi a
ne and ha an
ne feel h ld n be an e ed

A166
b M . B gg he a
ne
ill
ad i e. Tha all I m
g ing
a . I m n g ing
a an hing m e han
ha . Oka .
ATTY. SERAFINI: J dge, bef e
ge he j
Ij
an ed indica e
he C
ha
and I had a ked in
chambe f an ffe f
f beca e I m n
g nna ci e
Sa e e
I e n hich i a 48 C nn. A . 1
68, i a 1998 ca e. And in ha ca e he C
aid ha
i i
idel held ha i i im
e
e mi a i ne
claim a e im nial i ilege in f n f he j
he e he
i ne in en i n n
e if i kn n bef ehand.
And hen he e a l ng li
f ca e ci ed a ing i h
Uni ed S a e e
Cha man, hich i a 11 Ci c i ca e
f m 1989.
THE COURT: Well, c n el ha ma be
e b I d n'
kn
ha
e i n , if an , M . B gg i g ing be
ad i ed claim hi 5 h Amendmen
.
ATTY. SERAFINI: And ha
ha
h I a ked f an
ffe f
f. Beca e c n el - hi c n el ha indica ed
ha he i ad i ing him d ha ,
ha
h if ha i
hi in en i n ha h ld be d ne bef ehand.
THE COURT: B ing he anel
.

[30] (The j

anel en e ed he c
m.)
THE COURT: Oka . I a k c n el lea e i la e
he
e ence f all he j
?
ATTY. SERAFINI: Ye , Y
H n .
ATTY. O'BRIEN: Ye , Y
H n .
THE COURT: Ladie and gen lemen, he ne
i ne f
he defen e i a M . B gg, Sean B gg, he e ified
e i
l in hi ca e,
he al ead been
n in. He
i acc m anied da b hi a
ne , A
ne
H chin n and he ill ad i e M . B gg a
e i n
ha he ma n ch e an e ba ed n hi 5 h

A167
Amendmen
i ilege .
A
ne O B ien. Le g .
ATTY. O'BRIEN: Thank
,Y
H n .

[31] R A Y S H A U N B U G G, [In

e ence f j
]
Wa e b
, C nnec ic ha ing been e i
l
n, e med he and, a e amined and e ified a
f ll
:
ATTY. O'BRIEN: I d like
la h e ec ding f m
he jail, if I c ld ge
me a i ance.
ATTY. THERKILDSEN: N , I e al ead
I e al ead
di c
ed hi bef e he j
came
ha I m n g nna
a i in he defen e, i n m
le a a
ec
.
ATTY. O'BRIEN: I m n a king f a i in he defen e,
I m a king he ha he ec ding n hi c m
e . I
ha e I d n ha e he ca aci
la h e, ince I d n
ha e a c m
e .
ATTY. THERKILDSEN: If I la he
ng ne, hi he
ng b
n, i l k like i in en i nal. I d n
an
be in ha i a i n, Y
H n . He had he e a e f
m n h ,f
eek .
ATTY. O'BRIEN: I g
he ec ding he
THE COURT: Righ .
ATTY. O'BRIEN: - he da , Y
H n .
THE COURT: We need
S a e 195. D
e ha e ha ,
Linda?
All igh . A
ne O B ien, S a e 1 95 i igh
he e. One 94. I m
, m a l gie , i 1 94. [32]
Le l ad i
and la i . A
ne The kild en, ha
I m g ing a k
d i j
a
he di k.
ATTY. THERKILDSEN: I ake a min e c me , I
j
e lained ha
A
ne O B ien.
THE COURT: J
a i.

A168
ATTY. THERKILDSEN: I ha e n
blem ge ing him
g ing, Y
H n ,Imj
THE COURT: Fine. Then le
a i and ee ha
ha en . See he e e g f m he e.
(The ec ding la ed a f ll
:)
Thi i Gl bal Tel Link hi call igina e f m a
C nnec ic De a men f C ec i n
Facili
hi i Gl bal Tel Link hi call igina e a he
C nnec ic De a men f C ec i n Facili and ma
be ec ded
m ni ed.
I ha e a c llec call f m, B gg, an inma e a
MacD gall C ec i nal In i i n.
MR. BUGG: The nigga , igh , he a
me
a he ll
ake i ,
hea d?
MR. BUGG S SISTER: Sa
ha ?
MR. BUGG: S me
me - me ki , he ll ake i ,
hea d.
MR. BUGG S SISTER: S me ki , he ll ake i ?
MR. BUGG: Yeah. I m aking
ha he name, he
aid me ki , he ll ake ha hi .

[33] Kn

ha I m alking ab
?
MR. BUGG'S SISTER: Oh, he ll ake he cha ge, he
h le cha ge?
MR. BUGG: Yeah, h - , d mmie.
MR. BUGG'S SISTER: Oh.
MR. BUGG: Yeah.
MR. BUGG'S SISTER: Wha he f ck he an ?
MR. BUGG: I d n' kn , M nie ( h ne ic elling), I m
ing
alk him ha
h
find
find
MR. BUGG'S SISTER: Well, I ell if I find hi inf I
c ld
i e him
MR. BUGG: Yeah, b d n
d n
i in
name

A169
MR. BUGG'S SISTER: Mm-hmm.
MR. BUGG: - and d n a n
ild hi , j
a k him,
like, a ing ha g d and - and all ha hi , he a
ge e e hing - ca e I m like, , (indi ce nible) he
like, n , I m f cked , like,
he ain g nna ha e a
kn , ha I m a ing, like,
kn
I need
I need
f hi hi ,
f ll
me?
MR. BUGG'S SISTER: Un-h h.
MR. BUGG: He like, eah, I kn , he like he like,
h ld f ne e aid ha ,
h ld ha e ne e
ld
hem he c ld d
ff hi hi . I m like, , b
m
back again
he all
e hi , [34] like, I ll
hel
b , Im
ing hel he he nigga
,
he
like f ck i
h ld ha e l ked
f
elf. I m
like,
kn , I m a ing
man I ld him I m
g nna ge
f hi hi . And he like, j
ge
fi ,
le hem d i
e e b d , ee ha I m a ing. S I
e e hing
and if I gi e him me b ead he g nna
l k
f me and he aid eah. S
MR. BUGG'S SISTER: Yeah, I ll ell (indi ce nible) hen
he call .
MR. BUGG: B
en
e n g nna ge ha hi
him igh a a , e g a ai , ai il
MR. BUGG'S SISTER: Yeah. Yeah, e g nna ee ha
g nna ha en and hen ha e e ha en he g nna ge
ne f
MR. BUGG: When I a
ial, I g
Ig f
he hea ing
h, eah,
ee he ld gi l i h he ed hai ?
D n a he name b
kn
h I m alking ab
?
MR. BUGG'S SISTER: I d n kn
h he f ck
alking ab .
MR. BUGG: Wha a
i h he na
d ed , he
MR. BUGG'S SISTER: Oh, n , I ha en een ha bi ch,

A170
h ?
MR. BUGG: Ca e I need I need he
c me h
, c me h
gh in a cl ch.
MR. BUGG'S SISTER: Like ha
need, like

[35] MR. BUGG: The

gh

he he
hel me
, he
need
ge
n he and.
(The ec ding
ed he e.)
ATTY. SERAFINI: C ld e j
ha e n he ec d,
hich call ha a ?
ATTY. O'BRIEN: Tha a he fi
ne n hi di k,
Y
H n .
THE COURT: F
he ec d I belie e ha i he call
da ed 12-2-11, call ime 20 h
35 min e . The
ec ded
i n i 2 min e and 14 ec nd in
ha
call, h
gh 4 min e and 26 ec nd f
ha call.
ATTY. O'BRIEN: Tha ' c ec , Y
H n .
THE COURT: All igh . G ahead.
DIRECT EXAMIANTION BY ATTY. O'BRIEN:
Q
N , M . B gg,
e e eaking n ha
h ne call. C ec ?
A
Ye .
Q
C ld
e lain ha
e e
e e
a ing?
A
T m
I a elling m i e
e
m ch ha
h
I
hi
ca e he a
ied ha I a
g nna ge like, 60 70 ea ,
I a j
elling he ,
like, , e e hing g nna be all igh and I migh ha e
ble i
f
i n a li le.
Q
S
hen
aid, ki , ha e e
efe ing
?
A
I a alking ab
m ne b I a n g nna I
a j
a ing ha
he didn
a m ch a he

A171
a

ing.

[36] Q Oka . And hen

e a ing

efe ed Vance Wil n?
A
Ye .
Q
And him - him aking he cha ge?
A
Well, elling he
h.
Q
Telling he
h.
A
Ye .
Q
Tha he did he h ing.
A
Tha
ATTY. SERAFINI: I m g nna bjec
he leading
e i n , hi i di ec
THE COURT: The e leading.
ATTY. SERAFINI: - e am
BY ATTY. O'BRIEN:
Q
Well, ha
ha d
mean b
A
Telling he
Q
- aking he cha ge?
A
h n ha ha ened, e i d. I a n , like,
he j
I fel like he didn ell he
h,
Ij
an ed him
ell he
h.
THE COURT: I hi he ec nd call, A
ne O B ien?
ATTY. O'BRIEN: Ye , Y
H n .
Thi i call 12 2 11 a 20:35, hich
ld be 8:35
in he e ening, 7 06 h
gh 9 10 in
THE COURT: Oka .

[37] ATTY. O'BRIEN: - he leng h.
(The ec ding la a f ll
MR. BUGG'S SISTER: Wha kind f jail a
name in?
MR. BUGG: Wh ?

:)
ha

hi

A172
MR. BUGG'S SISTER: Vance.
MR. BUGG: Vance.
MR. BUGG'S SISTER: H h?
MR. BUGG: He
he he nigga?
MR. BUGG'S SISTER: Yeah, ha kind f jail he in
he e he ge
ea eg la cl he ?
MR. BUGG: Oh, n , he j
came f m d n
h.
MR. BUGG'S SISTER: Nigga he a in jail d n he e.
MR. BUGG: Yeah, b
he
he j
ga e him me
cl he j
an fe him, like, he d n
he d n
gi e I g e
he cl he ha he g nabbed in
babl .
The
k hi
he
k hi d ed ff, e e hing.
MR. BUGG'S SISTER: Oh,
, he
MR. BUGG: Y , ha
ha nigga a la ghing,
(indi ce nible) ha nigga a
ild in - I m like I m like,
h
m ch ime he
ing gi e
? I m like 30.
H
m ch he
ing gi e S ack ? I m like 40. He
aid, dam, he g nna
hang me. He a ed
la ghing. I m l king a hi nigga like, h,
d n gi e
a f ck. [38] Thi nigga c a .
MR. BUGG'S SISTER: I ha nigga e a ded, he he
babl
he
babl didn g i all and he can ake
me f cking
he can ha e him d ing me
e f
ch hi , like
MR. BUGG: Tha nigga ei d a f ck, ha nigga a
la ghing and he h k. I m
MR. BUGG'S SISTER: I d n hink
MR. BUGG: I mean
MR. BUGG'S SISTER: - he nigga a b il f
ha
he hink he can g d n
h d ing hi like ha ,
ge a a
i h i , c me
he e and d ha hi ,
d n
d ha . Y d n d ha .

A173
MR. BUGG: I ld ha nigga , I m I ld ha nigga , I m
g nna ake ca e f him h ld him d n like
,j
be
ea , kee
head , I m n g nna h ld
d n
b MR. BUGG'S SISTER: E ac l
g
ell him ha
n il
g
he inf , ha ji e, ha d mb hi , b if
he illing hel
,b ,
g
d
ha
g
d , he illing
ake e e hing,
g
d
ha
g
d .
MR. BUGG: Tha
ha I aid alk
b he .
MR. BUGG'S SISTER: And he - and he hel
,
nigga ,
g a hel him
MR. BUGG: He ain e en hel ing, he elling [39] he
h, nigga .
MR. BUGG'S SISTER: Well, eah, b ac all he
aking he c ld be a g im -a nigga and lie, like
MR. BUGG: Yeah,
igh .
MR. BUGG'S SISTER: Y feel me?
MR. BUGG: Hell, eah.
MR. BUGG'S SISTER: S
g hel him
,
, like.
MR. BUGG: Tha
ha I aid, he g
alk
MR. BUGG'S SISTER: Yeah.
MR. BUGG: kn
ha I m a ing, make
e he
n he ame age,
kn
ha I mean?
(The ec ding
ed he e.)
BY ATTY. O'BRIEN:
Q
Y
e e efe ing Vance Wil n?
A
Ye .
Q
Can
e lain ha a aid d ing ha
c n e a i n?
A
I
e
m ch he ame hing, like, I didn
a he ime I didn ead I didn ha e hi
a emen ,
I

A174
didn
I had i , b I didn ead i ,
I I a n
e
ha he a a ing. And I a a ing ha he h ld j
ell he
h in ead f j
j
ing c e hi
n
elf, like a ing
ell ha eall ha ened.
Q
Oka . Y
a
had hi
a emen ,
kne [40] ha he a g nna a
A
Yeah, b I a n
Q
- i a in hi
a emen .
A
-I a n
e if he a g nna ge a deal
ha
h
he a g nna g ab
hi ca e.
Q
S
ha
e a ing i ha
had hi
a emen ,
ead hi
ATTY. SERAFINI: Objec i n
he leading e i n .
THE COURT: I leading, c n el.
ATTY. O'BRIEN: Oka .
THE COURT: S ained.
BY ATTY. O'BRIEN:
Q
Y
aid
had hi
a emen .
A
Ye .
Q
Did
ead i ,
kne
ha he a
g nna a .
A
Ye .
Q
S
e e
elling
ha e e
elling him
d ?
A
T ell he
h.
Q
And ha n
ha in hi
a emen . C ec ?
A
N .
Q
And
aid me hing ab
h ld him d n,
ha
ha d e ha mean?
A
Ab
he ame hing i h he he m ne
hing. I a
I a j
a ing ha
m i e didn

A175
a [41] m ch ab
he ime ha I a ge ing.
Q
B
an ed him
ell he
h.
A
Ye .
Q
And and i h e ec
he he h ne call,
men i ned meb d
i h a ed
ed d eg I belie e
i a , h
a ha ?
A
Sade.
Q
And
indica ed ha
an ed he
ell he
h?
A
Ye .
ATTY. O'BRIEN: Thi i he hi d ne,
Y
H n , i 12 2 a 21:07 h
gh and i
a
ima el 20 20 ec nd l ng.
(The ec ding la ed a f ll
:)
Thi i Gl bal Tel Link, hi call igina e f m a
C nnec ic De a men f C ec i n facili and ma
be ec ded
m ni ed. I ha e a c llec call f m, B gg,
an inma e a MacD gall C ec i nal In i i n.
MR. BUGG: Yeah, ell, and I een hi nigga .
A VOICE: Wh ?
MR. BUGG'S SISTER: The he nigga .
MR. BUGG: Yeah, kn
ha I mean. He ld me ha
Vance ge ha nigga me ki
and e e hing g nna
be g d. Y feel me?
(The ec ding
ed he e.)

[42] BY ATTY. O'BRIEN:
Q
A
Q
A
m ne

M . B gg
Ye .
- in e e ha c n e a i n.
I
he ame hing a he he
ab
ha e e . And I a j
a ing ha

me
m

A176
i e didn
a m ch.
Q
S
e elling
i e ha
ge
me
ki
ATTY. SERAFINI: Objec i n
he leading
THE COURT: I leading, c n el.
ATTY. O'BRIEN: All igh .
THE COURT: S ained.
BY ATTY. O'BRIEN:
Q
Can
e lain i an f he , in e m f h
ha g nna hel
hel
i e ?
A
Well,
ell he ha i kind f
ell, i n
ha d e lain, b I d n' ee ha
e
ing
ell
me d . B
he nl hing I c ld e lain i ha I a
j
elling he ha e a g nna
ell, eah, I a
g nna gi e him me m ne b I eall
a n ,I a j
a ing ha ,
he didn
a m ch and he didn
hink ha I a g nna be in jail, like, f 60 ea
ha e e .
ATTY. O'BRIEN: Thi i he f
h ne,
Y
H n , i 2 1 12 a 19 28 and i a
ima el 12 ec nd , ma be?
(The ec ding la a f ll
:)

[43] Thi i Gl bal Tel

hi call igina e f m a
C nnec ic De a men f C ec i n facili and ma
be ec ded
m ni ed. I ha e a c llec call f m, B gg,
an inma e a MacD gall C ec i nal In i i n.
MR. BUGG: If hi nigga c me
c
and e if hen
e e hing h ld be
aigh . I g
ge in
ch
i h ha d mb-a bi ch Sade,
, beca e he g a ge
and e if
and ell he f cking
h in ead f
al a f cking l ing all he ime.
(The ec ding
ed he e.)

A177
BY ATTY. O'BRIEN:
Q
M . B gg, in e e ha c n e a i n, ell
ab
ha c n e a i n.
A
I a j
e
m ch
ing
ell Sade
c me c
, ge in
ch i h he ,
he c ld c me
and ell he
h ab
ha ha ened.
ATTY. O'BRIEN: Thi i he fif h call, Y
H n ,i 2
14 12 a 14:05, hich
ld be 2:05 in he af e n n. I
a
ima el
I hink i
hi i , like, a half half a
min e, 30 ec nd .
(The ec ding la a f ll
:)
Thi i Gl bal Tel Link, hi call igina e f m a
C nnec ic De a men f C ec i n facili and ma
be ec ded
m ni ed. I ha e a c llec [44] call f m
an inma e a Ga ne C ec i nal In i i n.
A VOICE: I d n e en ee him a
nd, nigga , I een
F ea
nd e e da l king all ei d and hi .
MR. BUGG: Y
a
i h F e, b , ha
he f ck
a e
d ing i h ha nigga , b ?
A VOICE: I didn a I a
i h him, I aid I een
him, nigga .
MR. BUGG: Oh, I h gh
aid
a
ih
him.
A VOICE: Hell, n , nigga he f cking
(indi ce nible).
MR. BUGG: Y , I m ab
I m ab
ge a
c
f he a emen
and end hem hi h me.
A VOICE: All igh . All igh . Yeah.
MR. BUGG: Nigga g a
me hi
n he
lam
he
ee lam
I mean, he
ee ligh .
(The ec ding
ed he e.)
BY ATTY. O'BRIEN:

A178
Q
A
l ing
ell he
Q
Ma
i

M . B gg, can
e lain ha call?
I a a ing ha j
ge him - in ead f
h
him ha if
g nna lie,
migh a
ell
h, in blank, e i d, j
ell he
h.
N , ha a
ela i n hi
i h M . F e,
e F e, back

[45] A He m
Q
A
Q
A
Q
A
Q
A
Q
A

- in Jan a
f 2010?
We a n c l.
Well, e lain ha , h
Well
- e en
c l?
- ca e he
le f m me.
He
le f m
?
Ye .
He
le ha ?
I can
I lead he fif h n ha .
Q
Did he eal m ne ?
ATTY. SERAFINI: Objec . N THE COURT: C n el
ATTY. SERAFINI: Objec i n.
THE COURT: C n el, he in ked hi
i ilege, n
f he
e i ning in ha a ea i e mi ible.
ATTY. O'BRIEN: All igh .
BY ATTY. O'BRIEN:
Q
Did he
he han ha ime, a he e an he
ime ha he
le?
A
Ye .
Q
And ha
ha did he eal?
A
I can an e ha . Plead he fif h n ha .

A179
ATTY. SERAFINI: I m g nna bjec . Can
ideba ?

e ha e a

[46] (A ideba

cc
ed he e.)
THE COURT: Le c n in e.
BY ATTY. O'BRIEN:
Q
N , M . B gg, did
ha e a ca ha a
a c a hed?
A
Ye .
Q
And did M . F e d
ATTY. SERAFINI: Objec i n
ATTY. O'BRIEN: - an hing
ha ca ?
ATTY. SERAFINI: he leading e i n .
THE COURT: S ained.
BY ATTY. O'BRIEN:
Q
Wha
ha ha ened i h ha ca ?
ATTY. SERAFINI: Objec i n. Wha
he ele ance?
THE COURT: Wha i he ele ance, c n el?
ATTY. O'BRIEN: The ele ance i
ha M . F e did
i h he ca .
ATTY. SERAFINI: Wha
THE COURT: The bjec i n i
ained. I n
ele an
hi
ceeding. S ained.
ATTY. O'BRIEN: Y
H n , I bmi ha i i beca e
I
THE COURT: C n el, I e led. Plea e m e n
he ne
e i n.
ATTY. O'BRIEN: Did
THE COURT: I d n
an f he a g men . [47]
Plea e c n in e.
BY ATTY. O'BRIEN:
Q
Did he eal an hing?

A180
ATTY. SERAFINI: Objec i n.
THE COURT: All igh . Ladie and gen lemen, e
f j
a ec nd, lea e. J
in he hall a , Linda.
(The j
e i ed he c
m.)
THE COURT: A
ne O B ien, he ne
e i n I hea
ha I de e mine be
all ina
ia e, I ill
ceed
acc dingl . D
nde and?
ATTY. O'BRIEN: Ye , I d , Y
H n . H e e , I had
I hink I h ld
THE COURT: C n el, ha i he end f he di c
i n.
B ing he anel back in. D n g he e.
ATTY. O'BRIEN: Y
H n ,j
if
THE COURT: G ahead.
ATTY. O'BRIEN: - if I migh be hea d n hi n he
ec d? Thi d e n im lica e hi 5 h Amendmen igh .
I hink
THE COURT: C n el
ATTY. O'BRIEN: - I d n kn
if hi la e kn
ha .
THE COURT: - le me le me le me in e
.
E in ic e idence, i h e ec
[48] an he i ne ,
i n admi ible nde
C de f E idence. The e
e i n , in m
ini n, ela e e in ic e idence
ab
an he a , i n admi ible, he ef e I d n
an he e i n a ked, d
nde and?
ATTY. O'BRIEN: Ye , I nde and, b I an
la he
ec d. Thi
i ne had i
edl he i ne
ha
ld Ma
i e F e all f he inf ma i n ab
ha cc ed n Jan a 18 h, 2010
THE COURT: Then call
ATTY. O'BRIEN: - hile
hile he e d i ing a
nd
m king a j in .
THE COURT: Y can a k M . F e h e e i n .

A181
Thi i e in ic e idence, i n
e mi ible nde he
le . Am I clea ?
ATTY. O'BRIEN: Ye .
THE COURT: B ing he anel back in.
(The j
anel een e ed he c
m.)
THE COURT: Oka . E e b d back, le c n in e
i h he e i ning. I hi N mbe 6 n , c n el,
lea e?
ATTY. O'BRIEN: Ye .
THE COURT: Thank
.
ATTY. O'BRIEN: I m
.
(The ec ding la ed a f ll
:)
MR. BUGG: He , , b , I m alking I een hi nigga
he he da , like, [49] hi nigga a
me ld ink
(indi ce nible) hi , b .
A VOICE: Wh .
MR. BUGG: M m he f cking
he nigga ha
ih
Ma
i e ( h ne ic elling) and hi .
A VOICE: Wh ?
MR. BUGG: The nigga
he nigga
eah, he a
me
ild
id d n
h
e hi like, ha .
A VOICE: Wha he a ?
MR. BUGG: Y kn
he a
hi like he ain g ing
d n al ne. Wha .
A VOICE: The ne - he ne i h he d ed ?
MR. BUGG: Yeah, b I m like, nigga ,
n
n,
nigga
n
aking all f
d n, nigga , I d n gi e a
f ck ha
alking ab
b dd ,
d ne.
A VOICE: Y
nl g a min e lef
be e h
.
MR. BUGG: Yeah.
A VOICE: Y ,
a f nn g -

A182
MR. BUGG: I m n a call call igh back A VOICE: M hi m hi g nna die, I ll call la e .
MR. BUGG: Yeah, b f ck i , h gh. I m like I m like,
ha
mean b ha , he like, I m n g ing d n. I
aid, m nigga ,
ld n [50]
elf, m nigga ,
like Fl a e ( h ne ic elling).
(The ec ding
ed he e.)
BY ATTY. O'BRIEN:
Q
M . B gg, can
ell
ab
ha
c n e a i n?
A
Well, Vance e
m ch a
ing b ing
e e b d d n i h him and I a
ell, hen I had
een him I a , like, ,
migh a
ell j
ell he
h in ead f
ing b ing e e b d el e d n,
beca e
did me d mb hi . E c e me.
Q
And
nde anding f he
h a
ha ?
A
Well, f m ha I kn
f - I didn ee i b he
I g e did i and I fel ha he a
ing b ing
e e b d el e d n and a ha
me hing el e
all
diffe en ha ened, j
a e hi elf.
Q
All igh .
ATTY. O'BRIEN: We e n 7 Y
H n . I 2 14 12,
a ing a 7:59, i a
ima el 24 ec nd .
(The ec ding la ed a f ll
:)
Thi i Gl bal Tel Link. Thi call igina e f m a
C nnec ic De a men f C ec i n Facili and ma
be ec ded
m ni ed. I ha e a c llec call f m an
inma e a Ga ne C ec i nal In i i n.
MR. BUGG: I mean, beca e I can in in
I can
I
can
and m
a emen d n a ha , [51] ha I aid
h did ha , h did hi , all I aid a
meb d
ld
me hi and meb d
ld me ha , ha n
ha n

A183
en gh c n ic
meb d
he nl hing ha , ha
eall ma e
ha he can - Vince he aid e e hing
like he (indi ce nible)
A VOICE: Yeah.
MR. BUGG: I hink he d ne ld n hi dam elf he
d mbe f ck.
(The ec ding
ed he e.)
BY ATTY. O'BRIEN:
Q
M . B gg, can
in e e ha c n e a i n,
ha e e
ha e e
meaning
a in ha
c n e a i n?
A
Well, I a alking m m m and I a a ing
ha , like, he ld n hi elf, b in a a he ied b ing
e e b d
i h him, like, I g e he fel ha he a n
making n
making i
fi ,
he fel like i a
nl igh
j
b ing e e b d d n i h him.
Q
N ,
ecei ed a 25- ea en ence.
C ec ?
A
Ye .
Q
N ,a e
e if ing he a
e e ified
beca e
an
ATTY. SERAFINI: Objec i n
ATTY. O'BRIEN: - ge back a he S a e?
ATTY. SERAFINI: he leading.

[52] THE COURT: I

lead

c

n el, i

leading.

S ained.
BY ATTY. O'BRIEN:
Q
D
ha e an
ej dice again
he S a e?
A
N .
Q
S
d n h ld he S a e e
n ible f
ge ing a 25- ea en ence?
A
I h ld m elf e
n ible.

A184
Q
F
f
ha
h i ha ?
A
Beca e I a
Ic
ed
he ime, he
didn gi e
ell, he ga e i
me b I
k he ime.
Q
And h did
c
?
A
Beca e I a in a h le, I
m elf in a h le
and I didn feel like g ing
ial beca e I a n
e
h
e e hing a g nna
k
.
Q
And ha d
mean h
e e hing a
g nna
k
A
I didn
Q
- g ing
ial?
A
- I fel ha I a g nna ge m e ime,
Ij
k he 25 ca e I fel ha i a . . .
Q
And
le ha nigh
ell,
e ej
d i ing he ca . C ec ?
A
Ye .
Q
Did
kn
ha
ha
ATTY. O'BRIEN: Well, i hd a n.
BY ATTY. O'BRIEN:
Q
Wha a
nde anding a
ha a
g nna ha en hen he g
f he ca ?
A
Sa ha again.

[53] Q Wha

a
nde anding a
ha a
g nna ha en hen he g
f he ca ?
A
I h gh he
a g ing ge
me eed.
ATTY. O'BRIEN: Ma I ha e a m men , Y
H n ?
THE COURT: Plea e.
BY ATTY. O'BRIEN:
Q
N ,
e e in he ca a he ime ha
hea d h . C ec ?
ATTY. SERAFINI: Objec i n
he leading e i n .

A185
THE COURT: C n el, i leading. Y can lead he
i ne , i
i ne ,
can lead him.
ATTY. O'BRIEN: Well
BY ATTY. O'BRIEN:
Q
Af e
d
ed him ff he e did
g , af e
he g
f he ca
b
eed, he e
A
I
Q
- he e did
g ?
ATTY. HUTCHINSON: Ma I j
ha e a m men ?
THE COURT: Plea e.
(C n el and he i ne c nfe ed he e.)
THE WITNESS: I lead he fif h n ha .
ATTY. O'BRIEN: I m
?

[54] THE WITNESS: I lead he fif h n ha .
BY ATTY. O'BRIEN:
Q
D
kn
he e he h ing
k lace?
A
N .
Q
Y d n . And h i ha ?
A
Ca e I a in a ca .
Q
And he e a he ca a ha
in ?
A
Plead he fif h n ha .
(C n el c nfe ed i h he cle k.)
BY ATTY. O'BRIEN:
Q
M . B gg, d
emembe being a ked b he
S a e ab
a h g a h f he a ea?
ATTY. SERAFINI: Can e ha e a hen
THE COURT: We need
ATTY. SERAFINI: - a hi a he ial, a he HPC, e
need a da e.
ATTY. O'BRIEN: Well, le me I ll i hd a he
e i n.

A186
BY ATTY. O'BRIEN:
Q
Did
a ma k n a h g a h be een
B ilding 1 and B ilding 2?
A
Ye .
Q
D
emembe ha ? I ha
A
Ye .
Q
-a e ?
A
Ye .
Q
N , he e
e e
he e hen he h
e e [55] fi ed,
e e
he e - i ha he e
d e ?
A
Plead he fif h.
Q
N , M . B gg, a he
bable ca e hea ing,
e e
e if ing in f
he
e f ge ing a deal?
A
Ye .
Q
S a he
bable ca e hea ing ha a n he
h. C ec ?
ATTY. SERAFINI: Objec i n
he
THE COURT: Again
ATTY. SERAFINI: - leading e i n .
THE COURT: - he j
h ld i a leading e i n,
c n el
ATTY. O'BRIEN: All igh .
THE COURT: S ained.
BY ATTY. O'BRIEN:
Q
Wa ha he
h?
A
I lead he fif h.
ATTY. O'BRIEN: N hing f he , Y
H n .
THE COURT: C n el, d
i h in i e?
ATTY. SERAFINI: Ye .
CROSS EXAMIANTION BY ATTY. SERAFINI:

A187
Q
M . B gg,
didn ge he deal ha
had
ag eed
i
he
bable ca e hea ing, did
?
A
N .
Q
And hen
j
e ified ha i a
nde anding hen he g
f
f he ca ha
he
e e ge ing
ge eed ha n
ha
[56]
e ified a he
bable ca e hea ing n A g
30 h,
2011, i i ?
A
Plead he fif h.
Q
The fi
c n e a i n ha
ha a la ed
f
in hich
e alking ab
gi ing ha nigga
me ki , he ll ake i ,
e alking ab
Vance
Wil n. Righ ?
A
Ye .
Q
And ha c n e a i n
e eaking
i e . Righ ?
A
Ye .
Q
And
indica ed in ha , ha he e n ha
efe
a ld gi l i h ed hai i Sade S e en
i
ha Shanika Ke ?
A
Sade.
Q
And Shanika Ke
c
in. Righ ?
A
I aid Sade.
Q
I kn , b
e ified e i
l ha Shanika
Ke i
c
in. Righ ?
ATTY. O'BRIEN: Objec i n, Y
H n ,i
THE COURT: Ba i ?
ATTY. O'BRIEN: - i
ide
THE COURT: I
ide
ATTY. O'BRIEN: - he c e.
THE COURT: - he c e. S ained.
BY ATTY. SERAFINI:

A188
Q

And in
a emen
i e
ld he
[57]
in
c n e ai n ih
i e
ld
he ha
e e g nna gi e he m ne
Vance Wil n
af e e e hing a
e , c ec , e
A
Ye .
Q
- n ?
A
Ye .
Q
And in he ec nd call, hen
alk ab
h lding ha nigga d n
e again efe ing Vance
Wil n. C ec ?
A
Ye .
Q
And h
e e
alking in ha ec nd call?
A
I belie e i a m i e .
Q
Y
i e ?
A
Ye .
Q
Y
nl ha e ne i e . Righ ?
A
Ye .
Q
And in he hi d call, hen
alked ab
gi ing ha nigga me ki
and e e hing ill be g d,
again
e alking ab
Vance Wil n?
A
Ye .
Q
D
ecall e if ing a hi
ceeding n
Feb a 14 h, 2013. Y
e e a ked he e i n ab
he he
n if I gi e ha nigga me ki
e e hing
ill be g d. D
ecall elling ha
i e ?
Thi i me a king
he e i n. An e : I d n
emembe . Q e i n: Y d n emembe ? Ki
ld
be m ne . Righ ? An e : I d n' kn .

[58]
n
A
Q

S a e
a ing ha
e im n
da ,
kn
ha ki
i m ne ?
I lead he fif h.
And in
f
h h ne c n e a i n n

A189
Feb a 1 , 2012
e alking ab
ge ing in
ch
i h Sade and ha i Sade S e en . C ec ?
A
Ye .
Q
And
j
e ified ha
ld
and ge he
c me c
,
ha e a la e
ha
c ld d ha f
. C ec ?
ATTY. O'BRIEN: Objec i n, Y
H n .
THE COURT: Ba i ?
ATTY. O'BRIEN: A
a
ha he la e can d f
him.
ATTY. SERAFINI: In ge ing in
ch i h a i ne
ha
he e i n.
THE COURT: N . O e led. An e he e i n if
can.
The e i n i d
ha e a
BY ATTY. SERAFINI:
Q
Y ha e a la e ha c ld ge in
ch i h a
i ne f
. Righ ?
A
Ye .
Q
Y didn need ge in
ch i h he i ne .
Righ ?
A
Ye .
Q
In he fif h h ne c n e a i n
aid
e e [59]
ing ge c ie f he a emen and
ended
ge ing c ie f all h e a emen , didn
?
A
Alf d Da id.
Q
I I d n hea
.
A
Alf d Da id.
Q
Im
.
THE COURT: Affida i .

A190
BY ATTY. SERAFINI:
Q
Y g
he affida i ?
A
Yeah.
Q
Oka . And
g
h ef m
a
ne .
Righ ?
A Ye .
Q
And
had h e i h
in jail. Righ ?
A
Ye .
Q
And
h ed h e
he e le in jail,
didn
?
A
N .
ATTY. O'BRIEN: Objec i n.
THE COURT: Ba i ?
ATTY. O'BRIEN: Rele anc .
THE COURT: S ained. I
ide he c e, i n
ele an . S ained.
BY ATTY. SERAFINI:
Q
In he i h h ne call
e alking ab
ld
b , ha Vance Wil n, i n i ?
A
Ye .
Q
And in ha i h call and in he e en h call,
hen [60]
e e alking ab
M . Wil n
aid
me hing
he effec ha he a
ld n him elf, he
a
ing b ing e e ne d n. C ec ?
A
Ye .
Q
B
a emen a gi en
hi
he
i en a emen gi en
he Wa e b
P lice, a
gi en bef e M . Wil n
a emen . C ec ?
A
Ye .
Q
And
ld n
elf in ha
a emen .
C ec ?

A191
A
Ye .
Q
N ,
e ified a he
bable ca e hea ing
nA g
30 h, 2011. C ec ?
A
Ye .
Q
And all f h e h ne c n e a i n ha e
hea d
k lace af e
e ified in he
bable ca e
hea ing. C ec ?
A
I d n emembe he ac al da e.
Q
Well, he fi
h ee call ha
hea d
k
nd
nd
lace n Feb a 2
e c e me, n Decembe 2 ,
2011,
ha
ld be af e A g
f 2011. C ec ?
A
Ye .
Q
And hen he ne f
all
k lace in Feb a
f 2012. S h e e e all af e
had al ead e ified
a he
bable ca e hea ing. C ec ?
A
Ye .
Q
And d ing ha ime e i d hen h e h ne
[62] c n e a i n e e being ec ded,
e e
inca ce a ed i h M . Wil n. C ec ?
A
Wha
mean b
i h him?
Q
Y
e e inca ce a ed in he ame facili a
M . Wil n.
A
N all f hem.
Q
S me f hem.
A
Ye .
Q
I mean, a
me in in ime
e e
inca ce a ed i h Vance Wil n in he ame c ec i nal
facili . C ec ?
A
Ye .
ATTY. SERAFINI: C ld I j
ha e a m men ?

A192
BY ATTY. SERAFINI:
Q
I h
M . B gg ha ha been ma ked S a e'
E hibi 22 and
ec gni e ha a
a emen .
C ec ?
A
Ye .
Q
And
ead ha
a emen back n Feb a
h
10 , 20 and
ATTY. O'BRIEN: Y
H n , I m g nna bjec .
ATTY. SERAFINI: - 11. C ec ?
THE COURT: Ba i ?
ATTY. O'BRIEN: I d n
I d n ee ha hi being in
he c e f
THE COURT: I
ide he c e. S ained.
BY ATTY. SERAFINI:

[62] QWell, in he fif h call ha

alk ab
e
he a emen

efe ing M . F e and
alk ab
f M . F e. Righ ?
A
Ye .
Q
Y had c ie f h e. C ec ?
A
Ye .
Q
And
an ed ge h e
f iend
ha he
ld kn
ha M . F e aid in hi
a emen .
ATTY. O'BRIEN: Yeah, I m
ATTY. SERAFINI: C ec ?
ATTY. O'BRIEN: - g nna bjec . Thi
THE COURT: Ba i ?
ATTY. O'BRIEN: - ha al ead been a ked and an e ed
ATTY. SERAFINI: N , i ha n .
ATTY. O'BRIEN: - if
efe ed
ha he had he
affida i -

A193
THE COURT: S ain he bjec i n
ATTY. O'BRIEN: - hich e c n ained.
THE COURT: ha
e i n. He aid he had an
affida i , he an e ed ha
e i n.
BY ATTY. SERAFINI:
Q
Oka . Y had an affida i f Ma
i e F e?
A
Ye .
Q
And hen
alk ab
ha , i i like ha
ha e in f n f
?
A
Ye .
Q
Oka . And ha
ha
an ed ge
[63] f iend , igh ,
he
ld kn
ha
Ma
i e
ha he d gi en in hi
a emen .
A
Ye .
Q
Tha
ha
e e alking ab
. C ec ?
A
Ye .
Q
The affida i f Ma
i e F e. Righ ?
A
Ye .
ATTY. SERAFINI: C ld I j
ha e a m men ?
THE COURT: Plea e.
BY ATTY. SERAFINI:
Q
When
a
hen
alk ab
ing
hem
n
ee ligh ,
mean
ing hem
na
ligh
e e b d in he neighb h d c ld ead
ha M . F e aid
he lice. Righ ?
A
I a la ing.
Q
Sa
ha ?
A
I a la ing.
Q
I can hea
.
A
Pla ing.
Q
Y
e e la ing?

A194
A
Yeah.
Q
Didn
an M . F e c me in and a he
a c e ced in gi ing ha
a emen ?
A
I an ed him
ell he
h.
Q
Didn
ell didn
a ne in in ime
a
an ed him c me in and a he a c e ced,
e
n ?
A
Ij
ld
I an ed him
ell he
h.

[64] Q Didn

ha e a h ne c n e a i n n
Feb a 14 2012 in hich
called
m he
n mbe and
hi
a a 7:59 .m. h ne call and
ld he ha
needed
alk F e
ATTY. O'BRIEN: Objec i n, Y
H n , hi i
a
ide he
THE COURT: I
ide
ATTY. O'BRIEN: - c e.
THE COURT: - he c e. S ained.
BY ATTY. SERAFINI:
Q
D
ecall
ATTY. SERAFINI: Well, ma I ma
ea
ach,
Y
H n ?
THE COURT: C n el, I e led. N
ATTY. SERAFINI: B
THE COURT: - n hi i
e.
ATTY. SERAFINI: Ma
ma
ea
ach?
THE COURT: Oka .
(Sideba cc ed he e.)
BY ATTY. SERAFINI:
Q
M . B gg, did
e e a an
in in ime
h ea en M . F e?
ATTY. O'BRIEN: Objec i n.
h,

A195
THE COURT: Ba i ?
ATTY. O'BRIEN: I hink ha
ide he c
ATTY. SERAFINI: I c
e amina i n -

e.

[65] THE COURT: I ll all
ATTY. SERAFINI: - and
THE COURT: - hi
e i n.
THE WITNESS: Plead he fif h.
BY ATTY. SERAFINI:
Q
Plead he fif h?
A
Ye .
Q
And did
e e di c
e im n
ih
an
he e n be ide
a
ne
ATTY. O'BRIEN: Thi i
ATTY. SERAFINI: - in hi
THE COURT: S ained. I
ide he c e f he
di ec e amina i n. S ained.
ATTY. SERAFINI: Well, i g e
bia , J dge, and i
g e
THE COURT: I
ide he c e. I e led. Plea e
c n in e.
ATTY. SERAFINI: Thank
.
BY ATTY. SERAFINI:
Q
Y
e ified ha
ha e n
ej dice again
he S a e beca e
h gh
e e g ing ge m e
ime
didn feel like g ing
ial beca e
h gh
e e g nna ge m e ime beca e
e e
he d i e , i ha
e im n ?
A
Ye .
Q
And
and i
e im n ha
ha e
n
feel n
ej dice again
he S a e,
e en [66]
e ab
he fac ha
e en ge ing

A196
he deal ha
had iginall ag eed
i h he S a e?
A
N .
Q
Y
e e ha
e e ge ing 25 ea , i
ha
e im n ?
A
I m n g nna g
ial and ge m e ime.
Q
B
c ld ha e had he
ni
ge
le
ime han he 25. C ec ?
A
Ye .
Q
And ha ma ha
igned f
he Wa e b
P lice
ha a n he da
ga e
a emen . C ec ?
A
Ye .
ATTY. O'BRIEN: Y
H n , I m g nna bjec
ha
THE COURT: C n el,
ATTY. O'BRIEN: - en imen , he
THE COURT: a ked ab
hi ma .
ATTY. O'BRIEN: N , b in e m he ga e a a emen , I
hink ha mi cha ac e i e . He aid he igned he
a emen .
THE COURT: Oka . I hink he a emen a igned,
e ha e m.
BY ATTY. SERAFINI:
Q
I m h ing
S a e' E hibi 26, hi i he
ma ha
igned ble
n Feb a 10 h, 2011.
C ec ?
A
Ye .

[67] Q And ha

a igh af e
e c e me, ha
a bef e
igned S a e' E hibi 22. C ec ? Y
igned hi fi . Righ ?
A
Signed ha fi , hi ne he e?

A197
Q
The ma .
A
I belie e I igned
ATTY. O'BRIEN: Y
H n
THE WITNESS: - hi ne.
ATTY. O'BRIEN: - I m g ing
bjec . I - I hink hen I
a ked he e e i n i
he a leading he fif h, , I
mean, I hink he e
he e a balance he e a
balance he e.
ATTY. SERAFINI: I d n hink , J dge.
THE COURT: N , c n el, I di ag ee. An e he
e i n if
can.
BY ATTY. SERAFINI:
Q
W ld i ef e h
ec llec i n l k a he
he a emen
ee he he
n
igned he ma
fi
he a emen ?
A
I n g nna make a diffe ence. I belie e I
igned he a emen .
Q
Y
hink
igned he a emen fi
and
hen he ma ?
A
Ye .
ATTY. O'BRIEN: Y
H n , I m g ing
bjec
beca e
ATTY. SERAFINI: Oka .

[68] ATTY. O'BRIEN: - he ele ance f he a emen
d e n ha e an hing d
i h
i h ha I en in
n m di ec e amina i n.
THE COURT: The e a n di c
i n f ela i n hi
be een he a emen and he ma . S ained.
BY ATTY. SERAFINI:
Q
Oka . S n
da
e ified
e e
he e n Manhan S ee n Jan a 18 h, 2010 b
eed, b
ha i n
ha
ld he lice n Feb a

A198
10 h, 2011. C ec ?
ATTY. O'BRIEN: Y
H n , I m g ing
bjec
ha .
THE COURT: Ba i ?
ATTY. O'BRIEN: I
ide he c e.
ATTY. SERAFINI: N , i
THE COURT: N , ha n
ide he c e.
THE WITNESS: Plead he fif h.
THE COURT: Y can an e
All igh . I n
ide
he c e. The i ne ha e
nded.
ATTY. SERAFINI: I e n f he
e i n ,Y
H n .
THE COURT: An hing f he ?
ATTY. O'BRIEN: Ye , Y
H n .
REDIRECT EXAMINATION BY ATTY. O'BRIEN:
Q
N ,
e e a ked a e i n ab
elling n [69]
elf?
A
Ye .
Q
Wh did
ell n
elf?
A
Sa ha again.
Q
Wh did
edl ell n
elf?
A
T ge a deal. Well
Q
Oka .
A
- I didn eall ell n m elf, I j
ag eed
ha a
i en d n and I a g nna ge a deal in
e n.
Q
Oka . And
igned i .
A
Ye .
Q
And
e ec ed ha e a deal?
ATTY. SERAFINI: Objec i n,
he leading
THE COURT: Again
ATTY. SERAFINI: - e i n .
THE COURT: - c n el,
e leading he i ne .

A199
S ained. Y can d ha , i
i ne .
BY ATTY. O'BRIEN:
Q
N , af e
e ified a he HPC,
hea ing in
bable ca e, did
ha e a deal a ha
in ?
A
I ill did, e .
Q
Oka . And ha
in did he deal g ff?
ATTY. SERAFINI: Objec i n. I hink hi i
ide he
c e.
THE COURT: Whe e a he
he e a ha di c
ed
in he c
e am

[70] ATTY. O'BRIEN: Well, he e a

efe ence

he

hea ing in
bable ca e, Y
H n .
THE COURT: N . S ained. I
ide he c e f
he c
e amina i n, he de ail ,
e g ing in
de ail , ha
ide he c e. S ained.
BY ATTY. O'BRIEN:
Q
N , a he a he hea ing in
bable ca e
ATTY. O'BRIEN: I ll i hd a ha .
BY ATTY. O'BRIEN:
Q
When
a ha
k he 25 ea beca e
h gh
migh ge m e ime
A
Ye .
Q
- c ld
e lain ha ?
A
I a
ell, ha i elf-e lana
i
Ij
didn
an
ge m e ime.
Q
Wh did
hink
e e ge ge ing m e
ime?
A
Beca e ha a he ffe n he able, i a
ei he ha
g
ial.
Q
Oka . And
didn
an
g
ial?

A200
A
N .
Q
Wh ?
A
Beca e I didn
an
ge m e ime and I
al ead b ied m elf f ag eeing
ha a g ing n
and I feel like I
m elf in a h le,
I didn
an
g
ial.

[71] Q Oka . B

b

ha

a

a emen . C ec ?
A
Ye .
Q
And ha
ld
igned ha
e ec ing ge a deal.
A
Ye .
Q
And ha ne e came h
gh.
A
N .
ATTY. O'BRIEN: N hing f he .

igned

a

a emen

RECROSS EXAMINATION BY ATTY. SERAFINI:
Q
Y
igned ha
a emen bef e he e a an
deal n he able. C ec ?
A
N ,I a
ld bef e I igned he a emen ha
I a g nna ge a deal.
Q
And h
h
ld
ha ?
A
I a
ld b
ATTY. O'BRIEN: Objec i n, Y
H n
THE WITNESS: - G iffin a ATTY. O'BRIEN: - ha
ide he c e.
ATTY. SERAFINI: Well THE COURT: N , c n el,
ened hi d .
O e led.
THE WITNESS: I a
ld b G iffin and Ti ad ha I
a g nna ge 5 ea .

A201
BY ATTY. SERAFINI:
Q
And hen a ha ?
A
The da ha I igned he a emen .
Q
S bef e
a ha bef e
igned he
a emen [72]
af e
igned he a emen ?
A
Bef e I igned he a emen .
Q
S bef e
igned he a emen , bef e he
S a e kn
an inf ma i n a all ab
h
eall
in l ed
ATTY. O'BRIEN: Objec i n, Y
H n ,I
ATTY. SERAFINI: - in hi ca e, he
ATTY. O'BRIEN: - hi i
hi i
ATTY. SERAFINI: - S a e i ffe ing
ATTY. O'BRIEN: - me
THE COURT: Well, ha
ATTY. SERAFINI: a deal?
ATTY. O'BRIEN: - hi i a mma i n, Y
H n , hi
i n a e i n.
ATTY. SERAFINI: N , i i a e i n.
THE COURT: S ained. Re h a e he e i n, lea e.
BY ATTY. SERAFINI:
Q
Bef e
igned ha
a emen , bef e he
S a e e en kn
h in l ed in he in he ca e
ATTY. O'BRIEN: Objec i n.
ATTY. SERAFINI: - h e le
THE COURT: C n el
ATTY. O'BRIEN: All igh .
THE COURT: - i a c m
nd e i n. Sing la
e i n
ATTY. SERAFINI: S e.
THE COURT: - lea e.

A202
[73] BY ATTY. SERAFINI:
Q
Y
igned ha
THE COURT: S ained.
BY ATTY. SERAFINI:
Q
- a emen n Feb a 10 h, 2010. C ec ?
A
Ye .
Q
And a ha
in in ime he S a e did kn , a
fa a
ATTY. SERAFINI: Wi hd a n.
BY ATTY. SERAFINI:
Q
A ha
in in ime,
e e he fi
e n
gi e an inf ma i n ega ding ha had ha ened n
Manhan S ee .
ATTY. O'BRIEN: Objec i n, Y
H n .
ATTY. SERAFINI: C ec ?
THE COURT: Ba i ?
ATTY. O'BRIEN: He
ld n kn
if he he fi
e n gi e a a emen .
THE COURT: S ained.
BY ATTY. SERAFINI:
Q
A ha
in in ime he lice had n
he
a emen
ATTY. SERAFINI: Wi hd a n.
BY ATTY. SERAFINI:
Q
Y
e en
h n an
he
a emen b he
h
lice n Feb a 10 , 2010. C ec ?
A
Ye , I a .

[74] Q Oka . Wh e a emen

e e
h n?
A
I a h ed ( ic) Oli han
a emen , Sade S e en
a emen , I a h ed Ma
i e
a emen .
Ac
le f he e le, b n b d ha I eall kne
f.

A203
Q
And Ma
i eF e a n
n Manhan
h
S ee n Jan a 18
ATTY. O'BRIEN: Objec i n, a
ATTY. SERAFINI: - 2010
ATTY. O'BRIEN: - he he Ma
i e
THE COURT: S ained.
ATTY. O'BRIEN: - F e
THE COURT: Tha be nd he c e.
ATTY. SERAFINI: Well, i g e
THE COURT: C n el, I e led.
ATTY. SERAFINI: Oka .
THE COURT: S ained.
BY ATTY. SERAFINI:
Q
N ne f h e e le e e i h
n Jan a
h
18 , 2010, e e he ?
ATTY. O'BRIEN: Objec i n, hi i
THE COURT: Ba i ?
ATTY. O'BRIEN: ide he c e.
ATTY. SERAFINI: N , i n
THE COURT: N
ATTY. SERAFINI: - J dge
*

*

*

MARCH 5, 2013 PM SESSION 52: T
DEFENSE CASE [E ce
]
[C ll
be een C
Vance Wil n,
ide

[1] The f ll

and A
ne f
e ence f j
]

C -Defendan

ing i an e ce
f he
ceeding :)
THE MARSHAL: C
i back in e i n.
Y ma be ea ed.
G d af e n n, J dge.

A204
THE COURT: G d af e n n.
(The defendan en e ed he c
m.)
ATTY. CRETELLA: E c e me, Y
H n ?
THE COURT: Ye ?
ATTY. CRETELLA: Thank
. I D n C e ella.
THE COURT: Ye .
ATTY. CRETELLA: I m he e. I e e en ne f he
i ne e , Vance Wil n. I a c n ac ed b defen e
c n el e e da
be he e a
beca e M . Wil n
ma be aking he and. M . Wil n, i an ici a ed ha
he ill in ke hi Fif h Amendmen igh .
THE COURT: Oka .
ATTY. CRETELLA: All igh . And I j
didn kn
ha -- hen e e e g ing ge
ha
in .
THE COURT: Well, le me -- Le me a k a c
le f
e i n . W ld he in end in ke i h e ec
e e
e i n?
ATTY. CRETELLA: Ye .
THE COURT: E en h gh he ma n
e l in an
ec i n, like hi name and hi bi h da e and -ATTY. CRETELLA: I imagine he
ld an e h e [2]
e i n .
THE COURT: Oka .
ATTY. CRETELLA: I d n hink he
ld an e an
e -- He
ld in ke hi Fif h Amendmen igh
ega ding an
e i n in l ing an c iminal ac i i .
[1] THE COURT: Oka . We ma be aking him ne
beca e I ha e -- H ef ll
e can ake him ne -ATTY. CRETELLA: Oka .
*
*
*

[3] ATTY. SERAFINI: B
J dge, i

ha n

e en iall
ha i a ,
e mi ing c
-e amina i n hen i

A205
g e di ec l
he c ime cha ged i a i la i n [4] f he
c nf n a i n and ha g e f b h he -- he S a e and
he defendan .
S
hen he defen e ie
a k e i n f a i ne
and hen beca e he i ne i g ing in ke hei
Fif h Amendmen
i ilege he S a e i n l nge able
elici c
-e amina i n f ha -- ha he e ified ,
ha -- ha e im n h ld be
icken.
THE COURT: Oka . I g e I m c nf ed. If he i ne
i a ked a e i n, a he ligh g een, and he e
n e
i ha I m n g ing an e nde m
i ilege nde
he Fif h Amendmen , a e
a ing ha he S a e hen
h ld ha e a igh
c n in e e i ning in ha a ea?
ATTY. SERAFINI: If i ha
d
i h -- i h -- i n a
c lla e al i
e, hen he in being ha he S a e i n
being all ed c nf n he i ne and e
he
e aci
f ha he a e e if ing
-[3] THE COURT: B if he e n e im n -ATTY. SERAFINI: -- beca e he e -- beca e he e
in king hei
i ilege.
S
ha I m a ing i if he e i n ha he e
in king hei
i -- i ilege n ha e d
i ha
ma e a i
e he e, hen hei e im n h ld be
icken beca e he S a e i n being all ed c nf n
hem beca e he a e in king [5] hei Fif h
Amendmen
i ilege. S in he
d , he defen e
can a k he -- he i ne
e if X, Y, and Z. Y
kn , didn
g
Manhan S ee and hi
ha ened and ha ha ened and hen hen he S a e
an
-- c nf n hem and e
he
hf lne
f
ha e im n and he in ke hei Fif h, e can n
l nge -THE COURT: Oh, n . N . I m
. N ,I

A206
nde and.
ATTY. SERAFINI: Oka .
THE COURT: A
ne O B ien?
ATTY. O BRIEN: Y
H n , I -- I m baffled b hi
beca e he -- I a
me he efe ing M . B gg
e im n
he e he in ked he Fif h.
THE COURT: M . B gg e im n i d ne. I
n he
ec d. I m n g ing back
ha .
ATTY. O BRIEN: Righ . B M . B gg -- I
ld make
he a g men ha -- and I ha e made he a g men ha
e e e n able c nf n him f ll -THE COURT: C n el -ATTY. O BRIEN: -- beca e f he -[4] THE COURT: -- le me -- le me -ATTY. O BRIEN: -- fail e f he S a e -THE COURT: I m g ing -- I m g ing -- I m g ing
in e
. M . B gg ha e ified n di ec and ha
e ified n c
and ha e ified in he defendan ca e.
A fa a I m c nce ned, f
he e [6]
ceeding , he
d ne nle he called n eb al b he S a e. S I m
n g ing g back and e i i M . B gg e im n .
Tha d ne.
ATTY. O BRIEN: Y
H n , I belie e he defendan
a
ej diced b he fac ha M . B gg in ked hi
Fif h Amendmen in f n f he j
hich lead
ec la i n n he a
f he j
and he j
n
nde anding h
hen he a e if ing bef e he a
f ll an e ing he e i n . N , hen he e if ing
f
he defendan he n an e ing he e e i n ,
e ha en had he c nf n a i n
ni
i h e ec
M . B gg.
THE COURT: Oka . I n ed. I m n g ing b ing
M . B gg back.

A207
ATTY. SERAFINI: B
ha i
h I
f
e -THE COURT: I ag ee.
ATTY. SERAFINI: Thank
.
* * *

ld a k

i h an

[13] THE COURT: Linda,

ld
ell he j
ha
e e g ing be dela ed, lea e?
(The i ne , Vance Wil n, en e ed he c
m and
e med he i ne
and. Hi a
ne , D nald
C e ella, a
i h him in he i ne b .)
THE COURT: M . Wil n,
ld
-ld
c me
he e, i , lea e? We e g ing
ake -- ake he hand - hand e ain
ff.
(The i ne c nfe ed i h hi a
ne ff he ec d.)
ATTY. CRETELLA: We e all e .
THE COURT: Oka . M . Wil n, he j
n in [14]
he e. Le me ell
ha e e g ing d . The
defendan -- The defen e c n el i g ing a k
me
e i n . An
e i n ha
d n
an
an e
ba ed n he ad ice f
a
ne , hen j
a
.
We e n g ing ha e
d ha in f n f he j
.
An
e i n ha
an
an e , again, ba ed n
a
ne ad ice and hen e ll ee he he
n
e e g ing ha e he j
c me
a all.
THE WITNESS: All igh .
THE COURT: All igh . Le
ceed.
ATTY. SERAFINI: Bef e e d ha , J dge -- J dge -THE COURT: Yeah?
ATTY. SERAFINI: -- he S a e an
n he ec d
[12] f M . Wil n benefi ha he g an f imm ni -imm ni
ha a gi en him -- I d n hink ei he
c n el
M . Wil n
a ing a en i n a hi
in ,

A208
I ll j
ai n il he e d ne.
THE COURT: Le
ai .
(The i ne and A
ne C e ella c nfe ff he ec d.)
THE COURT: Oka .
ATTY. SERAFINI: The g an f imm ni
ha a gi en
M . Wil n e ended nl f hi e im n in he
S a e ca e in chief and i i he S a e
i i n ha an
e im n ha he gi e a hi [15]
i n f he
ceeding i n c e ed b ha g an f imm ni .
THE COURT: Oka . M . Wil n, le me j
a ne
m e hing. The la i nclea n hi
in a
he he
n
he fac ha
g imm ni
hen
e e he e a a i ne f
he S a e, he he ha in an
a a ache f
he en i e ca e. The la i e
nclea
n ha . The e a e n ca e n i ,
ha I m g ing
ad i e
,j
like I did he la
i ne
h
a
he e, i
h ld be g ided b he ad ice f
a
ne and ha -- ha
he a
e h ld
ceed.
A
ne O B ien?
ATTY. O BRIEN: J
ha I m clea in e m f ha
he g an f imm ni
a
hen he e ified f
he S a e.
Wa i f
e j
f an e -- e im n ha he ga e?
THE COURT: I d n ha e -ATTY. O BRIEN: I d n -- I d n ecall.
[13] ATTY. SERAFINI: N , beca e -- I a n f
e j
beca e, a I e indica ed i h e e
i ne , he
S a e cann g an imm ni f
e j
ha ha been
c mmi ed -THE COURT: Tha
nde he a e.
ATTY. SERAFINI: -ha i g ing be c mmi ed.
THE COURT: Tha
nde he a e.

[16] ATTY. SERAFINI: Tha

in he

a

e. Righ .

A209
THE COURT: Righ . Tha
nde he a e.
ATTY. O BRIEN: Well, ha imm ni did he g an ?
He al ead led g il . He g ing ge a 50 ea
en ence.
ATTY. SERAFINI: Well, i a f a claim f fal e
a emen , I belie e. I h gh ha
ha he defend -he i ne claimed.
THE COURT: C n el, a k he e i n , lea e.
A
ne C e ella and M . Wil n ill de e mine he he
n he g ing
e
nd
he e i n,
e need
g ne e i n a a ime. G ahead.
ATTY. O BRIEN: Migh I ha e a m men , Y
H n ?
OFFER OF PROOF EXAMINATION OF VANCE
WILSON

[17] BY ATTY. O BRIEN:
Q M . Wil n,
e ified ha he a emen ha
ga e in N h Ca lina, ha a gi en nde d e ;
i ha c ec ?
ATTY. SERAFINI: I m g ing
bjec , Y
H n .
Again, hi i di ec e amina i n and -THE COURT: Oka . Well -ATTY. SERAFINI: -- e d n ha e a ime f ame a
beca e he e ified a -THE COURT: All igh . C n el -- Again, A
ne
O B ien, lea e, ime f ame , n leading e i n . Thi
i
i ne .
BY ATTY. O BRIEN:
Q The a emen ha
ga e n Feb a 22nd,
2011 a
cl ck in he af e n n in Piedm n
C ec i nal Facili , ha , if an ,
mi e
e e made
a ha ime?
A Ba ed n he ad ice f m c n el, I m g ing

A210
in

ke m Fif h Amendmen igh .
QI n i
e ha
h
ha b ?
ATTY. SERAFINI: Objec i n
he leading e i n .
THE COURT: I leading. S ained.
BY ATTY. O BRIEN:
Q Did
did
n
h
ha b
ha nigh ?
A Ba ed n he ad ice f m c n el, I m g ing
in ke m Fif h Amendmen igh .
ATTY. O BRIEN: Y
H n , I hink i clea he n
g ing an e an
e i n ega ding hi inciden .
THE COURT: D
ha e an m e e i n f he
i ne ? If ha -ATTY. O BRIEN: Well, I c ld -THE COURT: If ha
he -- If ha
he e en f he
e amina i n, hen I
ld -ATTY. O BRIEN: N , i i n he e en f he
e amina i n.
THE COURT: -- I
ld n b ing he j
beca e
[18] ha
ld be im l
in ke hi Fif h Amendmen
i ilege i h
an
he e
n e .
BY ATTY. O BRIEN:
Q We e -THE COURT: G ahead.
Q We e
-- M . Wil n, e e
ld b he
de ec i e an hing i h e ec
he a emen in e m
f he he
ign i
n
ign i ?
A Ba ed n he ad ice f m c n el, I m g nna
in ke m Fif h Amendmen igh .
QD
emembe making a h ne call back in J ne
f 2012 a Ka en A kin ?
A Ba ed n he ad ice f m c n el, I m g ing
in ke m Fif h Amendmen igh .

A211
QI i
in en i n, M . Wil n, f n an e ing
an
e i n ega ding hi inciden ?
A Ba ed n he ad ice f m c n el, I m g ing
in ke m Fif h Amendmen igh .
ATTY. O BRIEN: Y
H n , he -- He gi ing a Fif h
Amendmen igh ega ding n an e ing e i n . I
d n ee he e he e an im lica i n, an je a d .
He j
elling me ha hi in en i n a e.
THE COURT: A
ne C e ella?
ATTY. CRETELLA: N -- N
i i n, Y
H n .
THE COURT: Le me hea he e i n again.
BY ATTY. O BRIEN:

[19] Q I i

in en i n n a k -- an e an
e i n ha I
e
ega ding hi inciden ?
THE COURT: I hink ha can be an e ed.
A N , I ain an e ing n
e i n .
QY
e n g ing an e an
e i n ?
ATTY. O BRIEN: Y
H n , I hink he clea ha he
n an e ing an
e i n -QY
e n an e ing an
e i n
i h e ec
ha cc ed n Jan a 18 h, 2010 a Diam nd C
?
A Tha c ec .
THE COURT: A
ne Se afini, d
ha e an
e i n a all?
ATTY. SERAFINI: N . I -THE COURT: Oka .
ATTY. O BRIEN: Y
H n ,I
ld bmi ha I d n
kn
if he ha i -- a Fif h Amendmen beca e hi
je a d -- he al ead led g il . He g a deal. Hi
deal i 30 -- 30 50 and I belie e ha if he S a e
ld -ld be f hc ming in hi ma e , I hink he
ld a ha he g ing -- he e g ing
ec mmend

A212
50 ea . S he al ead led g il , ied
i hd a
hi lea, b hi -- hi fa e i ealed.
ATTY. SERAFINI: And he S a e
i i ni i n
ealed beca e he e a -- i a ange. An e j
ha
he e e gi e ill affec he en ence he -- he ge
n
ha g il
lea and -ATTY. CRETELLA: If I -- If I migh , Y
H n ?
[20] THE COURT: A
ne C e ella?
ATTY. CRETELLA: The -- M . Wil n Fif h
Amendmen igh a e a ached n il j dgmen i en e ed
a en encing. The S
eme C
i
e
clea n ha .
THE COURT: Oka . T
hing : Fi
f all, nde
Sa e e
Pe n, a i ne ma n be called
he
and in he e ence f he j
me el f
he
e f
in king hi
i ilege again
elf-inc imina i n.
In S a e e
-- I m
. Thi i Ma in e
Flanagan, 259 C nnec ic 487, age 497 -- 497, he a
a h i
e mi a i ne
h e c n ic i n ha n
been finali ed n di ec a eal in ke he i ilege
again
elf-inc imina i n and
ef e
e if ab
he bjec ma e hich f med he ba i f hi
c n ic i n.
A hi
in , he C
find ha M . Wil n ca e ha
n been finali ed and ha he ha n
e been en enced
in hi ma e . The ef e, he ha a igh
in ke hi
Fif h Amendmen
i ilege. Since i n
e
d
ha nl in f n f he j
, I hink M . Wil n i d ne.
ATTY. CRETELLA: Thank
,Y
H n .
THE COURT: Thank
.
ATTY. SERAFINI: J dge, can I j
ha e he ci e f
b h -- he
ca e ha
e ci ed? I m [21]
. I
didn ge i n Ma in -THE COURT: S a e e
Pe n, 215 C nnec ic 653.

A213
ATTY. O BRIEN: Y
H n , ma I be hea d?
THE COURT: Well, le me -- One ec nd. All igh . Le
me d hi f
ne -- Ma in e
Flanagan, 259
C nnec ic 487. The di c
i n i a age 490 -ATTY. SERAFINI: Se en. I g
ha .
THE COURT: I m
. 487 -- 497, f n e 4.
ATTY. SERAFINI: Thank
.
ATTY. O BRIEN: Y
H n ,
ha I nde and hi ,
he S a e b ing he i ne in. He e ifie f ll ab
he inciden , he a emen , and hen hen I call him in
he d e n e if . I m a li le c nce ned. I i he g an f
imm ni
f he mi demean -- he ne ea
mi demean
hen he g 50 ea hanging e hi
head ha he decided
e if ? And if , a he e an
deal made i h hi
i ne
e if ?
THE COURT: C n el, he nl -- he nl
a I can
e
nd
ha
e i n i -- Well, n hi ec lia e f
ci c m ance I can find n C nnec ic ca e la a
he he
n imm ni g an ed in a
ceeding emain
in ha
ceeding. The nl hing ha I can find i ha
he C
cann imm ni e an b d f an hing and
ha he [22] S a e A
ne i he nl a h i
ha
can g an imm ni .
S he
i i n f he S a e i ha he imm ni
a
limi ed M . Wil n e im n a a S a e
i ne and
i a ing n he ec d ha he i n being imm ni ed
i h e ec
hi e im n a a defen e i ne ,
ba ed n he la a i c en l i c n i ed, he ha
e l , in m ie , in ked hi Fif h Amendmen
i ilege. I [19] d n kn
ha el e I can a . Tha -ATTY. O BRIEN: Well -THE COURT: Tha
he la .
ATTY. O BRIEN: S ha I nde and hi . The S a e

A214
b

gh him n and I
ld bmi -- bmi hi
el
ha he c ld in d ce hi
i
a emen
nde Whelan. In e m f a fai ne a ec , I h ld be
able
e i n him ab
ha
a emen n
ca e and
-ATTY. SERAFINI: He -- He a all ed d ing c
e amina i n, J dge.
THE COURT: Again,
had a igh
c
-e amine.
The e i n ca e n in ha I can find and an ne el e
h I a ked l k can find n hi a ic la i
e. The
cl e
hing i he e i n f e im n a a hea ing in
bable ca e and hen e im n a a b e en ial.
Thi i
e -- I ha e n been able find [23]
an hing. I ha e checked i h e e al f m c lleag e .
The e ne e
n in i bef e.
S a fa a I can find i , he e n la ,
I m g ing
i h he la a i c en l i c n i ed and he
A ella e C
ill make an f he de e mina i n in
ha ma e .
ATTY. O BRIEN: S he -THE COURT: I e d ne ha I hink i a
ia e.
ATTY. O BRIEN: S he S a e i -- i a ing ha he
g an ed imm ni f a fal e a emen , hich i a ne
ea mi demean , hen he
e
e a
g an
he imm ni
ha he c ld ge hi
a emen ha he
allegedl ga e in N h Ca lina in a a Whelan
a emen .
THE COURT: C n el, i n m
ince g behind
ha he S a e in ended didn in end d in hei
ca e.
ATTY. O BRIEN: N , I hink i clea ha ha
ha
hei in en a .
THE COURT: Well, hen I -- I m n g ing c mmen n

A215
ha . I m j
a ing ha hi i he la a I ead i . Thi
i an i
e ha need , a
me in , be decided b
A ella e C
. Righ n
he e n la . I m g ing
i h he iece I ha e. Tha all I can d .
Oka . An hing el e f M . Wil n?

[24] Oka . Thank

, i .
(The i ne , Vance Wil n, e i ed he c
m.)
* * *
MARCH 6, 2013 AM SESSION 53: T
DEFENSE CASE [E ce ,
ide e ence f j

[17] THE COURT: I ee A

ne Ja mann i he e.
ne Ja mann,
eak

]

Ha e
had a chance, A
ih
M . Oli han ?
ATTY JAUMANN: Ye , Y
H n , I ha e. G d
m ning, Y
H n .
THE COURT: G d m ning. Can
gi e
an idea a
he he
n he g ing
e
nd an f he
e i n ha a e a ked f him b ei he he defen e
he a e?
ATTY JAUMANN: On m ad ice he i n . Ba ed n he
e e en a i n ha imm ni
ill n be e ended him
being called a a defen e i ne .
THE COURT: Oka , I hink e need make a ec d
he e.
Im
, ill M . Oli han be
ne
i ne ,
c n el?
MR. O BRIEN: Ye , Y
H n .
THE COURT: Oka . Le b ing M . Oli han
.
Linda, again, lea e ell he j
ha e e g ing be a
li le bi l nge .
M . Oli han , c ld
c me
he e and ake he and,

A216
i , lea e.
If e c ld em e he hand e ain , lea e.
M . Oli han , fi
f all,
e ill nde a h.
A
ne Se afini, d e he a e ha e, f
he ec d, an
c mmen ?

[18] ATTY SERAFINI: Ye . F

he ec d, Y
H n ,
i
he a e
i i n ha he imm ni
ha a gi en
M . Oli han hen he e ified a a
ec i n
i ne in he a e ca e in chief ha ended i h hi
e im n and he ha n imm ni f an hing ha g e
n da .
THE COURT: M . Oli han , le me - I ll ell
he
ame hing. The la i nclea a
he he
n
he
imm ni
ha
e e g an ed c n in ed d ing he
en i e ial. The la i nclea . The ef e,
h ld be
g ided. An e
n e
make da a e b
a
ne ad ice,
h ld f ll
hi ad ice. The la
i nclea in hi a ea.
Ba ed n ha , A
ne O B ien.
DIRECT EXAMINATION BY ATTORNEY O BRIEN:
Q
M . Oli han ,
e e a e ed f d g
e i n back in 2010, c ec ?
A
Ye , i .
Q
And a a Jamal Wa e
i h
hen
e e
a e ed?
ATTY SERAFINI: I m g ing
bjec nle
e ha e a
ecific da e.
ATTY O BRIEN: Thi i Feb a 2, 2011.
ATTY SERAFINI: S i a n - he e ified ha he a
a e ed f d g
e i n in 2010.
THE COURT: I he e a legal bjec i n f
he ec d?
ATTY SERAFINI: Ye .

A217
[19] THE COURT: Wha i i , lea e?
ATTY SERAFIN: I
ld like he ecifici a
he
da e.
THE COURT: S ained. Le ha e he e ac da e,
lea e.
ATTY O BRIEN: Ye , I m mi aken ab
ha da e, Y
H n .
THE COURT: Oka . Le ha e he e i n again,
lea e.
Q
Feb a 2, 2011
e e in c
d f ad g
e i n cha ge, c ec ?
A
I can eall emembe he c ec da e b i
migh ha e been.
Q
And d
ecall a Jamal Wa e being a e ed
ih
?
ATTY SERAFINI: Y
H n , I am g ing
bjec
he
leading e i n . Thi i di ec .
THE COURT: The e leading e i n ,
ained.
Q
D
kn
a Jamal Wa e ?
A
I d n kn
an Jamal .
Q
Y d n kn
Jamal Wa e ?
A
Jamel?
Q
Jamel Wa e .
A
I d n kn
Jamel Wa e , n .
Q
B
e e in c
d and
e e ified ha
e e being bea en, c ec ?
ATTY SERAFINI: C ld e ha e a da e? Objec i n.

[20] Q On Feb a
A
Q
A

Si , m la e
I ha ha
Ye .

2, 2011.
ld me
ake he Fif h.
an
d ?

A218
Q

N

e ified a he ial ha
fel g il
ha fel g il ab
Vance Wil n. Can
e lain ha ?
A
I lead he Fif h.
ATTY O BRIEN: I d n ha e an f he
e i n ,Y
H n .
THE COURT: An
e i n ?
ATTY SERAFINI: N , Y
H n .
THE COURT: D
i h ha e M . Oli han an e
he
e i n he did an e in f n f he j
?
ATTY O BRIEN: Taking he Fif h, Y
H n ?
THE COURT: Well, n . He an e ed
e i n . The
e i n ha
a ked he an e ed, e e
a e ed
f a d g cha ge n 2-2-11; he an e ed ha , igh ?
ATTY JAUMANN: He an e ed if he a a e ed f a
d g cha ge. I d n belie e he fi
e i n he e a a
da e.
THE COURT: Oka , a e ed f a d g cha ge.
ATTY JAUMANN: The ec nd a if he kne Jamal
Wa e . The an e a n .
ATTY O BRIEN: If I migh a k ne he
e i n?
THE COURT: S e.
Q
Wh
e e
a e ed i h n Feb a 2,
2011?
ATTY SERAFINI: Objec i n, ele ance.

[21] THE COURT: O e

led.
C ld
a k he e i n again, lea e, i .
Wh
e e
a e ed i h n Feb a 2,

A
Q
2011?
A
I a a e ed i h a c
le f e le. I a
a e ed i h a g named Jamel. I a a e ed i h a
g named De an e. I a a e ed - i a like i

A219
e en f .
Q
I Jamal Wa e MR. COLLYMORE: Jamel.
ATTY SERAFINI: Objec i n
he leading e i n nce
again.
THE COURT: C n el, i leading. S ained.
Q
D
kn
hi la name?
ATTY SERAFINI: Objec i n. Tha a a ked and
an e ed. He aid he didn .
THE COURT: O e led.
A
N .
THE COURT: All igh , d e n kn
he la name.
Q
H
l ng had
kn n Jamel?
A
I me him h
gh a m
al ATTY SERAFINI: Objec i n again
he ele ance,
J dge.
ATTY O BRIEN: Y
H n ,
ha he C
kn
,I
ha e Jamel Wa e d n ai . He g ing
e if
h
a
e en in he ATTY SERAFINI: I m g ing
bjec ha hi i d ne in
f n f an he i ne , J dge. Tha ina
ia e. S
he can ignal him ha he [22] an him
a ?
Tha ina
ia e.
ATTY O BRIEN: N , I m n
ignaling an hing. I j
an
e abli h ha he a he e a he ame ime.
THE COURT: Wha ele ance i h
l ng M . Oli han
migh ha e kn n Jamel? Wha
he ele ance f ha ?
ATTY O BRIEN: Well ha he kn
each he .
THE COURT: B
he an e a can a k him
ha
e i n, d e he kn
him, b
he ele ance f h
l ng - ATTY O BRIEN: Oka .

A220
THE COURT: I n
ele an .
Q
Y kn
Jamel Wa e ?
ATTY SERAFINI: Objec i n. Tha ha been a ked and
an e ed.
THE COURT: The e im n ha I hea d a ha M .
Oli han kne
meb d named Jamel. He didn a
an hing ab
kn ing he
name. S le me hea he
e i n in e m f ha he e im n ha been.
Q
H
ell did
kn
him?
ATTY JAUMANN: C ld e ge
me cla ifica i n a
h ?
ATTY O BRIEN: Jamel - - he kn
him a Jamel.
A
Ac all I e kn n him a Mel.
Q
Mel.
A
H
l ng ha e I kn n him? I e kn n him
n
ha l ng.

[23] ATTY O BRIEN: N

he
e i n ,Y
H n .
CROSS-EXAMINATION BY ATTORNEY SERAFINI:
Q
Did
kn
Mel f m d g dealing?
A
I ake he Fif h.
Q
And d
ha e an ime f ame ha
had
kn n Mel?
A
I ake he Fif h.
Q
And
and Mel had
e i n f na c ic
ha nigh n Feb a 2, 2011?
A
I ake he Fif h.
THE COURT: C n el, hi i
ide he c e.
A
ne O B ien, ame e i n, d
i h ha e he
j
b
gh
and hea M . Oli han
e
n e ? N
he e he
k he Fif h Amendmen , hi e
n e
he
fe
e i n ha he -

A221
ATTY SERAFINI: J dge, he cann
elec i el in ke he
Fif h Amendmen . S if he a e
e i n ha I j
ed he g ing in ke he Fif h, hen i
ina
ia e ha e him THE COURT: Le me d hi ne a a ime
I can c ea e
he ec d.
ATTY SERAFINI: Oka .
ATTY O BRIEN: Ye , Y
H n .
THE COURT: Wha
he a e
i i n a fa a f ll ?
ATTY SERAFINI: The a e
i i n i ha i
ina
ia e ha e him c me
- he a e cann
c
-e amine him beca e he lan
in ke he Fif h
[24] n he e i n ha he a e in end
a k him.
THE COURT: A
ne O B ien, h
d
e
nd
ha , he e he i ne ha indica ed he n g ing
e
nd an f he e i n a ked n c
e amina i n b he a e ba ed n he ca e e alked
ab
e e da , S a e . Pie n, hich a
he i ne
ma n be called
he and in he e ence f he j
f
he
e f in king hi
i ilege again
elfinc imina i n. S if d ne n he di ec , he g ing d i
n he c
-e amina i n. S
h h ld i be e en ed
he j
?
ATTY O BRIEN: Well I an
a k him he he he
kn
Mel.
THE COURT: All igh , if
ha e addi i nal e i n
le me hea he addi i nal e i n . We e g
make
he f ll ec d he e. G ahead.
RE-DIRECT EXAMINATION BY ATTORNEY O BRIEN:
Q
Y indica ed d ing
di ec e im n ha
fel g il . Wha a ha efe ence?
ATTY JAUMANN: He
k he Fif h Amendmen
ha

A222
e i n.
THE COURT: On ha
e i n, M . Oli han in ked hi
Fif h Amendmen
i ilege. S a f ll e i n
ld n be a
ia e.
Q
Y
e e a e ed n Feb a 2, 2011, c ec ?
A
Ye .
Q
And ne f he e le
e e a e ed i h
a [25] meb d
kn
a Mel?
ATTY SERAFINI: Objec i n
he leading e i n , and
he e ha e al ead been a ked. I d n nde and THE COURT: C n el, again, he e leading e i n .
ATTY O BRIEN: All igh , I nde and.
ATTY JAUMANN: Y
H n , if I m n mi aken, I
belie e he e e i n
e e all
ed and he an e ed.
THE COURT: Tha c ec ,
he bjec i n i
ained.
The e been a ked and an e ed al ead .
ATTY O BRIEN: S
e e ead
g .
THE COURT: C n el, I need a e
n e m in i .
M . Oli han ha indica ed ha he i g ing in ke hi
Fif h Amendmen
i ilege i h e ec
an c
e amina i n. Wha , hen, nde
ca e la
ld all
him
e if a all in f n f hi j
?
ATTY O BRIEN: Y
H n ,i g e
he a e
i i n ega ding e king hi imm ni f hi
e im n . Selec i el e king hi imm ni .
THE COURT: C n el, ha an i
e ha e e l ed
e e da . Again, I ha e ad i ed he i ne e ha he
la i nclea , ha he h ld f ll
he ad ice f hei
c n el beca e I feel he la i nclea . He ha d ne
ha . I need kn
- lea e an e m
e i n.
Unde
ca e la
hich a
ha
h ldn ha e
meb d in f n f a j
j
f [26] he
e f

A223
in king hei Fif h Amendmen , hich he ha indica ed
he g ing d
i h e ec
all he c
-e amina i n
e i n . Wha
he a g men ? Wha ca e la
- ha
i he e ha e M . Oli han e if a all in
f n f hi j
? Tha
ha I m
ing find
.
ATTY O BRIEN: Y
H n , he e i n ha I
ed
e e a he a e ed n Feb a 2, 2011. The j
kn
ha . Wa he a e ed i h - h
a he a e ed
i h, Jamel?
ATTY SERAFINI: Can I a k ha he i ne be em ed
hile hi a g men i being made?
THE COURT: Oka , kee M . Oli han in he h lding
a ea, lea e.
MR. OLIPHANT: Can I alk m la e , lea e?
THE COURT: Ye . The e
m he e, i , he e he can
alk
.
D n ake him d n ai . Thi h ldn be
l ng.
A
ne O B ien, he i
e - ma be I m n
h a ing
c ing he e i n
e l . M . Oli han ha
indica ed he n g ing an e an f he a e
e i n nc
-e amina i n. S
ha
he a g men
b ing him
he e
ha
can a k him me
e i n a
hen he a a e ed and d e he kn
hi e n ATTY O BRIEN: Y
H n , I nde
d ha . Ma be
[27] I didn hea him a ha b he e i n i he
an e ing m
e i n ega ding hen he i a e ed.
The c e f ha
e i n,
kn , he a a e ed.
Well, ha
he g ing be able a k ab
ha ? H
ha g ing ge THE COURT: A
ne Se afini?
ATTY O BRIEN: Ye , he a
ne , he a e a
ne .
THE COURT: Oka .

A224
ATTY O BRIEN: And d e he kn
Jamel THE COURT: Le me back
f he . Wha i he
ele ance f he da e ha M . Oli han a a e ed?
ATTY O BRIEN: I
ele an beca e Jamel Wa e a
al a e ed i h him
THE COURT: I nde and ha , b h
i hi
i ne
e if ing ha he a a e ed, hich he j
al ead
kn
f m i
e im n . Wha addi i nal
e
ld
a g e - he j
kn
ba ed n i
e im n ha M . Oli han a a e ed n Feb a 2,
2011. Tha been e abli hed. T a k him ha
e i n
again, and if ha
he nl
e i n
e g ing a k,
ha
he ele ance?
ATTY O BRIEN: N , he ec nd e i n i
h
e e
a e ed i h, ne f he e le being Jamel Wa e .
THE COURT: I he e g ing be a hi d e i n?
ATTY O BRIEN: I hink he - THE COURT: Le a
me h
he icall he a he a
[28] a e ed i h Mel.
ATTY O BRIEN: And ha ill be he e i n .
THE COURT: T
e i n ?
ATTY O BRIEN: T
e i n , and he hi d ne being
d e he kn
Mel.
THE COURT: Oka . N
ba ed n h e e i n , h
can he a e hen in i e a
ha he a e
a
ab
? And he g ing
ef e an e .
ATTY O BRIEN: N , I nde and he C
i i n.
THE COURT: Oka .
ATTY SERAFINI: And hen he a e
ld be in he
i i n f a king he C
ike he e im n
hich
he j
ld ha e hea d. Tha
h i d e n c me in.
THE COURT: If in fac - le me ee if I can e he ec d

A225
f
hi . If m nde anding f he le i if a
i ne i n a ailable f c
-e amina i n, i.e. he
n an e an
e i n , hen he C
i e i ed
ike an di ec e im n . W ld
ag ee i h ha ?
ATTY O BRIEN: Ye , I d .
THE COURT: Oka . S if he n g ing an e an
e i n , ha
he
e in b inging him
, a king
e i n , ha ing him in ke hi Fif h Amendmen ,
hen elling he j
he a e di ega d hi e im n
beca e I
ld ha e
ike i if he [29] n g ing
an e
e i n nc
-e amina i n,
ld
ag ee
ha ha
ld be he
ced e he C
ld ha e
f ll ?
ATTY O BRIEN: Ye , I d , Y
H n ,b
hi i a
i a i n c ea ed b he a e.
ATTY SERAFINI: The a e i b nd b he le f
e idence.
THE COURT: I d n need hea an f he a g men .
All igh , le b ing M . Oli han and M . Ja mann back
. I ill e lain m
ling n he ec d.
C ld e ake he hand e ain
ff, lea e.
Thi i
ha e e g ing d . M . Oli han did e
nd
a fe
e i n nde di ec e amina i n. He ha
indica ed ha he i n g ing
e
nd an
e i n
a ked b he a e n c
-e amina i n, hich he ha
been ad i ed b A
ne Ja mann n
e
nd .
The ef e, if he j
came
and all ed M . O B ien
a k he e i n and hen he a e a nable c
e amine, I
ld be f ced nde
le in he
e ence f he j
ike M . Oli han
e im n .
The ef e, I find he nl
e f ha ing M . Oli han
e if in f n f he j
ld e l in he C
ha ing
ike hi e im n , ha i
- ha S a e .

A226
Pie n, 215 C nnec ic 653 C nn a lie and a i ne
ma n be called
he and in he e ence f he j
me el [30] f
he
e f in king hi
i ilege. S
I m n g ing j
ge him
he e
ike hi
e im n .
An hing f he f
he ec d bef e I a k ATTY O BRIEN: N , Y
H n .
ATTY SERAFINI: N , Y
H n .
THE COURT: Oka , hank
. Thank
,M .
Oli han .
ATTY JAUMANN: Tha mean he elea ed f m he
b ena?
THE COURT: He d ne, he d ne.
ATTY JAUMANN: Thank
.
*
*
*
*
MARCH 12, 2013 AM [E ce
] 58 T:
CHARGING CONFERENCE, MOTION
[3] THE COURT: Oka . Wi h ega d
he a e
m i n in limine, in a ic la i em i . I am g ing
all
he defendan
a g e he i
e f hi d a
c l abili beca e I find ha he e i e idence i h
ega d
he fi
f
c n ,n
he fif h c n , he fi
f
c n .
B
aken ge he , he e idence hen aken
ge he , c n ide ed in ligh m
fa able f
he
defendan .
If he j
ch e
belie e he e im n ,
a ic la l he e im n f M . C ll m e, hen hi
e im n
ld indica e ha he a n - did n ha e
he in en
c mmi he nde l ing cha ge, hich i
bbe in he fi
deg ee. He f he e ified ha M .
Wil n a he inci le.

A227
S I m g ing all
- if hi j
belie e ha hen
ha e abli he hi d a
c l abili
i h e ec
h e fi
f
cha ge . If he belie e ha . S ha can
be a g ed
he j
.
Oka , i h e ec
he e im n a he HPC f M .
B gg and he lea hea ing i h ega d M . Wil n.
Again, I ha e e ie ed he e im n in hi ca e
incl ding he c
e amina i n f M . B gg and M .
Wil n.
Make a finding ha he e a - ha he e idence
bmi ed ne, alifie nde Whalen, he [4] e idence
being he e im n a he HBC f M . B gg and he lea
hea ing f M . Wil n in
fa a i i inc n i en i h
hei e im n he e a he ial.
Th e inc n i encie
e e e ie ed in m
ini n b
- in b h he di ec e amina i n and he c
e amina i n. The ef e, he e a a igh f
c nf n a i n. M i n
ike i denied.
All igh , an hing el e bef e he anel c me
f
he final a g men ?
ATTY. O BRIEN: Ye , Y
H n . The C
-I
ld
a k f a limi ing in
c i n ega ding he - he
e ca i n f he imm ni i
e. The j
d e n kn
ha .
The imm ni
a lif ed f
he ame defen e
i ne e ha e e
n b he a e ca e.
THE COURT: O he han M . B gg, he j
ne e hea d
ha e ca i n. Did i ?
ATTY. O BRIEN: The j
didn hea an hing ab
imm ni . S
hen he defendan
n hi - h e ame
i ne e he
e eTHE COURT: B
h e i ne e - he nl - he
i ne e ha e e called b he defendan , in a ic la

A228
M . Oli han and M . Wil n and I belie e b h M .
Wil n . The j
ne e a hem in ca e hei fif h
amendmen igh n
e if . I ha c ec ? Am I
c ec in ha ?
ATTY. O BRIEN: Tha c ec .

[5] THE COURT: All igh ,

ha am I g ing

ell he

j
?
ATTY. O BRIEN: Tell he j
ha hen he defendan
called he ame i ne e
e if f eel and enl ,
he e icall , hen he
e e called he had la e
i ing in he b and he e e ci ed hei fif h
amendmen THE COURT: Wha
he a h i f
ha ? If
can
gi e me me a h i , C n el, I ll c n ide i .
ATTY. O BRIEN: I d n ha e a h i , Y
H n .
Thi - hi
THE COURT: And I c ldn find i .
ATTY. O BRIEN: - ma be he ca e f a h i .
ATTY. SERAFINI: N , he ca e i S a e e
I e n.
Tha
he ca e ha a
can d ha . And ha
ld fl in he face f he h lding in S a e e
I e n, hich i ha a j
can n kn .
THE COURT: D
ha e an ca e , C n el? I need
hem bef e I cha ge he j
in hi ma e . I can n
find an ca e ha
a g men . If
g
me hing le me ee i , he i e I can n find an hing
ha
ha a g men .
And i h e ec
M . B gg, he e i an in ca i n
cha ge in he e.
S a hi
in I ll e e e deci i n. If
gi e me
me hing I ll c n ide i . B
igh n
[6] i n
be I mean
e a king me - n
i ela e
he final
a g men . C ec ? W ld
be a g ing hi in

A229
final a g men
he j
?
ATTY. O BRIEN: I de end n ha he C
-Y
H n , I d n ha e an ca e n i . I e l ked f ca e
ni .
THE COURT: Oka .
[6] ATTY. O BRIEN: B I m a ing in he elemen f
fai ne THE COURT: All igh , ha i he - I didn b ing i
i h me.
ATTY. SERAFINI: Can I ha e j
a min e, J dge?
THE COURT: Linda, ell he j
e e g ing be a fe
min e . I m g ing ha e
ead he ca e again bef e I
le n hi . Gi e me he ci a i n, C n el. I m g ing
ake a b ief ece .
ATTY. SERAFINI: I 48 C nn. A . 168, Y
H n ,
ha S a e e
B ce I e n.
THE COURT: All igh . A
n a I ead he ca e I m
c ming back
e ll ake a b ief ece .
(A ece
a aken, af e hich he f ll ing cc ed.)
THE COURT: Oka , b ing M . C ll m e
, lea e.
Oka , I e e ie ed S a e e
I e n, hich again i
48 C nn. A . 168. I ha a di e he ca e, [7] i i
ill
he la in C nnec ic . A age 174 in I e n he C
a e a f ll
: A i ne ma n be called
he
and in he e ence f he j
me el f
he
e f
in king hi
i ilege again
elf inc imina i n.
Nei he he a e n
he defendan ha he igh
benefi f m an infe ence he j
ma d a
im l f m
he i ne a e i n f he i ilege.
If he j
- if he i ne can in ke he i ilege in
f n f he j
, me i a l gical c ncl i n ha i
h ldn be a a
f he cha ge
ell he j
ha ha

A230
ha ha ened.
S ha
he la
I am n g ing gi e he in
c i n.
Again, ha
he la , ha
ha i a .
ATTY. O BRIEN: Y
H n , I d like make a f he
a g men . I hink ha if he C
ecall I a ked M .
B gg ab
hi ela i n hi
i h M . F e and I a ked
he e i n ab
him ealing f m him. And a ha
in I didn kn
he a g ing in ke he fif h. Hi
la e , M . H chin n, ld him a e hi fif h
amendmen .
S ha I hink in e fe ed i h m abili
ge in
he i
e f h M . B gg did n like M . F e,
a ic la l a he ime i h M . F e i
edl
ela ing a c n e a i n ha he had i h M . B gg.

[8] S hi a e i n f he fif h amendmen

ed

me f m ge ing in
ha .
THE COURT: A
ne Se afini?
ATTY. SERAFINI: I hink ha C n el an a
M lligan, Y
H n . He had he
ni
c
e amine b h M . B gg and M . F e hen he
e e n
he and. He c ld ha e a ked h e e i n
hen
ei he ne f hem a n he and and he didn .
S he b
m line i he had he
ni and ha
ha he ca e la
a ,
ha e be aff ded he
ni f c
e amina i n.
THE COURT: Wh
a n he i
e
ed n c
e amina i n?
ATTY. O BRIEN: I d ha e
e ace m n e . I d n
ecall, Y
H n .
THE COURT: Again, C a f d i he i
e i h e ec
he e i
e in m
ini n. And M . B gg a n he
and, he had been imm ni ed hen he a called b he
a e.

A231
I a ade a e abili
c
e amine a ha
in
and i a n d ne
I m n g ing - e ce f
he
cha ge ha alk ab
M . B gg in ca i n f a
i n
f hi e im n in f n f he j
, I m n g ing gi e
an f he in
ci n .
An hing el e?

